<html>
<title> - GAO FIVE-YEAR UPDATE ON WILDLAND FIRE AND FOREST SERVICE/BUREAU OF LAND MANAGEMENT ACCOMPLISHMENTS IN IMPLEMENTING THE HEALTHY FORESTS RESTORATION ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  GAO FIVE-YEAR UPDATE ON WILDLAND FIRE AND FOREST SERVICE/BUREAU OF 
 LAND MANAGEMENT ACCOMPLISHMENTS IN IMPLEMENTING THE HEALTHY FORESTS 
                            RESTORATION ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, February 17, 2005

                               __________

                            Serial No. 109-3

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-808                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
             TOM UDALL, New Mexico, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Wayne T. Gilchrest, Maryland         Neil Abercrombie, Hawaii
Chris Cannon, Utah                   Dan Boren, Oklahoma
John E. Peterson, Pennsylvania       Peter A. DeFazio, Oregon
Thomas G. Tancredo, Colorado         Jay Inslee, Washington
J.D. Hayworth, Arizona               Mark Udall, Colorado
Jeff Flake, Arizona                  Dennis Cardoza, California
Rick Renzi, Arizona                  Stephanie Herseth, South Dakota
Henry Brown, Jr., South Carolina     Nick J. Rahall II, West Virginia, 
Cathy McMorris, Washington               ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, February 17, 2005......................     1

Statement of Members:
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................    15
    McMorris, Hon. Cathy, a Representative in Congress from the 
      State of Washington........................................    15
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................    14
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     1
        Prepared statement of....................................    13

Statement of Witnesses:
    Cummins, James, Executive Director, Mississippi Fish and 
      Wildlife Foundation........................................    60
        Prepared statement of....................................    62
    Gregory, Lisa Dale, Ph.D., The Wilderness Society, Denver, 
      Colorado...................................................    73
        Prepared statement of....................................    75
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........    16
        Prepared statement of....................................    20
    Rey, Hon. Mark, Under Secretary for Natural Resources and 
      Environment, U.S. Department of Agriculture................    39
        Prepared statement of....................................    41
    Tucker, Lena, Society of American Foresters, Springfield, 
      Oregon.....................................................    67
        Prepared statement of....................................    70
    Watson, Hon. Rebecca, Assistant Secretary, Land and Minerals 
      Management, U.S. Department of the Interior................    34
        Prepared statement of....................................    36

Additional materials supplied:
    Napolitano, Hon. Janet, Governor, State of Arizona, and Hon. 
      Dirk Kempthorne, Governor, State of Idaho, Statement 
      submitted for the record on behalf of the Western 
      Governors' Association.....................................     2


 OVERSIGHT HEARING ON GAO FIVE-YEAR UPDATE ON WILDLAND FIRE AND FOREST 
 SERVICE/BUREAU OF LAND MANAGEMENT ACCOMPLISHMENTS IN IMPLEMENTING THE 
                    HEALTHY FORESTS RESTORATION ACT

                              ----------                              


                      Thursday, February 17, 2005

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:03 a.m., in 
Room 1324, Longworth House Office Building, Hon. Greg Walden 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Walden, Peterson, Tancredo, 
Hayworth, McMorris, Tom Udall, DeFazio, Inslee, and Mark Udall.

  STATEMENT OF THE HONORABLE GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. The Subcommittee on Forest Health will come to 
order. The Subcommittee is meeting today to hear testimony on 
the Government Accountability Office Five-Year Update on 
Wildland Fire, and on the Forest Service and Bureau of Land 
Management Accomplishments in Implementing the Healthy Forest 
Restoration Act.
    Under Committee Rule 4(g), the Chairman and the Ranking 
Minority Member may make opening statements, and if any other 
members have statements, they can be included in the hearing 
record under unanimous consent.
    It is fitting that this Subcommittee's first full hearing 
in the 109th Congress focuses on the issue of hazardous fuels 
and its relationship to wildland fire. While this Subcommittee 
will take up many other important topics in the next two years, 
when it comes to the ecological integrity of our Federal 
forests, all other issues take a back seat. The enormity and 
severity of the problem and our ability to affect it will have 
more impact on wildlife habitat, water quality, air quality and 
community protection than frankly any other forest issue.
    To explain the explosive nature of the problem, let me give 
you some forest growth statistics on our national forests. 
Total net growth is currently about 20 billion board feet per 
year, while total mortality is approximately 10 billion board 
feet per year, and the annual harvest is less than 2 billion 
board feet per year. In other words, we are removing less than 
one-fifth of what is dying on our forests and less than one-
tenth of what is growing. This is the 800-pound gorilla that is 
wreaking havoc on our national forests and why today we have 
approximately 190 million acres of Federal land at high risk of 
catastrophic fire. While some of you may have grown tired of 
our call to thin and treat our forests, let me tell you this: 
you haven't heard anything yet.
    In 1999, at the request of the Subcommittee, the Government 
Accountability Office produced an analysis of catastrophic 
wildfire that stated, and I quote: ``The most extensive and 
serious problem related to the health of national forests in 
the interior West is the overaccumulation of vegetation, and 
catastrophically destructive wildfires.'' This is the GAO 
making these comments, not us. The GAO's report in no small way 
helped to set the stage for many of the positive changes that 
have occurred in the five years following the release of that 
report, from the creation of the National Fire Plan in 2000 to 
the development of the 10-Year Comprehensive Wildfire Strategy 
guided by the Western Governors' Association, to the Bush 
Administration's Healthy Forest Initiative, to the 108th 
Congress's passage of the Healthy Forest Restoration Act, and 
to the quadrupling of funds spent by the agencies on hazardous 
fuels reduction and the resulting quadrupling of acreage 
treated--much has been done to address the problem.
    This week, again at the request of this Subcommittee, the 
Government Accountability Office produced a five-year follow-up 
report, which recognized that much progress has been made in 
wildfire management, from prevention to suppression. The report 
confirms what we had hoped to hear and what many of us worked 
so hard to achieve as we developed and moved the Healthy Forest 
Restoration Act through the Congress two years ago.
    But the GAO also confirms what many of us have seen and 
experienced recently as we visited Federal forests, that we 
have a lot more to do and a long way to go. So I have traveled 
around our national forests since passage of HFRA. I have found 
that while some forest units are aggressively implementing the 
law, others have hardly begun. The GAO's report corroborates 
those shortcomings, stating that a number of the agency's local 
fire management plans do not meet agency requirements. 
Particularly the GAO reported that an overarching cohesive 
strategy that identifies long-term options and needed funding 
requirements is still not in place. The Western Governors' 
Association, in its own November 2004 report and in written 
testimony submitted for this hearing, makes similar 
recommendations.
    [The documents submitted for the record by the Western 
Governors' Association follows:]

 Statement submitted for the record by The Honorable Janet Napolitano, 
Governor, State of Arizona, (WGA Vice-Chair and Forest Health Co-Lead), 
 and The Honorable Dirk Kempthorne, Governor, State of Idaho, (Forest 
    Health Co-Lead), on behalf of the Western Governors' Association

    Thank you Chairman Walden, Congressman Inslee and other 
distinguished members of this Subcommittee for the opportunity to 
submit written testimony for today's hearing on wildfire and forest 
health. This statement is submitted on behalf of the Western Governors' 
Association by Governor Janet Napolitano of Arizona, Vice-Chairman and 
co-lead Governor for forest health; and Governor Dirk Kempthorne of 
Idaho, co-lead Governor for forest health. WGA is an independent, non-
partisan organization of Governors from 18 western states and three 
U.S.-Flag Islands in the Pacific. We appreciate this opportunity to 
present the collective views of the Western Governors.
    With the 2005 wildfire season approaching, it is timely to review 
progress made during past five years on wildfire and forest health 
issues. As we look back, beginning in 2000 with the National Fire Plan 
under the Clinton Administration, proceeding to the Congressionally 
requested 10-Year Comprehensive Wildfire Strategy and its 
Implementation Plan (10-Year Strategy) guided by the WGA, and now to 
the Bush Administration's emphasis on the Healthy Forests Initiative 
and the bi-partisan passage of the Healthy Forests Restoration Act, it 
is clear that progress on wildfire and forest health issues rests on a 
strong foundation of bi-partisan cooperation.
    As a result of this cooperation, significant progress has been made 
implementing the 10-Year Strategy: Hazardous fuel reduction acreages 
have increased, federal-level cooperation and coordination has been 
enhanced through the formation of the Wildland Fire Leadership Council, 
and the fire preparedness of many western communities is increasing 
through the development of Community Wildfire Protection Plans.
    Yet, despite this important progress, after five years of concerted 
effort there are still hurdles facing our pursuit of the 10-Year 
Strategy goals. Additional commitment is needed. Federal agencies 
report that some 80-90 million federal acres alone remain at-risk of 
catastrophic wildfire. Wildland fire suppression costs have exceeded 
the $1 billion mark in three of the last five years. Significant gaps 
remain in implementing the collaborative framework the 10-Year 
Strategy. Communities continue to struggle to build local capacity to 
develop and implement wildfire mitigation programs. And there is a need 
for a clarified vision of restoring fire-adapted ecosystems, including 
landscape contexts that emphasize the use of fire as a management tool. 
Addressing these important hurdles will require additional commitment 
of time, energy and funding.
    Clearly there is still much work ahead of us. The three core 
principles of the 10-Year Strategy--collaboration at the local, 
regional and national levels; prioritization emphasizing the protection 
of communities and key watersheds; and creation of uniform and cost-
effective measures of accountability--remain as important today as they 
were in August, 2001, when the Secretaries of Interior and Agriculture, 
Governors, and a diversity of stakeholders first agreed to the 10-Year 
Strategy in Coeur d'Alene, Idaho. Our nation's wildfire challenges will 
only be met with continued adherence to the 10-Year Strategy and 
integration of its principles into all our efforts to meet those 
challenges.
    With this in mind, the WGA continues to pursue improvement of our 
wildfire and forest health response. In June of 2003, the WGA hosted a 
Forest Health Summit to spotlight forest health and wildfire issues. At 
the Summit, Governors heard from diverse interests who offered 
recommendations to the Governors on how to improve forest health. One 
of many items that resonated with Summit participants and the Governors 
was a call to review the 10-Year Strategy. WGA established a Forest 
Health Advisory Committee (FHAC) to pursue this call and other 
recommendations, as WGA continues working with all its partners on 
forest health issues.
    Governors nominated forest health and wildfire stakeholders from 
across the spectrum of interested stakeholders for the FHAC to keep the 
Governors on the cutting edge of issues. The FHAC is comprised of more 
than fifty individuals from federal and state agencies, county elected 
officials, tribes, fire departments, conservation groups, industry, 
local communities and academia.
    The FHAC is founded upon the principle of collaboration. It is 
certainly not always easy, but the results showcase the good things 
that come when people work on commonalities. The FHAC is an example of 
the Enlibra principles created by WGA. The FHAC lends itself well to 
the complex, cross-boundary nature of wildfire and forest health 
issues.
    In November of 2004, the FHAC finalized its review entitled, 
``Report to the Western Governors on the Implementation of the 10-Year 
Comprehensive Strategy.'' The following month, the FHAC report was 
reviewed by WGA Governors at their December 2004 meeting. The FHAC 
report details significant progress over the past five years, thanks in 
large part to federal leadership and the professional staffs of the 
USDA Forest Service and the Department of the Interior fire bureaus.
    It is clear that communities and the environment are safer as a 
result of these 10-Year Strategy efforts. Nonetheless, the report also 
lays out a comprehensive approach for continued improvement of our 
wildfire and forest health efforts. Some of these items will need 
Congressional attention. To give you a better idea of the report's 
content, a number of items worth highlighting are detailed below. The 
entire FHAC report on the 10-Year Strategy is attached to this 
testimony.
10-Year Strategy Needs
    A number of themes arose throughout the FHAC evaluation of the 10-
Year Strategy. In particular, as we move forward in updating and 
improving our work under the 10-Year Strategy, there is a need for:
    <bullet>  Improved information sharing and monitoring of 
accomplishments and forest conditions to improve transparency. The 
better job we do at relaying results of our wildfire mitigation 
efforts, the more buy-in and understanding there will be from the 
public. To this end, continued emphasis on open, transparent and clear 
reporting and monitoring processes is essential.
    <bullet>  Committed long-term funding of the 10-Year Strategy. 
Drought and climate predictions do not portend favorably for avoiding 
catastrophic wildfire and the necessity of threat reductions over the 
next few decades. Committed long-term funding from all levels of 
government will be necessary to keep the hazardous conditions from 
endangering the public and unnecessarily risking our natural resources. 
The WGA forwarded 10-year federal funding projections developed by the 
National Association of State Foresters in a 2002 letter to Congress 
(http://www.westgov.org/wga/testim/wildfire--approps--6--20--02.pdf). 
These figures provide some broad guidance on the resources necessary to 
meet all of our stated goals.
    <bullet>  Landscape-level vision for restoration of forests. When 
working to restore forest health as a whole, the broadest possible 
vision is needed to address the interconnected nature of wildfire 
threats. Community, watershed and habitat protection are best achieved 
through landscape-level efforts.
    <bullet>  Promoting fire as a management tool. The scale and 
magnitude of the catastrophic wildfire threat is beyond the collective 
capabilities and budgets of all governments involved in this fight. 
Therefore it is important to use all the tools before us, including 
prescribed fire. We must earnestly pursue both wildland fire use and 
mechanical treatments as management tools for hazardous fuel reduction.
    <bullet>  Improved collaboration at all levels of government and in 
all 10-Year Strategy activities. As mentioned previously, the current 
wildland fire threat is larger than the current ability of government 
and their budgets. A recent Colorado State University study put direct 
and indirect loses to people and environment from the 2003 Hayman Fire 
at $230 million, or alternatively nearly $1,700/acre. In contrast, fuel 
reduction costs range from $200-1500/acre, depending on proximity to 
homes and the wildland-urban interface. Facing costs such as this, if 
we are to see continued progress, it is paramount that we collaborate 
on suppression, fuel reduction, restoration and community assistance 
issues to maximize results.
    The 10-Year Strategy can be broken down into five functional 
components; collaboration, wildfire suppression and preparedness, 
hazardous fuel reduction, ecosystem restoration, and community 
assistance. Below are notable details from the FHAC report, separated 
by topic.
Collaboration
    Collaboration is seen by the WGA as the linchpin to our overall 
success. If federal, state, and local authorities and stakeholders do 
not approach wildland fire mitigation activities in a collaborative 
fashion, many efforts will struggle, and many more will end up at cross 
purposes and weakened results. Here are some actions to improve our 
collaborative efforts:
    <bullet>  We must do a better job of monitoring for collaboration. 
Currently there is limited monitoring of collaborative forest health 
and wildfire activities. The Wildland Fire Leadership Council (WFLC) 
recognized this and set out to develop a monitoring framework for 
collaboration. While still in development, WGA has contributed to this 
effort and believes adoption of national level collaboration indicators 
will help program, project, and land managers make better decisions in 
the field.
    <bullet>  Collaboration is not an easy concept to apply. Views on 
it differ. To build close working relationships, WGA will convene sub-
regional workshops with federal support on forest health collaboration. 
The goal is to bring the collaboration concept to the folks on the 
ground by highlighting successful models of forest health project 
collaboration. The first workshop is scheduled for this Spring in 
Casper, Wyoming.
    <bullet>  The national level body for collaboration is the WFLC. 
Consisting of federal, state, tribal and county representatives, it is 
designed to include all governmental interests in decision-making. 
However, there is a need to establish a mechanism for more meaningful 
non-governmental stakeholder participation.
    <bullet>  Along with the theme of information sharing and 
monitoring, improved public access to information under the National 
Fire Plan Operations and Reporting System is important to improve the 
transparency of actions under the Healthy Forests Initiative and 
National Fire Plan.
    <bullet>  There is increased emphasis on forest health and wildfire 
protection planning. The advent of Community Wildfire Protection Plans 
demonstrate the need for development of web-based analytical tools that 
make GIS data and related mapping and modeling information available to 
local communities.
Suppression/Preparedness
    As the most immediate of all 10-Year Strategy goals, the pursuit of 
improved suppression and preparedness response has been highly 
successful and has made the most progress of all the 10-Year Strategy 
goals. Nonetheless, additional improvements are noted in the FHAC 
report, with one deserving special mention here:
    <bullet>  The increasing costs of wildland fire suppression 
threatens to topple all the efforts of the National Fire Plan, 10-Year 
Strategy, Healthy Forests Initiative and Healthy Forests Restoration 
Act. With predicted worsening droughts, over-stocked forests packed 
with fuel, and an expanding wildland-urban interface, the societal, 
economic and natural impacts and costs of wildfire will continue to 
worsen. And as noted earlier, federal suppression expenditures topped 
the $1 billion mark three of the last five years. Such suppression 
costs may drain funding for other natural resource and land management 
programs in the federal budget.

       Austere federal budget estimates make it more important than 
ever to pursue strategic containment of suppression costs. With 
forests, as with people, preventive medicine is the most cost 
efficient. Full implementation of the seven recommendations in the WFLC 
chartered and WGA chaired report, ``Large Fire Suppression Costs: 
Strategies for Cost Management,'' has begun and needs to remain a 
priority (www.fireplan.gov/reports/2004/costmanagement.pdf). As per the 
report, true suppression expenditure savings will be achieved by 
focusing on strategic cost considerations, such as the seven report 
recommendations, not on tactical cost considerations, such as the 
apportionment of suppression costs between all involved jurisdictions.
Hazardous Fuel Reduction
    The Healthy Forests Initiative has placed enormous emphasis on fuel 
reduction efforts to mitigate wildfire. With just over 4 million acres 
of lands being reported as treated by the federal agencies in 2004, we 
have seen results that give hope to reducing catastrophic wildfire 
threats. To continue this success, a number of next steps are presented 
in the FHAC report, with two being highlighted here:
    <bullet>  There has and will continue to be tremendous debate about 
where fuel treatments should be located on the landscape. To 
constructively aid these efforts, more emphasis should be placed on 
developing priorities collaboratively as outlined in the January 2003 
Memorandum of Understanding between federal agencies, states and 
counties.
    <bullet>  Fire as a management tool for fuels reduction was a 
common and re-occurring theme of the FHAC report. The scale of the 
catastrophic wildfire situation requires efficient fuel treatment 
methods, to which more use of fire, to fight fire, should be pursued. 
One method to this objective is continued refinement of federal Fire 
Management Plans that prescribe suppression response and could be used 
to promote more wildland fire use.
Ecosystem Restoration
    When the 10-Year Strategy was agreed to in 2001 and 2002, the state 
of affairs around ecosystem ``restoration'' was confusing at best. The 
terms restoration and rehabilitation have been, and are often used 
interchangeably, but do lead to entirely different outcomes on the 
ground. Now, with five years of experience, it is time to revisit the 
10-Year Strategy and chart a more clear and understandable course for 
ecosystem restoration; a course that hopefully is clear on the 
differences between pre-fire restoration and post-fire rehabilitation. 
The WGA has already agreed to take up this mantle working with the WFLC 
to convene federal, state and stakeholder restoration and 
rehabilitation experts in a collaborative fashion to develop updated 
articulations of the restoration action items in the 10-Year Strategy.
Community Assistance
    Whereas community assistance tends to be the most neglected of all 
10-Year Strategy goals, it may very well be the most vital in terms of 
the long-term success of the National Fire Plan and Healthy Forests 
Initiative efforts. This is because it is the communities who must 
eventually take up the forest health/wildfire banner to make the needed 
on-the-ground changes happen. Without community assistance efforts, 
none of the other efforts will have lasting imprints on the ground.
    One great example of community assistance, comes from the Healthy 
Forests Restoration Act. The HFRA codified the concept of Community 
Wildfire Protection Planning, a significant step that empowers local 
communities by engaging them on a peer-to-peer level with federal and 
state agencies in wildfire mitigation activities.
    Yet there are still a number of improvements to be made, especially 
in terms of helping communities find the financial resources to engage 
in and contribute toward wildfire mitigation. Further attention is also 
needed in the realms of building community capacity, applying 
stewardship contracting authorities, improving grants and agreements, 
expanding small diameter utilization, and encouraging local wildfire 
codes. Congressional assistance will be needed to lift these items to 
the forefront of wildfire mitigation efforts and could very well define 
the success of all our efforts.
Conclusion
    As a recap of the past five years, significant progress has been 
made that we need to recognize. This however does not mean we can now 
sit back and watch. One particularly ugly scenario involves the 
expanding wildfire suppression expenditures that could potentially 
drive more and more National Fire Plan activities. This becomes most 
apparent with the transferring of funds from other program accounts to 
cover growing suppression costs. This threatens to overwhelm and limit 
the land managers' and communities' ability to address wildfire threats 
proactively. Last year, Congress helped with a stop-gap, $500 million 
suppression budgeting measure to head off more borrowing from other 
agency programs, but continued Congressional attention is needed to 
overcome this juggernaut of a problem.
    So, significant efforts still lie ahead for Congress, the 
Administration, the Governors and the public. The WGA believes the FHAC 
report keeps all of us on the cutting edge of forest health and 
wildfire policy and we commend it to your attention.
    Thank you again for this opportunity to submit written testimony 
and please know that the WGA stands ready to pursue the 10-Year 
Strategy goals and looks forward to working with Congress on these 
issues as debate and oversight continues.

                     WESTERN GOVERNORS' ASSOCIATION
                    FOREST HEALTH ADVISORY COMMITTEE

 Report to the Western Governors on the Implementation of the 10-Year 
                         Comprehensive Strategy

                             November 2004

Background
    The Western Governors' Association Forest Health Advisory Committee 
(FHAC) was established following WGA's Forest Health Summit in 
Missoula, Montana in June 2003. In WGA Policy Resolution 03-18, the 
Governors agreed with a recommendation generated at the Summit to form 
an advisory committee to assist WGA with forest health policy issues. 
Each Governor named persons from around the nation to the FHAC. FHAC 
members are listed at the end of this report.
    The FHAC's first met in March 2004 in Reno, Nevada. The purpose of 
the meeting was to prioritize Summit recommendations and focus future 
FHAC work. One of the recommendations that came to the forefront was: 
Review Progress to Date on Implementation of the 10-Year Comprehensive 
Strategy and Develop Recommendations to Governors on New Action Items.
    The 10-Year Strategy and its implementation plan (together ``the 
10-Year Strategy'') were adopted by WGA, the Secretaries of Agriculture 
and the Interior and many others in 2001 and in 2002. The purpose of 
the 10-Year Strategy is to reduce the risk of wildland fire to 
communities and the environment. Millions of acres of forest and 
rangeland ecosystems are in poor ecological health and at an 
unacceptable risk of catastrophic wildfire, as well as insect and 
disease infestations. Drought conditions that have been impacting much 
of the West in recent years add to the threat.
    The 10-Year Strategy establishes a collaborative framework for 
local, state, tribal and federal governments, along with non-
governmental interests, to accomplish the following goals:
    1.  Improve Fire Prevention and Suppression;
    2.  Reduce Hazardous Fuels;
    3.  Restore Fire-Adapted Ecosystems; and,
    4.  Promote Community Assistance.
    As of 2004, approximately 75 percent of the action items agreed to 
in the 10-Year Strategy are reportedly completed or in their final 
stages. In addition, significant related wildfire/forest health policy 
and legislative initiatives have recently been undertaken. For example, 
the Healthy Forests Restoration Act (HFRA) passed by the Congress in 
2003 calls for using the 10-Year Strategy collaborative process to 
expedite hazardous fuel treatments on 20 million acres of federal 
lands.
    In this policy context, the WGA FHAC believes it is timely to 
assess the 10-Year Strategy to determine if the work completed to date 
is meeting its goals and to consider if additional action items are 
needed to further the goals. The FHAC completed a survey on these 
points during the summer of 2004. A 14-page summary of the responses 
was prepared. The FHAC convened again in Tempe, Arizona in November 
2004 to assemble this report, based on the survey results.

Overall Themes:
    A number of themes arose throughout this evaluation that should be 
heeded as work proceeds on all four goals of the 10-Year Strategy:
    <bullet>  a need for information sharing and monitoring of 
accomplishments and forest conditions to improve transparency,
    <bullet>  a need for committed long-term funding of the 10-Year 
Strategy,
    <bullet>  the need for a landscape-level vision for restoration of 
forests,
    <bullet>  the importance of promoting fire as a management tool, 
and
    <bullet>  a strong call for improved collaboration at all levels of 
government and in all 10-Year Strategy activities as appropriate

COLLABORATIVE FRAMEWORK:
    Given the importance of the collaborative process in accomplishing 
the goals of the 10-Year Strategy, the FHAC conducted an evaluation of 
the collaborative framework called for by the 10-Year Strategy. 
Findings are provided below, along with suggested next steps as a 
beginning toward furthering needed collaboration.
    Summary of FHAC Survey Responses: The collaborative framework is 
not being used consistently at the local, state and national level as 
called for in the 10-Year Strategy. Most collaboration is occurring 
locally when an effective leader(s) emerges from within participating 
parties. Success is greatest when locals believe that they have a place 
at the table. Collaboration on project prioritization and 
implementation at the state / regional level is improving, but seems to 
be somewhat exclusive (``by invitation only'') and frequently is not 
broadly inclusive as agreed to in the 10-Year Strategy.
    The primary mechanism for the national-level collaboration on all 
aspects of the 10-Year Strategy is the Wildland Fire Leadership Council 
(WFLC). While WFLC functions effectively for coordination among 
government entities, it does not provide for meaningful participation 
by non-federal stakeholders and tends to pre-determine outcomes prior 
to its meetings. The institution of new directives related to the 
Healthy Forests Initiative (HFI) and the Healthy Forests Restoration 
Act (HFRA) over the past year has made certain collaborative efforts 
more complicated. Further, the strong emphasis on fuels (Goal Two) 
under HFI/HFRA comes at the expense of other 10-Year Strategy goals, 
most notably restoration (Goal Three) and community assistance (Goal 
Four).

Priorities to Improve Collaboration:
    <bullet>  Highlighting successful collaborative efforts and 
establishing measures of success for each level of the 10-Year 
Strategy's collaborative framework is an important first step in 
improving collaboration. Fuels reduction and forest ecosystem 
restoration projects should also report on their efforts in this 
regard. Use of the monitoring questions on collaboration provided by 
WGA to the WFLC would be a first step for measuring and improving 
success.
    <bullet>  Support the development and delivery of workshops on how 
to successfully and consistently implement the collaborative framework 
at local and state/regional levels.
    <bullet>  Establish a mechanism for more meaningful non-
governmental stakeholder involvement in the WFLC. Suggestions to 
accomplish this include forming a comparable national team that 
addresses both governmental and non-governmental interests or by 
establishing a formal federal advisory committee.
    <bullet>  Seek federal, state, tribal and local resources to 
develop Community Wildfire Protection Plans (CWPPs) and provide for 
their implementation.
    <bullet>  Facilitate the development of web-based analytical tools 
that make GIS data and related mapping and modeling information 
available to local communities for wildfire protection planning.
    <bullet>  Improve National Fire Plan Operations and Reporting 
System (NFPORS) over the next two years. Improvements should:
      <all>  allow portions of NFPORS to be used by the public and 
state/local governments;
      <all>  capture and store project boundaries, not just project 
points;
      <all>  permit appropriate non-federal entities to annually submit 
data for NFPORS; and,
      <all>  track acres treated under CWPPs and illustrate where non-
federal entities are playing key roles in hazardous fuels reduction 
treatments and/or forest ecosystem restoration.
    <bullet>  Develop incentives for agencies and landowners to plan 
forest health treatments across administrative boundaries and focus on 
innovative, landscape approaches.

GOAL ONE: Improve Fire Prevention and Suppression
    Summary of FHAC Survey Responses: General agreement that good 
progress has been made on Goal One, but continued improvement is 
needed. There is an overall sense that suppression is still driving 
National Fire Plan activities and that borrowing funds from other 
agency accounts to cover growing suppression costs threatens to 
overwhelm and limit land manager and community ability to address 
wildfire threats proactively. Collaboration is still a challenge, with 
many feeling that the cooperative nature of multi-jurisdictional 
suppression response is beginning to fray. National level directives 
are making local/regional collaboration difficult.

Evaluation of the 10-Year Strategy Goal One Action Items:
    <bullet>  (G1A): Fire Preparedness Budgeting--Fire Planning 
Analysis (FPA) tool developed, but state and local resources should be 
integrated into FPA to capture a valid landscape-level budget picture 
of preparedness resources. Future runs of the FPA should strive to 
incorporate local resources and stakeholders.
    <bullet>  (G1B): Fire Leadership Training--Original intent to train 
all levels of decision makers in collaborative decision-making not met. 
Progress made, but room for improvement (consider evaluating 
collaborative, pre-fire decision-making during post-fire reviews).
    <bullet>  (G1C): Rural Fire Report--Report completed 
(www.stateforesters.org/pubs/Final Rural Fire Report.pdf), 
implementation needs to continue, especially in recognizing equivalent 
training and experience as Incident Command System qualified (i.e. red 
carded).
    <bullet>  (G1D): Minimum Impact Suppression Tactics (MIST)--
Directive issued, (www.wildfirelessons.net/Library/Tools/NWCG--MIST--
Directive--Attachment--1003.doc) concern over consistent implementation 
and if best science is available.
    <bullet>  (G1E): Fire Prevention Planning / Firewise Communities 
USA--Strong support and active encouragement for more promotion.
    <bullet>  (G1F): Reporting of Communities Protected--Success 
stories appear to be method of dissemination. Stories need to be 
ongoing. More consistency in reporting is needed as many efforts go 
unreported due to the lack of a formal reporting system.

Next Steps to Improve Fire Prevention and Suppression
    A.  Cost containment--Wildfire suppression expenditure cost-
containment measures should continue to be vigorously pursued. Full 
implementation of the recommendations in the WFLC chartered, ``Large 
Fire Suppression Costs: Strategies for Cost Management,'' report should 
occur. Wildland fire management budgets are continually driven by 
suppression expenditures, thus hindering the ability of policy makers 
and land managers to address hazardous fuel, restoration and community 
assistance efforts.
    B.  Prevention Incentives--Continued focus on Firewise Communities 
and Community Wildfire Protection Plans needs to be the centerpiece of 
local engagement and involvement in wildfire prevention activities. 
Instead of rewarding those that have wildfires with additional budget 
and personnel, an incentive system should be in place to reward fire 
prevention work that results in fewer emergencies that require 
expenditures to protect communities from abnormally severe wildfires. 
Incentives are also needed to encourage agencies and landowners to 
engage with each other, allowing better planning across administrative 
boundaries and development of innovative landscape approaches.
    C.  Improve Local Fire Authority Response--Methods include:
        1)  Examine the procedures and protocols for the efficient and 
        expedited use of local resources in suppression activities;
        2)  Support alternative training methods targeting rural and 
        volunteer responders as advised under the Rural Fire Report; 
        and,
        3)  Develop a system to better engage underutilized suppression 
        crews for mitigation work between dispatches, especially Native 
        American crews.

GOAL TWO: Reduce Hazardous Fuels
    Summary of FHAC Survey Responses: It was agreed much progress had 
been made on the hazardous fuels front. Some regions of the country 
expressed the sentiment that the federal government is still driving 
the Goal Two processes, with minimal ability of stakeholders to have a 
say in decisions and priorities. Clarity on how stakeholders can 
effectively participate in the federal planning process, particularly 
in incorporating non-federal concerns, is needed. Enhancing the 
collaborative selection of fuel treatment projects is also needed to 
improve implementation of Goal Two. A lack of understanding of the 
collaborative process, consistency in implementation and differing 
interpretation of fire regime / condition class (FRCC) were given as 
major stumbling blocks. Cumbersome budgeting processes, fuel target 
pressures and confusion of definitions impede working across 
jurisdictional boundaries. Community Wildfire Protection Plans (CWPPs) 
with an eye toward landscape, inter-agency, multi-party planning are 
seen as a partial solution.

Evaluation of 10-Year Strategy Goal Two Action Items:
    <bullet>  (G2-A) Cohesive Strategy ``Cohesive Strategy needs to be 
finalized, released and applied.
    <bullet>  (G2-B) Fire Management Planning (FMPs)--All agree on the 
value of FMPs in order to reintroduce fire as a management tool on a 
landscape basis. Questions over national level commitment to their 
implementation were raised.
    <bullet>  (G2-C) Internet Clearinghouse for Fuels Assistance--Idea 
is strongly supported, but only spotty regional/state success to date. 
Very important to continue support.
    <bullet>  (G2-D) Fire Regime Condition Class--Agreement on need. 
The developing system is a good start. It needs to be ongoing and 
endeavor to be accessible by as many as practicable, with national 
guidance on interpretation and implementation. Needs to recognize/
accept finer scale data where it exists and apply it across all lands.
    <bullet>  (G2-E) Fuel Reduction Project Selection Process--This 
action is key to the success of the 10-Year Strategy, with many feeling 
the collaborative prioritization process is not happening fully. More 
collaboration was experienced for projects on non-federal/tribal lands, 
than on federal lands. Differing treatment targets / budget cycles 
hinder coordination. Process needs alignment with landscape, inter-
agency, multi-party planning and CWPPs project priorities where CWPPs 
apply.
    <bullet>  (G2-F) Assess policies/processes (HFI) ``Lack of 
agreement on whether HFI is helping or hindering the 10-Year Strategy 
move forward. Pre-HFI assessments undertaken were not collaborative and 
there have been no concerted assessments of state regulations. If 
further assessments or changes are pursued, apply the 10-Year Strategy 
collaborative framework to evaluate / review processes (NEPA, ESA, HFI, 
states, etc.) to date.

Next Steps to Improve Reduction of Hazardous Fuels
    A.  Fire Management Plans (FMPs)--Pursue policy adjustments that 
foster collaboration on FMP development, provide greater recognition of 
fire as a management tool, encourage alignment of FMPs with CWPPs and 
Land/Resource Management Plans and improve local-level monitoring of 
FMPs. Use collaborative framework to construct appropriately scaled 
review panels to evaluate FMPs.
    B.  Greater Transparency--All levels of government should strive 
for transparency in fuel project selection by making data such as FRCC 
mapping, and out-year planning priorities available to the public in a 
timely manner. The Internet and other digital media provide good 
mechanisms for evaluating proposed projects for strategic placement.
    C.  Fuels MOU--Provide guidance to the fuels MOU to help guide 
collaborative fuel project selection processes and structures.
    D.  Project Prioritization--Through a state-level, multi-
jurisdictional, collaborative body, priority should be given to 
projects that are an outcome of a CWPP as required by law. Assessment 
of risk and landscape management objectives should also be considered 
as priority factors in project selection.
    E.  Pursue Cost Efficiencies--Pursue policies and actions that will 
support a utilization infrastructure in order to reduce treatment costs 
(e.g., large-scale stewardship contracting) and optimize benefits to 
communities. Consider a cost-efficiency criterion in fuel project 
selection processes.

GOAL THREE: Restore Fire-Adapted Ecosystems
    Summary of FHAC Survey Responses: There is overall agreement that 
implementation of Goal Three has been poor. In part, the reasons for 
this include: a) the compelling need for agencies and stakeholders to 
focus their full attention on Goals One and Two; and, b) confusion over 
the intent of Goal Three and of the terminology used therein. Goal 
Three was included in the 10-Year Strategy to represent the consensus 
among the parties that restoration is vital to improving forest health. 
However, the unclear intent and language in Goal Three of the 10-Year 
Strategy reflects the fact that in 2001-2002, there was not consensus 
about how to proceed with forest ecosystem restoration. The policy 
context in 2004, as the FHAC reviews the accomplishments to date, is 
considerably changed. Additional detail is needed now to create new and 
clearly defined action items for Goal Three. The FHAC looks to Western 
Governors for leadership to develop a restoration strategy that builds 
on the progress already achieved on Goals One and Two.

Evaluation of the 10-Year Strategy Goal Three Action Items
    <bullet>  (G3-A) Post-fire Rehabilitation Training--Training has 
been completed for federal land managers, but needs to be extended to 
state, private and other forest landowners/managers.
    <bullet>  (G3-B) Post-fire Rehab and Restoration Research--The 
action item did not differentiate between rehabilitation of burned 
areas and the restoration of forest ecosystems in both burned and 
unburned areas. There has been more progress on burned area 
rehabilitation than forest ecosystem restoration.
    <bullet>  (G3-C) Restoration Project Selection Process--Pivotal 
item for successful restoration efforts, but current efforts not 
meeting mandate. Progress would be positively influenced by the 
development of a clear implementation strategy as outlined below.

Next Steps to Improve Restoration of Fire-Adapted Ecosystems
    WGA should convene a national working group of state and federal 
agency experts, as well as other partners, to develop and complete a 
new set of action items for Goal Three by Fall 2005. This effort should 
provide a conceptual framework for restoration and address planning, 
technical assistance, tools, and priority setting. Specific objectives 
for the Restoration Working Group could include the following:
    A)  Define what is meant by ``Restore Fire Adapted Ecosystems.'' 
Using the goal statements and actions in both the 10-Year Strategy and 
Implementation Plan, define what is intended by ``pre-fire restoration 
of fire-adapted ecosystems'' and ``post-fire rehabilitation and 
recovery of fire-adapted ecosystems.'' Useful definitions and concepts 
can be found in reports such as ``Guiding Principles for Forest 
Ecosystem Restoration and Community Protection'' (Arizona Forest Health 
Advisory Council, Campbell et al.).
    B)  Develop a new articulation of G3-B to clearly differentiate 
between forest ecosystem restoration and post-fire rehabilitation so 
that progress can be tracked for each item.
    C)  Develop a new articulation for G3-C so that progress is made in 
developing a conceptual framework for forest ecosystem restoration, 
from which an implementation strategy for site-specific implementation 
can be derived and maintained. Both project and landscape scales have 
to be considered and local agreement on desired future conditions at 
the project level is an essential policy item. Beyond small-scale 
prescribed fire applications, this strategy needs to explore the 
reintroduction of ecosystem-scale fire into fire-dependent ecosystems.
    D)  Consider how to promote reintroduction of natural fire regimes 
over the majority of forested areas as a strategy for improving forest 
health and reducing fire hazard and suppression costs. Investigate the 
removal and utilization of stems and biomass necessary to promote 
suitable desired future forest conditions and promote opportunities for 
local communities to benefit from restoration work, manufacturing and 
power generation.
    E)  Consider how to encourage agency work on Land/Resource 
Management Plans and their associated Fire Management Plans that 
explore and promote wildland fire use. This should include 
consideration of adjacent communities, airsheds, EPA non-attainment 
areas, regional haze parameters and other recreational/quality of life 
issues.
    F)  Consider how to evaluate all proposed land management actions 
with respect to whether they advance the goal of restoring fire-adapted 
ecosystems. Not all actions will, or should be targeted toward 
restoration, but actions that move away from restoration should only be 
carried out where there is a compelling need (e.g., thinning near 
wildland-urban interface in an area that would naturally be susceptible 
to stand-replacing fire) or legally binding objectives (e.g., 
protection of culturally-significant sites or habitat for endangered 
species).

GOAL FOUR: Promote Community Assistance
    Summary of FHAC Survey Responses: Goal Four must be given the same 
emphasis Goals One and Two have received in order for its action 
items--and the 10-Year Strategy as a whole--to be accomplished. 
Significant advances have been made in sharing information on new 
technologies for small-diameter utilization (SDU), but communities 
often lack the capacity and infrastructure needed to successfully 
utilize them. Inadequate investment in related training and technical 
assistance, and a lack of financial incentives and funding for programs 
to enable SDU implementation have stalled progress.

Evaluation of 10-Year Strategy Goal Four Action Items
    <bullet>  (G4-A) Internet Clearinghouse for SDU Assistance--Site 
has good information on SDU options and available technical help. Lack 
of financing for SDU has stalled progress.
    <bullet>  (G4-B) Improve Procurement, Contracting, Grants and 
Agreements--Community/contractor capacity, local benefits, cost 
factors, merchantability standards, and use of grants and agreements 
all need more attention. There is an over-reliance on stewardship 
contracting as an implementation tool, given that there is not 
consistent contractor / agency ability and willingness to use this 
tool.
    <bullet>  (G4-C) Sustainable Livestock Practices & Wildfire--No 
progress apparent at this time. Because grazing effects are very site-
specific, difficulties arise in determining when/where/how grazing 
practices increase or diminish wildfire risk.
    <bullet>  (G4-D) Local Fire Ordinances & Planning--Unclear on level 
of progress on this urgent issue. Action must occur primarily at the 
local level.
    <bullet>  (G4-E) Wildland-Urban Interface (WUI) Definition and 
Prioritization--Provisions in the Healthy Forests Restoration Act 
provide one approach to accomplish this goal through Community Wildfire 
Protection Plans (CWPPs). Maintaining local flexibility is critical.
    <bullet>  (G4-F) WUI Community List--Lists should be maintained, as 
needed, at the state level.
    <bullet>  (G4-G) Improve SDU Material Technical Assistance--
Successful models exist, but assistance services are not widely 
available. Elimination of the Forest Service's Economic Action Program 
(EAP) worsens the situation.
    <bullet>  (G4-H) Firewise Promotion--The program is popular and 
successful. Firewise programs should be incorporated into CWPPs.

Next Steps to Improve Promotion of Community Assistance
    A.  Building Local Implementation Capacity--Western governors 
should work to engage/convene a national process that includes federal 
agencies, Congressional representatives and stakeholders to secure 
support for forest-based economic development and local capacity to 
meet the goals of the 10-Year Strategy. Objectives of this effort 
should include:
          1)  Developing an alternative to the EAP and other related 
        authorities; and,
          2)  Addressing critical weaknesses in community capacity that 
        now significantly hamper accomplishment of Goals One, Two and 
        Three.
    B.  Stewardship Contracting Collaboration--To improve the 
effectiveness of stewardship contracting, the input of agency field and 
contracting personnel, communities, contractors, and others should be 
sought by the agencies to ensure training and technical assistance meet 
existing needs. Training should emphasize the use of the full range of 
stewardship authorities to carry out comprehensive forest ecosystem 
restoration projects, not just hazardous fuels reduction.
    C.  Increased Use of Grants / Agreements--The Forest Service and 
BLM should make more use of grants and agreements to accomplish land 
management goals while simultaneously delivering community assistance.
    D.  Small Diameter Material Utilization--Continued pursuit of 
consistent supply is needed to attract entrepreneurs and develop 
markets. Federal agencies need to improve their capacity to inventory 
and analyze (species, size, trees/acre, accessibility, etc.) small 
diameter material, establish realistic costs for its removal, and 
revise merchantability guidelines as necessary to encourage SDU. Local 
capacity and potential community benefits should be fully considered 
when designing fuels reduction and restoration projects.
    E.  Promote Local Wildfire Codes--The National Association of 
Counties, the National League of Cities and the WGA should work to make 
model fire plans and ordinances widely available as well as encourage 
states, counties and municipalities to adopt wildfire codes. These 
tools should be considered for integration with CWPPs.
    F.  Engage Insurance Companies--The Wildland Fire Leadership 
Council should work actively with the insurance industry to encourage 
their greater involvement in implementation of the 10-Year Strategy, 
particularly in the context of local fuel management standards, general 
Firewise treatments and CWPP requirements relative to reducing 
structural ignitability.

              WGA Forest Health Advisory Committee Members

Lori Faeth (Lead Governor Representative), State of Arizona, Office of 
the Governor
Jim Caswell (Lead Governor Representative), State of Idaho, Office of 
the Governor

ALASKA            Jeff Jahnke, State Forester
ARIZONA           Steve Campbell, University of Arizona
                  Taylor McKinnon, Grand Canyon Trust
                  Kirk Rowdabaugh, State Forester
                  Thomas Sisk, Northern Arizona University
CALIFORNIA       Dale Geldert, State Forester
                  Ly nn Jungwirth, Watershed Research and Training 
Center
                  Tad Mason, TSS Consultants
                  Tom Neslon, Sierra Pacific Industries
                  Dan Skopec, Office of the Governor
                  Bruce Turbeville, California Fire Safe Council
COLORADO         Ron Wenker, Bureau of Land Management
                   Greg Aplet, The Wilderness Society
                  Joe Duda, Colorado State Forest Service
                  Gayle Gordon, Bureau of Land Management
                  Jay Jensen, Western Governors' Association
                  Paige Lewis, Colorado State Forest Service
                  Paul Orbuch, Western Governors' Association
                  Jo hn Steffenson, Environmental Systems Research 
Institute, Inc.
IDAHO             Todd Brinkmeyer, Plummer Forest Products
                  Jay O'Laughlin, University of Idaho
                  Jonathan Oppenheimer, Idaho Conservation League
                  Pe ggy Polichio, U.S. Forest Service/Idaho Department 
of Lands
                  Sarah Robertson, U.S. Forest Service
MONTANA         Julia Altemus, Montana Logging Association
                  Perry Brown, The University of Montana
                  Carol Daly, Flathead Economic Policy Center
                  Patrick Heffernan, PAFTI, Inc.
                  Craig Kenworthy, Greater Yellowstone Coalition
                  To m Kuntz, International Association of Fire Chiefs
                  Todd O'Hair, Office of the Governor
                  Gordon Sanders, Pyramid Mountain Lumber
NEVADA           Steve Robinson, Office of the Governor
NEW MEXICO      Arthur Blazer, State Forester
                  Ri ck DeIaco, Director of Forestry, Village of 
Ruidoso
                  Walter Dunn, U.S. Forest Service
                  Todd Schulke, Center for Biological Diversity
OREGON           Bob Alverts, USGS-BRD Western Regional Office
                  Charles Burley, American Forest Resource Council
                  Lance Clark, Office of the Governor
                  Maia Enzer, Sustainable Northwest
                  Sandy Shaffer, Applegate Partnership
SOUTH DAKOTA    Paul Riley, Office of the Governor
                  Ray Sowers, State Forester
UTAH              John Harja, Office of the Governor
WASHINGTON      Kay Gabriel, Weyerhaeuser Company
                  Don Hunger, Student Conservation Association
                  Niel Lawrence, Natural Resources Defense Council
                  Pat McElroy, State Forester
WYOMING         Bill Crapser, State Forester
OTHER            Dw ight Atkinson, U.S. Environmental Protection Agency
                  Paul V. Beddoe, National Association of Counties
                  Th omas Brendler, National Network of Forest 
Practitioners
                  Stan Coloff, U.S. Geological Survey
                  Mike Long, Florida State Forester
                  Jim Mosher, North American Grouse Partnership
                  Jeff Hardesty, The Nature Conservancy
                                 ______
                                 
    Mr. Walden. So the purpose of this hearing is to evaluate 
the GAO's recommendations in depth and to discuss next steps 
with the Department of Agriculture and the Department of 
Interior, while reviewing the important accomplishments that 
have been made thus far.
    We will also hear from others on different aspects of the 
Healthy Forest Restoration Act implementation, from the needed 
implementation of the all the titles of this law to the role 
and value of community wildfire protection plans.
    It is my hope that when the GAO testifies again to this 
Subcommittee five years from now their report will say that our 
efforts in this Congress, with this Administration, in 
cooperation with states and other allies, have made the crucial 
difference between creating a healthy dynamic forest landscape 
to one that continues to be choked with too much growth, too 
much mortality and too many catastrophic wildfires.
    [The prepared statement of Mr. Walden follows:]

           Statement of The Honorable Greg Walden, Chairman, 
               Subcommittee on Forests and Forest Health

    It is fitting that this Subcommittee's first full hearing in the 
109th Congress focus on the issue of hazardous fuels and its 
relationship to wildland fire. While this Subcommittee will take up 
many other important topics in the next two years, when it comes to the 
ecological integrity of our federal forests all other issues must take 
a back seat. The enormity and severity of the problem, and our ability 
to affect it, will have more impact on wildlife habitat, water quality, 
air quality, and community protection than any other forest issue.
    To explain the explosive nature of the problem let me give you some 
forest growth statistics on our national forests. Total net growth is 
currently about 20 billion board feet (bbf) per year, while total 
mortality is approximately 10 bbf, and the annual harvest is less than 
2 bbf. In other words, we are removing less than one-fifth of what is 
dying on our forests and less than one-tenth of what is growing. This 
is the 800 pound gorilla that is wreaking havoc on our national forests 
and why, today, we have approximately 190 million acres of federal land 
at high risk of catastrophic fire. While some of you may have grown 
tired of our call to thin and treat our forests, let me tell you this: 
you ain't heard nothing yet.
    In 1999, at the request of this Subcommittee, the Government 
Accountability Office produced an analysis of catastrophic wildfire, 
that stated: ``the most extensive and serious problem related to the 
health of national forests in the interior West is the overaccumulation 
of vegetation, which has caused an increasing number of large, intense, 
uncontrollable, and catastrophically destructive wildfires.'' The GAO's 
report, in no small way, helped to set the stage for many of the 
positive changes that have occurred in the five years following the 
release of that report---from the creation of the National Fire Plan, 
in 2000, to the development of the 10-Year Comprehensive Wildfire 
Strategy guided by the Western Governors' Association, to the Bush 
Administration's Healthy Forest Initiative, to the 108th Congress's 
passage of the Healthy Forests Restoration Act, to the quadrupling of 
funds spent by the agencies on hazardous fuels reduction and the 
resulting quadrupling of acres treated---much has been done to address 
the problem.
    This week, again at the request of this Subcommittee, the GAO 
produced a five-year follow-up report, which recognized that much 
progress has been made in wildfire management, from prevention to 
suppression. The report confirms what we had hoped to hear and what 
many of us worked so hard to achieve as we developed and moved the 
Healthy Forests Restoration Act.
    But the GAO also confirms what many of us have seen and experienced 
recently as we've visited federal forests---that we have a lot more to 
do and a long way to go. As I've traveled around our national forests 
since passage of HFRA, I've found that while some forest units are 
aggressively implementing the law, others have hardly begun. The GAO's 
report corroborates these shortcomings, stating that a number of the 
agency's local fire management plans do not meet agency requirements. 
Particularly, the GAO reported that an overarching cohesive strategy, 
that identifies long-term options and needed funding requirements, is 
still not in place. The Western Governors' Association in its own 
November 2004 report, and in written testimony submitted for this 
hearing, makes similar recommendations.
    The purpose of this hearing is to evaluate the GAO's 
recommendations in depth and to discuss next steps with the Department 
of Agriculture and the Department of Interior, while reviewing the 
important accomplishments that have been made thus far. We will also 
hear from others on different aspects of HFRA implementation, from the 
needed implementation of all the titles of this law, to the role and 
value of Community Wildfire Protection Plans.
    It is my hope that when the GAO testifies again to this 
Subcommittee five years from now, their report will say that our 
efforts in this Congress, with this Administration, in cooperation with 
states and other allies, have made the crucial difference between 
creating a healthy, dynamic forest landscape, to one that continues to 
be choked with too much growth, too much mortality and too many 
catastrophic wildfires.
                                 ______
                                 
    Mr. Walden. I now recognize my friend and colleague, Mr. 
Udall, the Ranking Minority Member, for an opening statement. 
Good morning and welcome.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Good morning, Chairman Walden, good to be 
here with you.
    I appreciate this opportunity to hear the findings of the 
GAO's Five-Year Update on Wildland Fire, and the look into 
issues surrounding the Healthy Forest Restoration Act. While 
this GAO report finds that there has been progress in the area 
of wildland fire management, the report finds that the Forest 
Service and the Department of Interior still lack an overall 
cohesive strategy in dealing with wildland fire.
    The report recommends that the Secretaries of Agriculture 
and Interior provide Congress with a plan outlining the 
critical steps and timeframes for completing a cohesive 
strategy, as well as identifying the options for funding 
wildland fire management.
    I look forward to hearing from the agencies about where 
they are in the process of developing a cohesive strategy on 
wildland fire management.
    I also point out that the GAO report states that the same 
request for a cohesive strategy was made of the agencies five 
years ago. As we look into the implementation of the Healthy 
Forest Restoration Act, I look forward to exploring the 
concerns raised by the Western Governors Association and others 
about a lack of adequate policy guidance in the area of 
collaboration.
    Furthermore, with an eye to the Forest Service Fiscal Year 
2006 budget, I hope to hear from our witnesses about their 
views on funding cuts to the State and private forest program 
that assists landowners in the estimated 85 percent of lands in 
the wildland-urban interface, which are state, tribal or 
private lands. I also look forward to hearing from both 
agencies on the total number of acres being treated in the 
wildland-urban interface and how that will change in the 
future.
    As we debated the Healthy Forest bill in the House, I stood 
with many of my colleagues in arguing that the money should 
follow the threat. Given the fiscal environment we face, it is 
just common sense to thin where there is the greatest risk of 
loss of property and life.
    Another area I think we can take a closer look into is the 
growing awareness that for many thinning contractors Workers 
Compensation insurance premiums account for nearly 50 percent 
of their cost to reduce hazardous fuels.
    Last, I believe we are being penny wise and pound foolish 
by cheating out our budget for forest thinning. Internal agency 
studies have indicated that the need for investment in forest 
thinning is multiple times more than the funding requested in 
the President's budget. We all know that the funding requested 
in the President's budget falls far short of the targets set in 
the Healthy Forest Restoration Act. My concern is that this 
lack of investment in thinning now just leads to higher 
suppression costs in the future. Initial runs of computer 
models have indicated this, and frankly, I think it is just 
common sense.
    I think we will always be faced with a debate over whether 
trees are best left horizontal or vertical, but as I said 
yesterday, I look forward to working with Chairman Walden in a 
bipartisan way to find solutions. This GAO report provides some 
guidance on areas where we can work together.
    Thank you, Mr. Chairman, and yield back.
    Mr. Walden. Thank you, Mr. Udall, and I like your line 
about whether trees are horizontal or vertical. What we want is 
not black, but green.
    I am now delighted to welcome to the Subcommittee, and give 
her an opportunity for an opening statement, a neighboring 
colleague to the north of Oregon in Washington, Cathy McMorris. 
Welcome.

   STATEMENT OF THE HON. CATHY McMORRIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Ms. McMorris. Thank you, Mr. Chairman. I will simply say I 
am pleased to be here. I represent the area of Eastern 
Washington, home of the Colville National Forest and the 
Wenatchee National Forest, and some other lands that have 
certainly been impacted, and I want to make sure that we are 
doing everything possible to ensure that the trees stay green.
    Mr. Walden. There we go. Thank you.
    I now turn to my friend and colleague from Oregon, Mr. 
DeFazio, for opening remarks.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I am looking forward 
to the witnesses.
    I believe today we will underline the need, the necessity 
to turn even more resources toward fuel reduction in the 
future, which will both save lives, property, and ultimately, 
although there will be some initial costs, save the Federal 
Government the phenomenal amount of money that has been spent 
in recent years on fighting fires, and the other nice thing 
that comes from all of this is jobs, which is really important 
in my district and many other rural areas throughout the 
western United States that could be impacted. So I am looking 
forward to the testimony.
    Mr. Walden. Thank you, Mr. DeFazio.
    I would just tell the committee as well, as we did last 
year, I have sent a letter to the Chairman of the House Budget 
Committee dealing with the issue of trying to set aside funds 
in advance that could be drawn upon within the budget framework 
to fight fire. As you recall, we were successful last budget in 
getting $500 million set up in a special account if you will 
that can be drawn upon so that they don't have to rob from some 
of the hazardous fuels accounts and other accounts if the fire 
season gets out of hand.
    Fortunately, last year, not coincidental with my 
chairmanship of the Subcommittee on Forests and Forest Health, 
we had very few forest fires out in the west.
    [Laughter.]
    Mr. Walden. I don't know that I had anything to do with 
that, but clearly our committee was at its best.
    Mr. Tancredo, we are just completing opening statements. Do 
you have any comments you would like to share before we go to 
the witnesses?
    Mr. Tancredo. How are you today?
    Mr. Walden. I am excellent.
    Mr. Tancredo. No, I do not.
    Mr. Walden. Thank you.
    At this point I would like to introduce the witness on our 
first panel. Today we have Ms. Robin Nazzaro. I hope I 
pronounced that correctly. Director, Natural Resources and 
Environment for the U.S. Government Accountability Office.
    I would like to remind our witness that under the rules you 
are asked to limit your oral statement to 10 minutes. You will 
have 10, the other witnesses will have 5. But of course your 
entire statement will appear in the record, and we certainly 
appreciate the work that you and your colleagues have done on 
this very informative report, which I have read in great 
detail. We welcome you here and thank you for your objective 
look at the problems that we face.
    I now recognize Ms. Nazzaro for your testimony. And I 
understand you are joined by Chester Joy, is that correct?
    Ms. Nazzaro. Yes.
    Mr. Walden. And anyone else that you may want to identify.
    Ms. Nazzaro. And Mr. Bixler will be running my slides for 
me.
    Mr. Walden. Thank you, Mr. Bixler on slides.

STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; ACCOMPANIED 
     BY CHESTER JOY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
Subcommittee. I am pleased to be here today to discuss the 
status of the Federal Government's efforts to address our 
Nation's wildland fire problems.
    As you can see from our first chart, the national trend in 
recent years of wildland fire threats to communities and 
ecosystems has been increasing. The average number of acres 
burned by wildland fires annually from 2000 to 2003 was 56 
percent greater than the average amount burned annually during 
the 1990s. While an increase in wildland fires may often be 
necessary to restore ecosystems, some fires can also cause 
catastrophic damages to communities and ecosystems.
    To illustrate this point, I have a short video with real-
time footage that shows the importance of fuel reduction in 
minimizing such catastrophic damage. The first few scenes show 
a fire that is staying on the ground because there is 
relatively little vegetation to fuel the fire. In contrast, you 
will see the last two scenes are set in a forest area with 
dense vegetation. You will see how quickly a fire climbs to the 
crown, becoming very intense and fast moving.
    [Video shown.]
    Ms. Nazzaro. Here in the beginning--this was now the dense 
fire.
    Mr. Walden. Where was this fire? Do you know?
    Mr. Joy. This fire is test tracks in arboreal forests in 
Canada because they have to move it up there. They can't do 
this.
    Ms. Nazzaro. Again, that was real time footage of how 
quickly it moved.
    Our reviews over the last five years identified several 
weaknesses in the Federal Government's management response to 
wildland fires. Specifically we found that land management 
agencies lacked an effective national strategy to respond to 
wildland fires. Existing guidance was not specific enough for 
prioritizing fuel reduction projects. At the local level there 
were shortcomings in addressing wildland fire issues, including 
fire management plans, that as you noted did not meet agency 
requirements. The agencies lacked basic data on the amount and 
location of lands needing fuel reduction, and they lacked 
research on the effectiveness of fuel reduction methods. 
Further coordination among Federal entities and a collaboration 
with non-Federal entities was ineffective, and they had an 
ineffective system for accounting for expenditures and 
performance.
    My testimony today summarizes the findings of our report to 
you, which was released Monday, that discuss the progress the 
Federal Government has made in addressing these issues and the 
key challenges it faces in developing and implementing a long-
term Federal response to wildland fire problems.
    In the past five years, the Forest Service and the land 
management agencies in the Department of the Interior have made 
important progress in each of these areas, and have put into 
place the basic components of a framework for managing and 
responding to the Nation's wildland fire problems. 
Specifically, the Federal Government has been formulating a 
comprehensive strategy known as the National Fire Plan, which 
is comprised of several strategic documents. These documents 
set forth a priority to protect communities near wildlands.
    To address this priority the agencies, working with the 
States, identified a list of communities nationwide that are 
considered most at risk of wildland fire damage. Further, this 
priority has been emphasized by the enactment of the Healthy 
Forest Restoration Act, which directs that at least 50 percent 
of the amount of funds available for fuel reduction on Federal 
lands is to be allocated to these urban areas.
    Significant improvement in data and research on wildland 
fires has also been made. In 2003 Agriculture and Interior 
approved funding for development of a geospatial data and 
modeling system called LANDFIRE to identify the extent and 
location of wildland fire threats and better target fuel 
reduction efforts. While LANDFIRE is not scheduled for national 
implementation until 2009, initial results have been promising.
    Local fire management planning has also been strengthened. 
Completion of the agencies local fire management plans has been 
on an expedited schedule and are being prepared using an 
interagency template to ensure greater consistency in their 
content.
    Other critical improvements have been made in coordination 
among Federal agencies and in collaboration with their non-
Federal partners. In 2001 Agriculture and Interior jointly 
adopted a 10-year comprehensive strategy with the Western 
Governors Association. An implementation plan which was adopted 
in 2002, detailed goals, timelines and responsibilities.
    Regarding performance measurement and monitoring, Federal 
agencies adopted a measure that will allow them to better 
determine the extent to which their fuel reduction efforts are 
directed toward the land with the most hazards. The agencies 
also made progress in developing a system to monitor their 
efforts. This information will help in determining the nature 
of the threats and the likely effectiveness of different 
actions taken to address threats.
    In addition, the Forest Service and Interior appropriations 
for fuel reductions, preparedness and suppression have been 
increased substantially since 1999. As shown in the this slide, 
overall appropriations for both Forest service and Interior 
have nearly tripled in the past five years from about $1 
billion in 1999 to over $2.7 billion in Fiscal Year 2004. More 
specifically, fuel reduction funding has quadrupled.
    While the Federal Government has made important progress to 
date in developing a sound foundation for addressing the 
problem that wildfires are increasingly presenting, the 
agencies need to complete and refine a cohesive strategy that 
explicitly identifies the long-term options and related funding 
needed to reduce fuels on our national forests and rangelands, 
and to respond to the Nation's wildland fire threats.
    However, to complete and begin implementing such a strategy 
the agencies must complete several tasks, each with its own 
challenges.
    To finalize a cohesive strategy the agencies need to 
complete three ongoing initiatives: further development of data 
and modeling systems to more precisely identify wildland fire 
threats; updates of local fire management plans to include the 
latest wildland fire data and research; and assessments of the 
cost effectiveness and affordability of fuel reduction options. 
I will briefly discuss each action that we see needs to be done 
in these areas.
    Regarding the data and modeling system, in completing 
LANDFIRE the agencies need a consistent approach to assessing 
risks of wildland fires to ecosystem resources and an 
integrated approach to better manage and use information 
systems and data in making their wildland fire decisions. 
Moreover, the agencies will have to reexamine the LANDFIRE data 
and models before implementing them to assess how climate 
shifts may affect wildland fire risks.
    Fire management plans will need to be updated with detailed 
nationally consistent LANDFIRE data as they become available, 
recent agency fire research on optimal location of fuel 
reduction treatments in relation to communities and the latest 
research findings on optimal design and arrangement of fuel 
reduction treatments.
    Last, the agencies will need to complete several ongoing 
initiatives to assess the cost effectiveness and affordability 
of fuel reduction options. These initiatives include and 
initial interagency analysis of national fuel reduction options 
which need to be applied to a smaller geographic area to get 
more accurate estimates of long-term costs. The second 
initiative is a new budget allocation system based on cost 
effectiveness that is expected to take at least until 2007 to 
complete. The third effort is a new strategic wildland fire 
analysis effort that is expected to be completed this year. 
That also may help in identifying long-term costs and funding 
options.
    In conclusion, there are a number of options, each 
involving different tradeoffs among risks and funding that need 
to be identified and better understood. This is the same 
message that we provided to you five years ago in calling for a 
cohesive strategy that identified the long-term options and 
related funding needed to reduce fuels on our national forests 
and rangelands, and to respond to the Nation's wildland fire 
threats.
    The agencies and the Congress need such a strategy to help 
make decisions about effective and affordable long-term 
approaches for addressing problems that have been decades in 
the making and will take decades more to resolve.
    We have recommended in our report that the Secretaries of 
Agriculture and the Interior provide the Congress, in time for 
its consideration of their Fiscal Year 2006 Wildland Fire 
Management Budgets, with a joint tactical plan that outlines 
the critical steps the agencies will take, together with 
related timeframes, to complete their cohesive strategy that 
would identify long-term options and funding needs.
    Mr. Chairman, that concludes my testimony. I will be 
pleased to answer any questions that you or members of the 
Subcommittee may have at this time.
    [The prepared statement of Ms. Nazzaro follows:]

    Statement of Robin M. Nazzaro, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

                        WILDLAND FIRE MANAGEMENT

 FOREST SERVICE AND INTERIOR NEED TO SPECIFY STEPS AND A SCHEDULE FOR 
             IDENTIFYING LONG-TERM OPTIONS AND THEIR COSTS

Why GAO Did This Study
    Over the past two decades, the number of acres burned by wildland 
fires has surged, often threatening human lives, property, and 
ecosystems. Past management practices, including a concerted federal 
policy in the 20th century of suppressing fires to protect communities 
and ecosystem resources, unintentionally resulted in steady 
accumulation of dense vegetation that fuels large, intense, wildland 
fires. While such fires are normal in some ecosystems, in others they 
can cause catastrophic damage to resources as well as to communities 
near wildlands known as the wildland-urban interface.
    GAO was asked to identify the (1) progress the federal government 
has made in responding to wildland fire threats and (2) challenges it 
will need to address within the next 5 years. This testimony is based 
primarily on GAO's report, Wildland Fire Management: Important Progress 
Has Been Made, but Challenges Remain to Completing a Cohesive Strategy 
(GAO-05-147), released on February 14, 2005.

What GAO Recommends
    In its report and this testimony, GAO recommends that the 
Secretaries of Agriculture and the Interior provide the Congress with a 
plan outlining the critical steps and time frames for completing a 
cohesive strategy that identifies the options and funding needed to 
address wildland fire problems.

What GAO Found
    Over the last 5 years, the Forest Service in the Department of 
Agriculture and land management agencies in the Department of the 
Interior, working with the Congress, have made important progress in 
responding to wildland fires. The agencies have adopted various 
national strategy documents addressing the need to reduce wildland fire 
risks; established a priority for protecting communities in the 
wildland-urban interface; and increased efforts and amounts of funding 
committed to addressing wildland fire problems, including preparedness, 
suppression, and fuel reduction on federal lands. In addition, the 
agencies have begun improving their data and research on wildland fire 
problems, made progress in developing long-needed fire management plans 
that identify actions for effectively addressing wildland fire threats 
at the local level, and improved federal interagency coordination and 
collaboration with nonfederal partners. The agencies also have 
strengthened overall accountability for their investments in wildland 
fire activities by establishing improved performance measures and a 
framework for monitoring results.
    While the agencies have adopted various strategy documents to 
address the nation's wildland fire problems, none of these documents 
constitutes a cohesive strategy that explicitly identifies the long-
term options and related funding needed to reduce fuels in national 
forests and rangelands and to respond to wildland fire threats. Both 
the agencies and the Congress need a comprehensive assessment of the 
fuel reduction options and related funding needs to determine the most 
effective and affordable long-term approach for addressing wildland 
fire problems. Completing a cohesive strategy that identifies long-term 
options and needed funding will require finishing several efforts now 
under way, each with its own challenges. The agencies will need to 
finish planned improvements in a key data and modeling system--
LANDFIRE--to more precisely identify the extent and location of 
wildland fire threats and to better target fuel reduction efforts. In 
implementing LANDFIRE, the agencies will need more consistent 
approaches to assessing wildland fire risks, more integrated 
information systems, and better understanding of the role of climate in 
wildland fire. In addition, local fire management plans will need to be 
updated with data from LANDFIRE and from emerging agency research on 
more cost-effective approaches to reducing fuels. Completing a new 
system designed to identify the most cost-effective means for 
allocating fire management budget resources--Fire Program Analysis--may 
help to better identify long-term options and related funding needs. 
Without completing these tasks, the agencies will have difficulty 
determining the extent and location of wildland fire threats, targeting 
and coordinating their efforts and resources, and resolving wildland 
fire problems in the most timely and cost-effective manner over the 
long term.
    A November 2004 report of the Western Governors' Association also 
called for completing a cohesive federal strategy to address wildland 
fire problems.
                                 ______
                                 
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the status of the federal 
government's efforts to address our nation's wildland fire problems. 
The trend of increasing wildland fire threats to communities and 
ecosystems that we reported on 5 years ago has been continuing. The 
average number of acres burned by wildland fires annually from 2000 
through 2003 was 56 percent greater than the average amount burned 
annually during the 1990s. Wildland fires are often necessary to 
restore ecosystems, but some fires also can cause catastrophic damages 
to communities and ecosystems. Experts believe that catastrophic 
damages from wildland fires probably will continue to increase until an 
adequate long-term federal response, coordinated with others, is 
implemented and has had time to take effect.
    My testimony today summarizes the findings of our report released 
this week that discusses progress the federal government has made over 
the last 5 years and key challenges it faces in developing and 
implementing a long-term response to wildland fire problems. 
<SUP>1</SUP> This report is based primarily on over 25 reviews we 
conducted in recent years of federal wildland fire management that 
focused largely on the activities of the Forest Service within the 
Department of Agriculture and the land management agencies in the 
Department of the Interior, which together manage about 95 percent of 
all federal lands.
---------------------------------------------------------------------------
    \1\ GAO, Wildland Fire Management: Important Progress Has Been 
Made, but Challenges Remain to Completing a Cohesive Strategy, GAO-05-
147 (Washington, D.C.: Jan. 14, 2005).
---------------------------------------------------------------------------
Summary
    In the past 5 years, the federal government has made important 
progress in putting into place the basic components of a framework for 
managing and responding to the nation's wildland fire problems, 
including
    <bullet>  establishing a priority to protect communities near 
wildlands--the wildland-urban interface;
    <bullet>  increasing the amount of effort and funds available for 
addressing fire-related concerns, such as fuel reduction on federal 
lands;
    <bullet>  improving data and research on wildland fire, local fire 
management plans, interagency coordination, and collaboration with 
nonfederal partners; and
    <bullet>  refining performance measures and results monitoring for 
wildland fire management.
    While this progress has been important, many challenges remain for 
addressing wildland fire problems in a timely and effective manner. 
Most notably, the land management agencies need to complete a cohesive 
strategy that identifies the long-term options and related funding 
needed for reducing fuels and responding to wildland fires when they 
occur. A recent Western Governors' Association report also called for 
completing such a cohesive federal strategy. The agencies and the 
Congress need such a strategy to make decisions about an effective and 
affordable long-term approach for addressing problems that have been 
decades in the making and will take decades more to resolve. However, 
completing and implementing such a strategy will require that the 
agencies complete several challenging tasks, including
    <bullet>  developing data systems needed to identify the extent, 
severity, and location of wildland fire threats to the nation's 
communities and ecosystems;
    <bullet>  updating local fire management plans to better specify 
the actions needed to effectively address these threats; and
    <bullet>  assessing the cost-effectiveness and affordability of 
options for reducing fuels.
    We are recommending that the Secretaries of Agriculture and the 
Interior provide the Congress, in time for its consideration of the 
agencies' Fiscal Year 2006 wildland fire management budgets, with a 
joint tactical plan outlining the critical steps the agencies will 
take, together with related time frames, to complete a cohesive 
strategy that identifies long-term options and needed funding for 
reducing and maintaining fuels at acceptable levels and responding to 
the nation's wildland fire problems.

Background
    Wildland fire triggered by lightning is a normal, inevitable, and 
necessary ecological process that nature uses to periodically remove 
excess undergrowth, small trees, and vegetation to renew ecosystem 
productivity. However, various human land use and management practices, 
including several decades of fire suppression activities, have reduced 
the normal frequency of wildland fires in many forest and rangeland 
ecosystems and have resulted in abnormally dense and continuous 
accumulations of vegetation that can fuel uncharacteristically large 
and intense wildland fires. Such large intense fires increasingly 
threaten catastrophic ecosystem damage and also increasingly threaten 
human lives, health, property, and infrastructure in the wildland-urban 
interface. Federal researchers estimate that vegetative conditions that 
can fuel such fires exist on approximately 190 million acres--or more 
than 40 percent--of federal lands in the contiguous United States but 
could vary from 90 million to 200 million acres, and that these 
conditions also exist on many nonfederal lands.
    Our reviews over the last 5 years identified several weaknesses in 
the federal government's management response to wildland fire issues. 
These weaknesses included the lack of a national strategy that 
addressed the likely high costs of needed fuel reduction efforts and 
the need to prioritize these efforts. Our reviews also found 
shortcomings in federal implementation at the local level, where over 
half of all federal land management units' fire management plans did 
not meet agency requirements designed to restore fire's natural role in 
ecosystems consistent with human health and safety. These plans are 
intended to identify needed local fuel reduction, preparedness, 
suppression, and rehabilitation actions. The agencies also lacked basic 
data, such as the amount and location of lands needing fuel reduction, 
and research on the effectiveness of different fuel reduction methods 
on which to base their fire management plans and specific project 
decisions. Furthermore, coordination among federal agencies and 
collaboration between these agencies and nonfederal entities were 
ineffective. This kind of cooperation is needed because wildland fire 
is a shared problem that transcends land ownership and administrative 
boundaries. Finally, we found that better accountability for federal 
expenditures and performance in wildland fire management was needed. 
Agencies were unable to assess the extent to which they were reducing 
wildland fire risks or to establish meaningful fuel reduction 
performance measures, as well as to determine the cost-effectiveness of 
these efforts, because they lacked both monitoring data and sufficient 
data on the location of lands at high risk of catastrophic fires to 
know the effects of their actions. As a result, their performance 
measures created incentives to reduce fuels on all acres, as opposed to 
focusing on high-risk acres.
    Because of these weaknesses, and because experts said that wildland 
fire problems could take decades to resolve, we said that a cohesive, 
long-term, federal wildland fire management strategy was needed. We 
said that this cohesive strategy needed to focus on identifying options 
for reducing fuels over the long term in order to decrease future 
wildland fire risks and related costs. We also said that the strategy 
should identify the costs associated with those different fuel 
reduction options over time, so that the Congress could make cost-
effective, strategic funding decisions.

Important Progress Has Been Made in Addressing Federal Wildland Fire 
        Management Problems over the Last 5 Years
    The federal government has made important progress over the last 5 
years in improving its management of wildland fire. Nationally it has 
established strategic priorities and increased resources for 
implementing these priorities. Locally, it has enhanced data and 
research, planning, coordination, and collaboration with other parties. 
With regard to accountability, it has improved performance measures and 
established a monitoring framework.

Progress in National Strategy: Priorities Have Been Clarified and 
        Funding Has Been Increased for Identified Needs
    Over the last 5 years, the federal government has been formulating 
a national strategy known as the National Fire Plan, composed of 
several strategic documents that set forth a priority to reduce 
wildland fire risks to communities. Similarly, the recently enacted 
Healthy Forests Restoration Act of 2003 directs that at least 50 
percent of funding for fuel reduction projects authorized under the Act 
be allocated to wildland-urban interface areas. While we have raised 
concerns about the way the agencies have defined these areas and the 
specificity of their prioritization guidance, we believe that the act's 
clarification of the community protection priority provides a good 
starting point for identifying and prioritizing funding needs. 
Similarly, in contrast to Fiscal Year 1999, when we reported that the 
Forest Service had not requested increased funding to meet the growing 
fuel reduction needs it had identified, fuel reduction funding for both 
the Forest Service and Interior quadrupled by Fiscal Year 2004. The 
Congress, in the Healthy Forests Restoration Act, also authorized $760 
million per year to be appropriated for hazardous fuels reduction 
activities, including projects for reducing fuels on up to 20 million 
acres of land. Moreover, appropriations for both agencies' overall 
wildland fire management activities, including preparedness, 
suppression and rehabilitation, have nearly tripled, from about $1 
billion in Fiscal Year 1999 to over $2.7 billion in Fiscal Year 2004.

Progress in Local Implementation: Data and Research, Fire Management 
        Planning, and Coordination and Collaboration Have Been 
        Strengthened
    The agencies have strengthened local wildland fire management 
implementation by making significant improvements in federal data and 
research on wildland fire over the past 5 years, including an initial 
mapping of fuel hazards nationwide. Additionally, in 2003, the agencies 
approved funding for development of a geospatial data and modeling 
system, called LANDFIRE, to map wildland fire hazards with greater 
precision and uniformity. LANDFIRE--estimated to cost $40 million and 
scheduled for nationwide implementation in 2009--will enable 
comparisons of conditions between different field locations nationwide, 
thus permitting better identification of the nature and magnitude of 
wildland fire risks confronting different community and ecosystem 
resources, such as residential and commercial structures, species 
habitat, air and water quality, and soils.
    The agencies also have improved local fire management planning by 
adopting and executing an expedited schedule to complete plans for all 
land units that had not been in compliance with agency requirements. 
The agencies also adopted a common interagency template for preparing 
plans to ensure greater consistency in their contents.
    Coordination among federal agencies and their collaboration with 
nonfederal partners, critical to effective implementation at the local 
level, also has been improved. In 2001, as a result of congressional 
direction, the agencies jointly formulated a 10-Year Comprehensive 
Strategy with the Western Governors' Association to involve the states 
as full partners in their efforts. An implementation plan adopted by 
the agencies in 2002 details goals, time lines, and responsibilities of 
the different parties for a wide range of activities, including 
collaboration at the local level to identify fuel reduction priorities 
in different areas. Also in 2002, the agencies established an 
interagency body, the Wildland Fire Leadership Council, composed of 
senior Agriculture and Interior officials and nonfederal 
representatives, to improve coordination of their activities with each 
other and nonfederal parties.

Progress in Accountability: Better Performance Measures and a Results 
        Monitoring Framework Have Been Developed
    Accountability for the results the federal government achieves from 
its investments in wildland fire management activities also has been 
strengthened. The agencies have adopted a performance measure that 
identifies the amount of acres moved from high-hazard to low-hazard 
fuel conditions, replacing a performance measure for fuel reductions 
that measured only the total acres of fuel reductions and created an 
incentive to treat less costly acres rather than the acres that 
presented the greatest hazards. Additionally, in 2004, to have a better 
baseline for measuring progress, the Wildland Fire Leadership Council 
approved a nationwide framework for monitoring the effects of wildland 
fire. While an implementation plan is still needed for this framework, 
it nonetheless represents a critical step toward enhancing wildland 
fire management accountability.

Agencies Face Several Challenges to Completing a Long-Needed Cohesive 
        Strategy for Reducing Fuels and Responding to Wildland Fire 
        Problems
    While the federal government has made important progress over the 
past 5 years in addressing wildland fire, a number of challenges still 
must be met to complete development of a cohesive strategy that 
explicitly identifies available long-term options and funding needed to 
reduce fuels on the nation's forests and rangelands. Without such a 
strategy, the Congress will not have an informed understanding of when, 
how, and at what cost wildland fire problems can be brought under 
control. None of the strategic documents adopted by the agencies to 
date have identified these options and related funding needs, and the 
agencies have yet to delineate a plan or schedule for doing so. To 
identify these options and funding needs, the agencies will have to 
address several challenging tasks related to their data systems, fire 
management plans, and assessing the cost-effectiveness and 
affordability of different options for reducing fuels.

Completing and Implementing the LANDFIRE System Is Essential to 
        Identifying and Addressing Wildland Fire Threats
    The agencies face several challenges to completing and implementing 
LANDFIRE, so that they can more precisely identify the extent and 
location of wildland fire threats and better target fuel reduction 
efforts. These challenges include using LANDFIRE to better reconcile 
the effects of fuel reduction activities with the agencies' other 
stewardship responsibilities for protecting ecosystem resources, such 
as air, water, soils, and species habitat, which fuel reduction efforts 
can adversely affect. The agencies also need LANDFIRE to help them 
better measure and assess their performance. For example, the data 
produced by LANDFIRE will help them devise a separate performance 
measure for maintaining conditions on low-hazard lands to ensure that 
their conditions do not deteriorate to more hazardous conditions while 
funding is being focused on lands with high-hazard conditions.
    In implementing LANDFIRE, however, the agencies will have to 
overcome the challenges presented by the current lack of a consistent 
approach to assessing the risks of wildland fires to ecosystem 
resources as well as the lack of an integrated, strategic, and unified 
approach to managing and using information systems and data, including 
those such as LANDFIRE, in wildland fire decision making. Currently, 
software, data standards, equipment, and training vary among the 
agencies and field units in ways that hamper needed sharing and 
consistent application of the data. Also, LANDFIRE data and models may 
need to be revised to take into account recent research findings that 
suggest part of the increase in wildland fire in recent years has been 
caused by a shift in climate patterns. This research also suggests that 
these new climate patterns may continue for decades, resulting in 
further increases in the amount of wildland fire. Thus, the nature, 
extent, and geographical distribution of hazards initially identified 
in LANDFIRE, as well as the costs for addressing them, may have to be 
reassessed.

Fire Management Plans Will Need to Be Updated with Latest Data and 
        Research on Wildland Fire
    The agencies will need to update their local fire management plans 
when more detailed, nationally consistent LANDFIRE data become 
available. The plans will also have to be updated to incorporate recent 
agency fire research on approaches to more effectively address wildland 
fire threats. For example, a 2002 interagency analysis found that 
protecting wildland-urban interface communities more effectively--as 
well as more cost-effectively--might require locating a higher 
proportion of fuel reduction projects outside of the wildland-urban 
interface than currently envisioned, so that fires originating in the 
wildlands do not become too large to suppress by the time they arrive 
at the interface. Moreover, other agency research suggests that placing 
fuel reduction treatments in specific geometric patterns may, for the 
same cost, provide protection for up to three times as many community 
and ecosystem resources as do other approaches, such as placing fuel 
breaks around communities and ecosystems resources. Timely updating of 
fire management plans with the latest research findings on optimal 
design and location of treatments also will be critical to the 
effectiveness and cost-effectiveness of these plans. The Forest Service 
indicated that this updating could occur during annual reviews of fire 
management plans to determine whether any changes to them may be 
needed.

Ongoing Efforts to Assess the Cost-Effectiveness and Affordability of 
        Fuel Reduction Options Need to Be Completed
    Completing the LANDFIRE data and modeling system and updating fire 
management plans should enable the agencies to formulate a range of 
options for reducing fuels. However, to identify optimal and affordable 
choices among these options, the agencies will have to complete certain 
cost-effectiveness analysis efforts they currently have under way. 
These efforts include an initial 2002 interagency analysis of options 
and costs for reducing fuels, congressionally-directed improvements to 
their budget allocation systems, and a new strategic analysis framework 
that considers affordability.
    The Interagency Analysis of Options and Costs: In 2002, a team of 
Forest Service and Interior experts produced an estimate of the funds 
needed to implement eight different fuel reduction options for 
protecting communities and ecosystems across the nation over the next 
century. Their analysis also considered the impacts of fuels reduction 
activities on future costs for other principal wildland fire management 
activities, such as preparedness, suppression, and rehabilitation, if 
fuels were not reduced. The team concluded that the option that would 
result in reducing the risks to communities and ecosystems across the 
nation could require an approximate tripling of current fuel reduction 
funding to about $1.4 billion for an initial period of a few years. 
These initially higher costs would decline after fuels had been reduced 
enough to use less expensive controlled burning methods in many areas 
and more fires could be suppressed at lower cost, with total wildland 
fire management costs, as well as risks, being reduced after 15 years. 
Alternatively, the team said that not making a substantial short-term 
investment using a landscape focus could increase both costs and risks 
to communities and ecosystems in the long term. More recently, however, 
Interior has said that the costs and time required to reverse current 
increasing risks may be less when other vegetation management 
activities--such as timber harvesting and habitat improvements--are 
considered that were not included in the interagency team's original 
assessment but also can influence wildland fire.
    The cost of the 2002 interagency team's option that reduced risks 
to communities and ecosystems over the long term is consistent with a 
June 2002 National Association of State Foresters' projection of the 
funding needed to implement the 10-Year Comprehensive Strategy 
developed by the agencies and the Western Governors' Association the 
previous year. The state foresters projected a need for steady 
increases in fuel reduction funding up to a level of about $1.1 billion 
by Fiscal Year 2011. This is somewhat less than that of the interagency 
team's estimate, but still about 2-1/2 times current levels.
    The state foresters projected a need for fuel reduction funding 
increases that was somewhat less than that of the interagency team's 
estimate, but still up to about 2-1/2 times current levels, or over 
$1.1 billion annually.
    The interagency team of experts who prepared the 2002 analysis of 
options and associated costs said their estimates of long-term costs 
could only be considered an approximation because the data used for 
their national-level analysis were not sufficiently detailed. They said 
a more accurate estimate of the long-term federal costs and 
consequences of different options nationwide would require applying 
this national analysis framework in smaller geographic areas using more 
detailed data, such as that produced by LANDFIRE, and then aggregating 
these smaller-scale results.
    The New Budget Allocation System: Agency officials told us that a 
tool for applying this interagency analysis at a smaller geographic 
scale for aggregation nationally may be another management system under 
development--the Fire Program Analysis system. This system, being 
developed in response to congressional committee direction to improve 
budget allocation tools, is designed to identify the most cost-
effective allocations of annual preparedness funding for implementing 
agency field units' local fire management plans. Eventually, the Fire 
Program Analysis system, being initially implemented in 2005, will use 
LANDFIRE data and provide a smaller geographical scale for analyses of 
fuel reduction options and thus, like LANDFIRE, will be critical for 
updating fire management plans. Officials said that this preparedness 
budget allocation system--when integrated with an additional component 
now being considered for allocating annual fuel reduction funding--
could be instrumental in identifying the most cost-effective long-term 
levels, mixes, and scheduling of these two wildland fire management 
activities. Completely developing the Fire Program Analysis system, 
including the fuel reduction funding component, is expected to cost 
about $40 million and take until at least 2007 and perhaps until 2009.
    The New Strategic Analysis Effort: In May 2004, Agriculture and 
Interior began the initial phase of a wildland fire strategic planning 
effort that also might contribute to identifying long-term options and 
needed funding for reducing fuels and responding to the nation's 
wildland fire problems. This effort--the Quadrennial Fire and Fuels 
Review--is intended to result in an overall federal interagency 
strategic planning document for wildland fire management and risk 
reduction and to provide a blueprint for developing affordable and 
integrated fire preparedness, fuels reduction, and fire suppression 
programs. Because of this effort's consideration of affordability, it 
may provide a useful framework for developing a cohesive strategy that 
includes identifying long-term options and related funding needs. The 
preliminary planning, analysis, and internal review phases of this 
effort are currently being completed and an initial report is expected 
in March 2005.
    The improvements in data, modeling, and fire behavior research that 
the agencies have under way, together with the new cost-effectiveness 
focus of the Fire Program Analysis system to support local fire 
management plans, represent important tools that the agencies can begin 
to use now to provide the Congress with initial and successively more 
accurate assessments of long-term fuel reduction options and related 
funding needs. Moreover, a more transparent process of interagency 
analysis in framing these options and their costs will permit better 
identification and resolution of differing assumptions, approaches, and 
values. This transparency provides the best assurance of accuracy and 
consensus among differing estimates, such as those of the interagency 
team and the National Association of State Foresters.

A Recent Western Governors' Association Report Is Consistent with GAO's 
        Findings and Recommendation
    In November 2004, the Western Governors' Association issued a 
report prepared by its Forest Health Advisory Committee that assessed 
implementation of the 10-Year Comprehensive Strategy, which the 
association had jointly devised with the agencies in 2001. <SUP>2</SUP> 
Although the association's report had a different scope than our 
review, its findings and recommendations are, nonetheless, generally 
consistent with ours about the progress made by the federal government 
and the challenges it faces over the next 5 years. In particular, it 
recommends, as we do, completion of a long-term federal cohesive 
strategy for reducing fuels. It also cites the need for continued 
efforts to improve, among other things, data on hazardous fuels, fire 
management plans, the Fire Program Analysis system, and cost-
effectiveness in fuel reductions--all challenges we have emphasized 
today.
---------------------------------------------------------------------------
    \2\ Report to the Western Governors on the Implementation of the 
10-Year Comprehensive Strategy, Western Governors' Association Forest 
Health Advisory Committee (Denver, 2004).
---------------------------------------------------------------------------
Conclusions
    The progress made by the federal government over the last 5 years 
has provided a sound foundation for addressing the problems that 
wildland fire will increasingly present to communities, ecosystems, and 
federal budgetary resources over the next few years and decades. But, 
as yet, there is no clear single answer about how best to address these 
problems in either the short or long term. Instead, there are different 
options, each needing further development to understand the trade-offs 
among the risks and funding involved. The Congress needs to understand 
these options and tradeoffs in order to make informed policy and 
appropriations decisions on this 21st century challenge.
    This is the same message we provided to this subcommittee 5 years 
ago in calling for a cohesive strategy that identified options and 
funding needs. But it still has not been completed. While the agencies 
are now in a better position to do so, they must build on the progress 
made to date by completing data and modeling efforts underway, updating 
their fire management plans with the results of these data efforts and 
ongoing research, and following through on recent cost-effectiveness 
and affordability initiatives. However, time is running out. Further 
delay in completing a strategy that cohesively integrates these 
activities to identify options and related funding needs will only 
result in increased long-term risks to communities, ecosystems, and 
federal budgetary resources.

Recommendation for Executive Action
    Because there is an increasingly urgent need for a cohesive federal 
strategy that identifies long-term options and related funding needs 
for reducing fuels, we have recommended that the Secretaries of 
Agriculture and the Interior provide the Congress, in time for its 
consideration of the agencies' Fiscal Year 2006 wildland fire 
management budgets, with a joint tactical plan outlining the critical 
steps the agencies will take, together with related time frames, to 
complete such a cohesive strategy.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have at this time.
GAO Contacts and Staff Acknowledgments
    For further information about this testimony, please contact me at 
(202) 512-3841 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e58b849f9f84978a97a582848acb828a93cb">[email&#160;protected]</a> Jonathan Altshul, David P. 
Bixler, Barry T. Hill, Richard Johnson, and Chester Joy made key 
contributions to this statement.
                                 ______
                                 
    Mr. Walden. Ms. Nazzaro, thank you, and I commend you for 
coming in 16 seconds early too.
    [Laughter.]
    Mr. Walden. A very helpful presentation.
    I would just point out for our committee members, you each 
should have a document that looks similar to this that is a 
report of the fuels treatment accomplishments for each State, 
in theory the State in which you reside, and so for Fiscal Year 
2004. So you will have some good information there broken out 
by agency type, whether it is the Bureau of Indian Affairs, 
BLM, Fish and Wildlife Service, National Parks Service and U.S. 
Forest Service, and the way that the treatments occurred and 
whether it was in a wildland-urban interface of not.
    Then also we have provided for you a healthy forest report. 
This is information from the U.S. Forest Service which we have 
requested on a--did you say weekly basis or monthly basis--a 
monthly report on the initiatives being taken to make our 
forests healthier and our communities more secure.
    So I would draw your attention to both of those documents 
which you should have before you.
    I have a couple of questions I would like to pose to you, 
and then we will go for questions from the other committee 
members. Ms. Nazzaro, do you know the status of the 2002 
Interagency Options Study concerning funding levels?
    Ms. Nazzaro. No, we do not.
    Mr. Walden. So you don't know whether it has been adopted 
or not?
    Ms. Nazzaro. No, we do not know that.
    Mr. Walden. Can you describe that for me, what you do know 
about it, if anything?
    Mr. Joy. Mr. Chairman?
    Mr. Walden. Is your mike on by the way?
    Mr. Joy. I am sorry. Mr. Chairman, the agency study has 
been on the websites, et cetera, and it was intended to be an 
interagency cohesive strategy document to support that. It has 
not yet been released by the agency. And in response to our 
report, one of the things they mentioned was there were some 
adjustments in the numbers that might have to be taken into 
account because of other activities not funded by the fuel 
account, but had some effects. But it is by far and away, 
obviously, the most comprehensive study that outlines options 
and cost.
    Mr. Walden. I commend what has happened over the last five 
years, a quadrupling of the monies for fuel reduction is 
certainly a major step forward. I think all of us who are 
involved in this issue, as I think most of us on this 
Subcommittee certainly have been over the years, know that with 
the streamlined process we anticipate there will be additional 
demands for funding to be able to work through more projects 
because we should see more projects come on line, so I think we 
are all cognizant of the need for more money and also the 
budgetary constraints in which we find ourselves. But I concur 
with my colleagues that we are best putting our money in an 
investment that reduces the threat of fire and increases the 
health of our forests than wail until damage is done.
    Since your report in 1999 you state that important progress 
has been made. Is there any reason for you to believe that in 
another five years you won't also find some significant 
process, or have you found reluctance among the agencies to 
move forward? I understand they have indicated an inability to 
comply with what you have recommended with to their '06 budget 
and some difficulty there.
    Ms. Nazzaro. On that last point there may have been a 
misunderstanding though as to were we asking for the cohesive 
strategy that we had initially recommended five years, that 
that be completed in time for the '06 budget. Rather, what we 
are talking about is a tactical plan that would give you, if 
you will, the who, what, where, when is this cohesive strategy 
actually going to be developed. We have not seen any reluctance 
on the agency part, and as we have mentioned, we have seen 
significant progress and would expect significant progress to 
continue. However, we do see some significant challenges for 
them as well, as we pointed out.
    Mr. Walden. In your testimony you indicate a need for more 
cost effective approaches to reducing fuels, and obviously we 
agree with that, being stewards of the taxpayers' purse. I have 
heard some complaints that little mechanical thinning is taking 
place, which is more expensive, and that prescribed fire is 
currently the number one tool for reducing fuel loads. Isn't it 
true that some of the highest priority areas though, such as 
the wildland-urban interface, are indeed the most expansive to 
treat because we need to do it mechanically? How do we deal 
with this problem?
    Ms. Nazzaro. At this point our recommendation is to set 
priorities. If they would develop the various options and then 
look at the available funding or funding needs, at least we 
would know that we are funding, you know, the optimal areas and 
we are appropriately using the funding that is available.
    Mr. Joy. Mr. Chairman, I might also add, as we said in 
1999, essentially what you said there, some of the highest 
priority areas are obviously wildland-urban interface. There 
you have to use mechanical. So there is going to be a need to 
not always use the cheapest method but it is not very effective 
to have a town burn.
    But at the same time, one of the things about the numbers 
that you need to understand is that for many, many years in the 
Southeastern part of the United States, burning, controlled 
burning has been used across wide areas and will continue to be 
because they can more safely do it than they can in the dry 
west. So part of the imbalance in the figures is that 
essentially you will see a lot of controlled burning because of 
the southeast. But on the other hand, in the interior west, 
where you represent, obviously there is going to have to be 
mechanical around towns.
    Mr. Walden. And I guess that is one of the issues I intend 
to continue to pursue because just a raw acreage number may not 
speak to the quality of work being done. It may, but where you 
can burn, for example, as you have indicated, and accomplish a 
lot in some areas of the country, we can burn in the West too, 
but it may not be where we most need to do the work. So somehow 
we have to make sure this is balance, and clearly we have the 
experts to achieve that.
    Ms. Nazzaro. And that brings attention to where we were 
talking about the appropriate measurement for success as to 
what had they accomplished. Just talking about the total number 
of acres burned is not adequate. You need to know how many of 
the most hazardous acres have been reduced to less hazardous 
conditions.
    Mr. Walden. And how those were determined.
    Mr. Joy. Mr. Chairman, if I might add one more thing about 
that because I think it is so on point, what you have raised 
about this choice business. Although it is more expensive to 
necessarily have to do mechanical around the wildland-urban 
interface, the fact of the matter is that the cost of the 
firefighting in that area to protect that is going to also be 
massively more expensive. So even though it may cost more as 
investment to reduce fuels there, you are going to be saving a 
very high investment in what we are going to throw out to stop 
that there.
    Another thing I would add, and that is I think the 
distinction by what we meant be a cohesive strategy, is it is 
based on cost effectiveness in terms of what it is, the 
expenditure you have to make to prevent the other expenditures.
    Mr. Walden. Right. That was Mr. DeFazio's point.
    Mr. Joy. And over time it is making the investment now so 
that you don't have to do it later. It is both time and place, 
the cost effectiveness. That is what we mean by cohesive and 
how it is different than say the 10-year comprehensive 
strategy.
    Mr. Walden. I thank you very much.
    I now turn to my colleague, Mr. Udall, for questions.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Following up on what you just specifically said, how are we 
doing when you look at the big numbers? The numbers in your 
report are very large in terms of acreage of fuel-treated 
areas. Do you have any conclusions in terms of how we are doing 
on what you just talked about?
    Ms. Nazzaro. In looking at the total number of acres 
doesn't present the right picture. The agencies talk about 
reducing the number of acres, but what we really would like to 
see is a discussion of how many of the higher hazardous acres 
have been, if you will, corrected and are now in the less 
hazardous range. So at this point we have not verified or 
validated any of their numbers. We have not gone out to look at 
any of these sites. So I couldn't tell you the accuracy of 
their data.
    Mr. Tom Udall. Do you think that would be a helpful thing 
at this point, or is the most important thing this cohesive 
strategy and the tactical plan?
    Ms. Nazzaro. That clearly is, long-term, the best approach, 
so that you know exactly what we are dealing with, what options 
are available to us and what the potential costs could be, and 
then if we are limited by funds, that we are applying the funds 
appropriately.
    Mr. Joy. Mr. Udall, and in fairness also, it should be 
noted that the number that you are looking at, say in the 
budget that talk about total number of acres?
    Mr. Tom Udall. Yes.
    Mr. Joy. One of the things we note in the report, the 
agencies have adopted a new way of counting that is not 
reflected in those yet. The GPRA measures for performance for 
fuel reduction are moving, instead of to just gross acreage 
numbers, to acres that have been moved from a hazardous 
condition to a less hazardous condition, so there may be a 
little catch up here in the actual reporting. I would imagine 
next year you will be getting the types of numbers that Ms. 
Nazzaro was speaking about.
    Mr. Tom Udall. On page 10 of your testimony you say that 
this is the same message that we provided to this Subcommittee 
five years ago in calling for a cohesive strategy that 
identified options and funding means, but it is still not being 
completed. I understand there is a little bit of disagreement 
here on whether you are calling in '06 for the cohesive 
strategy to be in place or whether you are calling for a 
tactical plan that will put the cohesive strategy in place. I 
mean, what kind of timetable do you think we are looking at and 
do you recommend in terms of getting the cohesive strategy in 
place and operating?
    Mr. Joy. Mr. Chairman, if the question is, should it be 
five years from now, well, I would suppose everybody would hope 
that would be the case, but I guess the point of our 
recommendation is not so much that there is a point in time 
that we should all wait for. We already have the 2002 analysis 
which needs some adjustment. There are a lot of things that can 
be done now to begin to frame that picture from the bottom up. 
I guess what I am saying is if you take that as a first 
approximation, then the question begins, OK, how does it play 
out in the local areas, to the fire management plans now? That 
should be something that should be updated, but again, as Ms. 
Nazzaro said, we are not calling for that to be done by the 
2006 budget. We are just saying, tell us the schedule for 
developing it, because five years ago we said to do it, and 
here we are now. There wasn't sort of a schedule laid out. 
Maybe if we had a schedule for doing it, then it will be a more 
sort of transparent focus process.
    Mr. Tom Udall. Wouldn't a year be a reasonable amount of 
time to come up with a strategy?
    Mr. Joy. An initial approximation? Well, as I say, they 
already have an initial approximation with the 2002 one, but of 
course that needs some refinement.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Udall.
    Mr. Hayworth?
    Mr. Hayworth. Thank you, Mr. Chairman.
    Welcome, Ms. Nazzaro. I apologize, we have concurrent 
meetings in Ways and Means today so I am a little late and 
could not personally hear your testimony.
    As I have reflected on the questioning of my colleagues, 
perhaps this isn't so much an interrogative as just a 
restatement of some of the challenges we are facing. We are oft 
accused of inventing a bureaucratic bogeyman, but one of the 
challenges we confront is so often it seems while our forest 
burn--and I realize there have been a variety of folks who step 
in ostensibly for the right reasons and are able to get 
injunctions at the last nanosecond, at the eleventh hour to 
prevent thinning projects somehow, the misguided notion that by 
not having forest thinning we are actually saving the forest, 
and we have seen what has happened with the destruction that 
has been wreaked in the State of Arizona and elsewhere in the 
West. And of course we moved for it here with the help of the 
Administration, and at long last passed a Healthy Forest 
Initiative.
    I guess the challenge that we need to look at is we are 
dealing with accountability. When we become prisoners of a 
process and bureaucratic inertia sets in to where in examining 
what the process will be, we will have a meeting now to decide 
next Thursday when the third meeting will be, and then perhaps 
we can come to some sort of decision in terms of the process, 
it doesn't do any good for anybody.
    I know we are going to have your best efforts, but it would 
be my hope because so obviously there needs to a framework of 
accountability and a way to see how results are measured, and 
as we move forward with this, I would think that--I heard my 
colleague from New Mexico talk about a year's time. We have to 
get through another fire season. We have real challenges. We 
probably needed this stuff a year ago yesterday, even before 
passing this. That was then, this is now.
    I guess what I am trying to say is can we get this done 
stat? Can we move forward much more quickly? Because when we 
are dealing with--as we heard in the testimony, when you take a 
look at--luckily, Show Low, Arizona was averted in the Rodeo-
Chediski fire, but when you look at what has happened, the 
effects of these fires on towns in the west, for all intents 
and purposes, they become like a war zone. Is there a sense of 
urgency to understand that domestically we are basically 
dealing with these forests in the aftermath in a war zone, and 
will we see that type of mentality, get it done stat brought to 
these projects?
    Ms. Nazzaro. I don't want to appear glib in an answer, but 
I would suggest you ask the agency those questions as to what 
they could realistically do in what kind of a timeframe.
    Mr. Hayworth. Well, let me ask then in terms of the 
standards, all glibness aside, are you satisfied that best 
efforts are being followed, that we are seeing the translation 
of what the intent of the Congress was to bureaucratic 
regulation? Is it your perception that within the agencies that 
things are moving along at an adequate clip?
    Ms. Nazzaro. They are making progress toward this cohesive 
strategy. We did not look at the process actually to see if 
there are problems, that maybe they are doing some things wrong 
or some things that are right should be done more. We did not 
assess process, so I don't know that I can give a fair answer 
to that.
    Mr. Hayworth. Thank you for your time.
    Mr. Walden. Thank you.
    The Chair recognizes the gentleman from the Fourth District 
of Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    When I look at your report, page 15, it says, ``The team 
concluded reducing the risk to communities and ecosystems 
across the Nation could require an approximate tripling of 
current fuel reduction funding to about $1.4 billion for an 
initial period of a few years.''
    As I look at the budget this year, BLM and Forest Service 
comes to about $492 million, which is approximately a third of 
that. So where are we getting spending at one-third of that 
level? Are we keeping up with the increase of fuel loads? Are 
we getting ahead of it, or are we falling behind?
    Mr. Joy. Congressman DeFazio, I think the study says that 
at that level, or at least at the level that was being spent in 
2002, we are probably falling behind. But the issue here is--
and that is really why the importance of options--the reason 
for that is there is a good chance we will never do everything, 
and so it involves making choices. Congressman Hayworth's 
point, for instance, about this being a war footing is sort of 
like trying to figure out where it is you can make some 
progress. You have to make some choices.
    We are not in a position to say that the 2002 interagency 
analysis is correct because we didn't examine it, and we want 
to make very clear we are not saying that any given level is 
the right one or wrong one. Clearly, the conclusion of that 
report is that more has to be done. But let's suppose that 
there is X amount of money. The question is always going to be, 
what is the best set of options to spend that money?
    Mr. DeFazio. Right.
    Mr. Joy. And that is the framework. I wish I could be more 
direct in an answer to you, but you understand we are not--
    Mr. DeFazio. No, no, I understand.
    Mr. Joy. But we have to have a framework.
    Mr. DeFazio. So basically with proper planning, 
prioritization, targeting, we could for several years spend 
productively, cost effectively, about three times what we are 
spending?
    Mr. Joy. That is that report's initial observation or 
initial assessment. We think that is why it is an important one 
to serve as the baseline.
    Mr. DeFazio. Just focusing on the wildland-urban interface, 
you pointed out that it is more expensive to operate there. But 
there is one principal reason for that. It is more labor 
intensive, obviously, selective removal of understory, removal 
of brush, those sorts of things. But if we look at a cost/
benefit ratio in terms of cost avoided, in terms of 
firefighting in or near urban areas or even isolated dwellings 
that are in the interface that are surrounded by forest, and 
also the beneficial effects of employment, has anybody studied 
that or quantified that in any way to show what the cost/
benefit ratio is or what the employment impacts are in these 
rural areas, many of which are depressed in my State and other 
States, by spending money doing the mechanical work in the 
urban wildland-urban interface?
    Ms. Nazzaro. No. The answer to that is no, but the logic, 
the argument you make seems very solid.
    Mr. DeFazio. Maybe do you think it would be useful as part 
of that targeting process to have those as factors? When the 
agencies are looking at how to target, wouldn't it be useful to 
use those factors, what the potential avoided cost is in terms 
of major fire events proximate to dwellings in those areas?
    Ms. Nazzaro. Definitely.
    Mr. DeFazio. And also the employment effect?
    Mr. Joy. That is what the 2002 analysis did on a national 
scale, except it didn't get into quite some of the economic 
ones, and their point was that that same analysis to be more 
accurate has to be brought down to the more local level where 
you can get those kinds of numbers, and then aggregate it up to 
get a more accurate. That is essentially the starting point of 
that.
    Mr. DeFazio. So that is something to ask the agencies 
again, are they moving in that direction? Are they doing that 
sort of analysis. Because to me--it is hard with these gross 
numbers to know, because there are so many varying situations 
even within just my State. When I look here, it looks like we 
spend--in terms of acreage, we are doing an awful lot of 
mechanical in other than wildland-urban interface. But with 
these gross numbers I don't know what that means where it is.
    But we had a fire in Greg's district along Century Drive 
there in Central Oregon where--it is one of the most startling 
examples of a lost opportunity because if you drive along, you 
can see where you had these big ponderosas were torched because 
there were ladder fuels right next to them which were trees 
that should have been thinned out that were substantial in 
size, 30, 40 feet high, but they allowed crown fire to happen 
and killed the larger trees that would have and have 
historically survived. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. DeFazio.
    Mr. Peterson, do you have any questions for the panel?
    Mr. Peterson. No.
    Mr. Walden. Mr. Inslee, do you have any questions for the 
GAO representatives?
    Mr. Inslee. I do. Thank you, Mr. Chair.
    I am sorry I haven't been able to hear your testimony. I 
will read it. I just want your comments on the wildland-urban 
interface, and I just briefly picked up that it looked like 
less than half of the expenditures are in the wildland-urban 
interface even within Federal ownership. Is that accurate and 
is there any changes coming in that regard, or what could you 
tell us about that?
    Ms. Nazzaro. These are numbers that the agency reported, 
and we did not get behind any of the numbers to determine 
accuracy. I mentioned that earlier, that we did not go in and 
verify or validate any of the data that they gave us. It may be 
more appropriate for you to ask the agency how accurate they 
are or what direction they are moving.
    Mr. Inslee. Is there anything in your report about sort of 
the thinking of the agency in that distribution model? In other 
words, they felt statutorily compelled to be at 50/50 or they 
were unable to do a different allocation that they wanted to, 
any findings in that regard?
    Ms. Nazzaro. That isn't something that we pursued with 
them, but the overall priority has been determined to be these 
communities that are near, that are in the urban interface as 
you mention, and that has been set as a priority and certainly 
I would expect that they would be increasingly focusing on that 
area.
    Mr. Inslee. Thank you.
    Mr. Walden. Is that it, Mr. Inslee?
    Mr. Inslee. Yes, thank you.
    Mr. Walden. Staff indicates to me that in Fiscal Year 2004 
about 62 percent of the funds were spent in the wildland-urban 
interface. We will hear from the agency to further deal with 
that. Obviously, they need to follow our statutory guidelines.
    We want to thank this panel very much. Thank you and your 
colleagues for the work you have done on this report. It is 
invaluable information as we pursue this together to make our 
forests healthier and safer. Thank you for being with us. By 
the way, obviously, the hearing will stay open, the record, for 
10 days, so if committee members who are here or not here have 
additional questions, they will be able to submit those and get 
answers.
    Now I would like to introduce our second panel. On Panel II 
we have The Honorable Rebecca Watson, Assistant Secretary for 
Land and Minerals Management, U.S. Department of the Interior; 
and The Honorable Mark Rey, Under Secretary for Natural 
Resources and Environment at the U.S. Department of 
Agriculture.
    Let me remind our witnesses that under our committee rules 
you are asked to limit your statements to five minutes, and of 
course your entire statement will appear in the record.
    I would now like to recognize Ms. Watson if you are ready 
for your statement. Thank you for being with us, and thank you 
for all the work you do in the agency.

 STATEMENT OF REBECCA WATSON, ASSISTANT SECRETARY FOR LAND AND 
      MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Watson. Thank you. Good morning, Mr. Chairman and 
members of the committee.
    I am Rebecca Watson, Assistant Secretary for Land and 
Minerals Management at the Department of the Interior. I 
appreciate having the opportunity to discuss the Bureau of Land 
Management's implementation of the Healthy Forest Restoration 
Act.
    The Department of Interior is working aggressively to use 
the tools provided by the President's Healthy Forest Initiative 
and the Healthy Forest Restoration Act to reduce hazardous 
fuels. The Bureau of Land Management was fortunate to be 
provided stewardship contracting authority through the Omnibus 
Appropriations Act for Fiscal Year 2003. The BLM is matching up 
the best tools with project needs to get hazardous fuels work 
done.
    Within months of HFRA's passage the Forest Service and BLM 
issued a joint implementation guide for field offices. I 
personally led a satellite broadcast mandatory training session 
for all BLM field offices on these new authorities. I wanted to 
emphasize the importance of these tools, encourage our people 
to use these tools so they would use the right tools to get the 
work done.
    I think one of the most innovative tools Congress has 
provided is stewardship contracting. It allows us to enter into 
long term goods for service contracts up to 10 years that not 
only result in improved land health but also encourages 
infrastructure investment. This investment can turn forest 
slash into bio-energy. By the end of 2005, only our second year 
of implementation, the BLM will have used the stewardship 
contracts for more than 90 projects, and produced more than 
30,000 tons of biomass energy.
    In this first photo, it is Canyon City, Oregon, where BLM 
has entered into a stewardship contract at Little Canyon 
Mountain. The photo on the left is Canyon City in 1898. The 
photo on the right is from 2002. The forest condition in 1898 
was primarily open forest on the upper reaches of the mountain. 
Today, about 100 years later, the forest is densely colonized 
areas that were once open and created the classic wildland-
urban interface. In the middle of the 2002 photo you can see 
pine trees with red needles that have been killed by pine bark 
beetles.
    The second photo shows a closeup of the understory 
vegetation, thick Doug fir with few pine trees. The project was 
designed to remove the ladder fuels and open up the crowns to 
reduce the potential for crown fires. The reduced density will 
also improve stand resistance to beetles. The photo on the 
right shows the stand after treatment. The project is in its 
first year of a 10-year contract that will ultimately treat 
1,850 acres and exchange nearly $120,000 worth of saw timber 
for the work.
    The next photo. The project at Little Canyon Mountain was 
developed in a collaborative framework with the BLM. Mr. 
Chairman, you might recognize this photo.
    Mr. Walden. I was going to commend you on not only your 
photography but your choice of locations.
    Ms. Watson. Well, you know, we see a handsome guy, we have 
to include him there.
    The next project is in Medford, Oregon.
    Mr. Walden. Another splendid location I might add.
    [Laughter.]
    Ms. Watson. I know, it is rather shameless. But this one, I 
actually just reviewed this week at the Department of Interior 
we are reviewing these stewardship contracts at my level in the 
first year to make sure they are on target, and this one is one 
that really did strike me. These landowners in this area had 
looked at their own land, they had done fuels treatment in 
their land, but right in the middle was a landlocked parcel of 
BLM land and there was no access for BLM in there without 
permission of landowners. They came to the BLM and they said, 
``We want to treat your land. It is a fire hazard to our 
land.'' So they have presented a stewardship contract. They are 
going to go in there. It is going to produce some posts and 
poles, firewood and some saw logs, and the BLM finds this will 
cut the cost of the project in half. So it came right out of 
the community for us.
    The next photo. This project gets at some of the issues 
that were raised earlier, and this is the potential for 
commercial biomass. This is a forest project in Alturas, 
California. This is management, restoration of sagebrush steppe 
getting rid of western juniper.
    This is a fire regime condition class 3. It is an area I 
visited last year. Again, it is a community focused project in 
Susanville, California. They want to clear 400,000 acres of 
juniper. They are going to provide 5.2 million tons of biomass 
to a nearby biomass power plant. Biomass has a huge potential 
to help us take what would otherwise be a cost and turn it into 
an economic opportunity for communities in the West.
    Another opportunity, again in Oregon, is the Warm Springs 
Tribe. We are working with the Confederated tribes of the Warm 
Spring in Oregon to develop a plant that will use biomass from 
both BLM and Forest Service lands. The Deschutes County 
Conservation District is part of this effort. It is going to 
create 75 new jobs and preserve 135 jobs at the tribe's 
sawmill. I would add that the National Association of 
Conservation Districts is a strong partner with Department of 
Ag and Department of Interior in providing education on the 
potential of biomass. We signed an MOU with them. We have 
provided them funding, and they are working with us to educate 
folks in this area.
    Photo No. 5 is Klamath Falls, showing again how we can 
utilize juniper. There is other uses for this material that we 
take off the forest. Then I want to skip to the next photo, and 
next one.
    And this is LANDFIRE we heard discussed earlier in the 
testimony. This shows how we can use LANDFIRE. It is a tool not 
only to help us target how we spend our money, but it also 
helps us fight fires more intelligently. This showed where the 
predicted fire was in red, and then the actual fire is in 
purple. This was a prototype. It was used in my home State of 
Montana to help them fight the Rampage fire. This allowed them 
to move their resources over there and fight the fire more 
quickly and more efficiently, more cost effectively.
    Next slide. This is in a King River study area in Sierra 
National Forest in California and it shows a different use for 
LANDFIRE, and again it gets to the idea of how can we use our 
dollars more effectively? How can we target what acres we want 
to treat? And this shows predicted fire behavior. This shows 
where fire would move more easily, and that shows in the red. 
The thickest lines represent the highest risk for fire 
movement. Knowing these potential pathways, land managers could 
plan strategic fuels treatment, shown in green, so they could 
place those where they could best slow the spread of fires. In 
this example these fuel treatments could reduce the burn area 
by some 45 percent.
    The last photograph. That is a fire whirl. These can 
buildup hundreds of feet high and crash down, igniting large 
areas. Predictive fuels modeling with fire behavior and weather 
modeling can help us understand where conditions can create 
this devilish dance. LANDFIRE is a vital tool for identifying 
and mitigating risk, identifying community wildfire protection 
plans.
    I think the Bureau of Land Management and Forest Service 
have made significant improvements in reducing the risk of 
catastrophic wildfire as the GAO recognized in its excellent 
report. There is always room for improvement and more work, and 
we appreciate the GAO's focus on what we can do to move 
forward, and we are eager to do so with your cooperation and 
theirs.
    With that, I will conclude my remarks.
    [The prepared statement of Ms. Watson follows:]

Statement of Rebecca Watson, Assistant Secretary for Land and Minerals 
              Management, U.S. Department of the Interior

    Thank you for the opportunity to testify on the U.S. Department of 
the Interior's progress toward implementing the Healthy Forests 
Restoration Act (HFRA) [P.L.108-148]. I am Rebecca Watson, Assistant 
Secretary of the Interior for Land and Minerals Management. The 
testimony of my colleague, Mark Rey, Under Secretary for Natural 
Resources and Environment at the Agriculture Department, addresses 
implementation of HFRA by the U.S.D.A. Forest Service. My statement 
will address the implementation of HFRA by the Bureau of Land 
Management (BLM).
    The authorities of the HFRA build upon, and work in conjunction 
with, other programs, including the President's Healthy Forests 
Initiative (HFI), the National Fire Plan, and stewardship contracting 
under the 2003 Omnibus Appropriations Act, to reduce the threat of 
wildland fires and restore the health of our public lands.
Implementation of Healthy Forests Initiative
    The HFRA complements administrative reforms developed and 
implemented since the President announced the HFI in August 2002. These 
administrative reforms facilitate hazardous fuels treatment and 
restoration projects on Federal land, including:
    <bullet>  Two new categorical exclusions under the National 
Environmental Policy Act (NEPA) to facilitate implementation of fuels 
treatment projects and post-fire rehabilitation activities that do not 
have significant environmental effects;
    <bullet>  Streamlined consultation procedures for threatened and 
endangered species with the U.S. Fish and Wildlife Service and National 
Marine Fisheries Service for National Fire Plan projects;
    <bullet>  Improved direction from the Council on Environmental 
Quality (CEQ) on conducting environmental assessments under NEPA;
    <bullet>  Improved procedures for administrative appeals of 
proposed agency actions; and
    <bullet>  Publication of a Federal Register Notice for wood biomass 
removal in all service contracts.
Stewardship Contracting
    The BLM and the Forest Service were authorized under the FY 2003 
Omnibus Appropriations Act (Section 323 of P.L. 108-7) to use 
stewardship contracting to reduce hazardous fuels and restore forest 
and rangeland health. Stewardship contracts allow private companies, 
tribes, non-profit organizations, and others to retain forest and 
rangeland products in exchange for performing services to improve 
forest and rangeland health. This authority allows Federal land 
management agencies to achieve important land health goals. Long-term 
contracts (up to 10 years) foster a public/private partnership by 
giving those who undertake stewardship contracts the security to invest 
in equipment and infrastructure that will enable them to harvest or 
productively use the biomass generated from these stewardship services 
to make products or to produce biomass energy.
    By the end of FY 2005, the BLM will have used stewardship 
contracting authority for over 90 projects to restore forest health and 
treat fuels on approximately 40,000 acres of public land. For example, 
the forested areas near Canyon City, a community of 700 residents in 
central Oregon, experienced significant mountain pinebeetle infestation 
mortality. In response, in 2004 the BLM issued a 10-year stewardship 
contract to reduce fuels, improve forest health, and reduce soil 
erosion on nearly 1,850 acres of public land. Under the stewardship 
contract, the BLM will exchange approximately $120,000 of small 
diameter sawtimber (2.5 million board feet) for fuels reduction 
services and other restoration activities.
BLM's Implementation of HFRA
    Since HFRA was signed into law in December 2003, the BLM and Forest 
Service have developed procedures and guidance for the use of this new 
authority on projects to reduce the risk of severe wildland fire and 
restore forest and rangeland health, including:
    <bullet>  Issuing an interim field guide in February 2004 that was 
jointly prepared by the BLM and the Forest Service to assist Federal 
land managers in better understanding the requirements for 
implementation of the HFRA;
    <bullet>  Developing a variety of educational and training tools 
for agency employees on HFI and HFRA, stewardship projects, Endangered 
Species Act counterpart regulations, and biomass programs;
    <bullet>  Applying these new tools (such as categorical exclusions, 
HFRA, and CEQ guidelines on environmental assessments) in 2005 in 
planning nearly half of all new fuels treatment projects, an increase 
of approximately 85 percent over FY 2004;
    <bullet>  Certifying 413 BLM staff to use the new counterpart 
regulations for consultation on threatened and endangered species; and
    <bullet>  Issuing a variety of materials on the HFI and HFRA that 
are available to the public on the Internet at the website: 
www.healthyforests.gov.
Implementation of Specific Titles of HFRA
Title I--Hazardous Fuels Reduction on Federal Lands
    The HFRA provides for the collaborative development and expedited 
environmental analysis of authorized projects on public lands managed 
by the BLM that are at risk of catastrophic wildland fire. The HFRA 
authorizes expedited action on public lands: located in wildland-urban 
interface (WUI) areas; identified as condition class 3 (high fire 
frequency) where there are at-risk municipal water supplies; where 
threatened and endangered species or their habitats are at-risk of 
catastrophic fire and fuels treatments can reduce those risks; and 
where windthrow, insect infestation, or disease epidemics threaten the 
forest or rangeland resources.
    The HFRA builds on community and resource protection activities 
carried out under the National Fire Plan, and encourages local 
communities to work with Federal agencies to develop Community Wildfire 
Protection Plans. These plans assist local communities, as well as 
State, Federal, and Tribal cooperators to clarify and refine 
priorities, roles and responsibilities in the protection of life, 
property, and critical infrastructure in the WUI. The BLM has developed 
guidance and conducted workshops on the roles and responsibilities of 
the BLM in the development of Community Wildfire Protection Plans. Thus 
far in FY 2005, the Department has assisted 140 communities in 
completing their Community Wildfire Protection Plans. Several counties 
in western Oregon have used funds available under Title III of the 
Secure Rural Schools and Community Self-Determination Act (P.L.106-393) 
to begin the fuels assessments and Geographic Information Systems data 
collection needed for these plans, and have recommended Title II 
funding for projects to implement them.
    The BLM began using the HFRA authorities in FY 2004 to expedite the 
planning of new hazardous fuels reduction projects. Using HFRA 
authorities in FY 2004, the BLM undertook fuels reduction activities on 
some 1,500 acres and used HFRA in planning for out-year fuels reduction 
projects. The BLM plans to use HFRA on some 9,000 acres of treatments 
to be implemented in FY 2005, and will use HFRA in planning 
approximately 20 fuels projects in FY 2005 and FY 2006.
    In order to assist land managers in identifying areas at risk due 
to the accumulation of hazardous fuels and to help prioritize hazardous 
fuels reduction projects, the Department of the Interior and the Forest 
Service are implementing a wildland vegetation mapping project known as 
``LANDFIRE.'' The LANDFIRE project is a six-year, $40 million 
interagency partnership sponsored by the Wildland Fire Leadership 
Council. When complete, LANDFIRE will allow us to target those critical 
acres for fuels treatment that will provide the maximum protection to 
communities and other important resources identified by communities. 
LANDFIRE will generate consistent, comprehensive, standardized, 
landscape-scale maps and data describing vegetation, fire, and fuels 
characteristics across the United States. It will provide spatial data 
and predictive models needed by land and fire managers to prioritize, 
evaluate, plan, complete, and monitor fuel treatment and restoration 
projects. Additionally, LANDFIRE will improve hazardous fuels treatment 
coordination between agencies and support implementation of the 
National Fire Plan and the HFRA.
    We believe that this capability is a vital tool for identifying and 
mitigating risks identified in Community Wildfire Protection Plans. The 
agencies are evaluating the use of prototype LANDFIRE data in helping 
land managers and local communities collaboratively select fuels 
treatment projects for FY 2006.
Title II--Utilization of Wood Biomass
    Wood biomass is predominantly the by-product of hazardous fuels 
removal projects that reduce the risk of wildland fire and improve 
forest health. In June 2003, the Secretary of the Interior joined the 
Secretaries of Agriculture and Energy in signing a Memorandum of 
Understanding (MOU) that commits the Departments to support the 
utilization of wood biomass by-products from restoration and fuels 
treatment projects wherever ecologically, economically, and legally 
appropriate, and consistent with locally developed land management 
plans.
    Early in 2004, Secretary Norton charged the Department and its 
agencies with development of a coordinated biomass implementation 
strategy. Interior agencies were directed to implement the interagency 
MOU by April 2004. Under this direction, and using the authorities 
provided in the HFI, the National Fire Plan, stewardship contracting, 
and the HFRA, the BLM implemented its strategy for increasing biomass 
utilization from BLM-managed lands. Stewardship contracts alone 
produced nearly 30,000 tons of biomass in 2004, the first full year the 
BLM had this authority.
    A key provision in the MOU requires the BLM to encourage the 
sustainable development and stabilization of wood biomass utilization 
markets. Tamarisk and juniper removal is a priority and offers a real 
opportunity to develop new biomass projects. To that end, we are 
working closely with the Forest Service's Forest Products Lab in 
Madison, Wisconsin. The BLM also is working to increase its use of bio-
based products, such as in mulch used to stabilize soils following 
wildfire or in signs. In addition, the Department has several projects 
in which local field offices are working with nearby communities to 
increase biomass utilization. For example, in Oregon, the Bureau of 
Indian Affairs has funded a study for the Confederated Tribes of the 
Warm Springs to determine the feasibility of generating power from 
available biomass, partially from BLM and Forest Service lands. 
Finally, as noted earlier, the Department has issued an Interim Final 
Rule to allow the option for biomass removal in land management service 
contracts wherever ecologically appropriate and in accordance with the 
law (60 FR 52607-52609). This will provide easier access to Federal 
biomass supplies while we prepare the Final Rule.
Outlook
    The authorities for expedited agency decision-making provided by 
the HFI, stewardship contracting, and the HFRA, are helping the BLM to 
expedite important projects to treat hazardous fuels, restore fire-
adapted ecosystems, restore healthy conditions to public forests and 
rangelands, and reduce the threat of catastrophic wildland fire to at-
risk communities. While the BLM is using the HFRA to conduct fuels 
treatment projects, much work remains. The BLM's field offices will 
continue to learn from their experiences in implementing and seeking 
the most effective ways to use all of the important authorities 
provided by the Congress for Healthy Forests.
Conclusion
    The BLM and Forest Service are achieving significant improvements 
in the health of the public forests and rangelands. The agencies will 
continue to work in partnership with other Federal agencies, as well as 
State, local, and Tribal governments, to accomplish additional fuels 
reduction and restoration projects. We appreciate your support. I would 
be glad to answer any questions.
                                 ______
                                 
    Mr. Walden. Thank you. Thank you, Ms. Watson. We appreciate 
it, and I appreciate you highlighting 3 of the 20 counties in 
my district, work you are doing there.
    Mr. Rey, welcome. We are delighted to have you here and we 
welcome your testimony.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATIONAL RESOURCES 
      AND THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. And thank you for the 
opportunity to testify on the Administration's progress in 
implementing the Healthy Forest Restoration Act. I also want to 
thank you and the members of this Subcommittee for your role in 
the passage of the legislation and your continuing support for 
our implementation efforts.
    The President's Healthy Forest Initiative includes both the 
Healthy Forest Restoration Act and administrative reforms that 
have given Federal agencies new tools to reduce the risk of 
severe wildland fires and restore forest and rangeland health.
    The entirety of my statement for the record addresses the 
various components of the hazardous fuel reduction program. The 
Forest Service and the Department of the Interior agencies 
accomplished 4.2 million acres of hazardous fuel reduction 
during 2004, including 2.4 million acres in the wildland-urban 
interface, and exceeded our program goals.
    So far in 2005, about 919,000 acres have been treated. A 
more complete accounting of our accomplishments in 2004 can be 
found in the Healthy Forest Report located on the Internet at 
www.HealthyForests.gov.
    I agree with the discussion in the previous panel that the 
more important measure is not gross acres but right acres, and 
as you will see in my prepared statement, in 2005 97 percent of 
the acres treated are priority acres, either acres within the 
wildland-urban interface or acres at high risk outside the 
wildland-urban interface agreed to as priority during the 
collaborative process outlined in the National Fire Plan. So we 
are moving toward treating a significant supermajority of the 
right acres first.
    I also want to point out that in Fiscal Year 2006 the 
President's budget provides for more than 867 million proposed 
for a variety of activities that will enable the departments to 
continue our efforts to prevent the risk of catastrophic 
wildfires and restore forest and rangeland health. We expect 
these efforts to include utilizing the new legislative and 
administrative tools provided under the Healthy Forest 
Initiative.
    Another important and related action is the authority 
provided by Congress to expand the use of stewardship 
contracting by the Forest Service and the Bureau of Land 
Management under the Omnibus Appropriations Act for Fiscal Year 
2003. The Forest Service awarded 162 stewardship contracts and 
agreements between Fiscal Years 1999 and 2004. 114 of these 
have been awarded in the last two years alone.
    We anticipate the use of this tool is likely to increase 
with the release of four integrated resource contracts 
specifically designated for stewardship contracting and with 
the enactment of the Tribal Forest Protection Act, which also 
was enacted by this committee's leadership last year.
    As a result of two workshops held with the Intertribal 
Timber Council, we are now receiving proposals from a wide 
range of tribes to treat agency lands adjacent to tribal lands, 
using tribal resources and authorities for that purpose.
    The balance of my statement chronicles our progress in 
implementing each of the titles of the Healthy Forest 
Restoration Act. What I would like to do before we turn to 
questions and answers is use a few graphics to show you the 
progress made to date.
    In Chart 1, you can see the acres of hazardous fuels 
treated that have been treated from Fiscal Year 2000 through 
2005, to date. The pink is in non-WUI acres, the blue is in 
wildland-urban interface acres, and as you can see, over the 
last couple of years wildland-urban interface acres have 
increased as a proportion of the whole. Our progress to date in 
2005 is significant inasmuch as we haven't entered the primary 
operating season for 2005 yet to date.
    If you want to look at the next chart for 2004, what you 
can see is that in 2004 58 percent of the acres treated were 
wildland-urban interface acres, 42 percent were non-wildland-
urban interface acres, and that includes, as I said earlier, a 
number of high priority acres such as municipal watersheds 
which are typically not found in the wildland-urban interface. 
This is a breakdown of acres treated. If we were to break down 
dollars expended, it would be skewed even more heavily to the 
wildland-urban interface because the average per acre cost of 
treatment in the wildland-urban interface is generally higher.
    The next chart shows the breakdown between acres treated 
using hazardous fuels dollars and acres--that would be the 
blue--and acres treated using other appropriated accounts that 
result in treatments that reduce wildfire risk on other high 
priority lands. And as you can see, other program accounts are 
making a significant contribution to implementation of the 
Healthy Forest Initiative and the Healthy Forest Restoration 
Act with 28 percent of the total being funded through those 
accounts.
    The next chart shows you our progress to date from both the 
Forest Service and the Department of the Interior, breaking 
down that progress between wildland-urban interface acres and 
non-wildland-urban interface acres, and as you can see, we are 
still in excess of 50 percent in wildland-urban interface 
acres. Typically, early acres, that is, acres early in the 
operating season, tend toward non-wildland-urban interface 
acres because they tend heavily to spring burning acres in the 
Southeast, which are typically not within the wildland-urban 
interface to the same percentage and degree as mechanical acres 
are as we get later into the season.
    As far as the breakdown between prescribed fire and 
mechanical acres, the next chart will show you that for Fiscal 
Year 2005 to date. As you can see, this early in the season a 
supermajority of the acres treated are through prescribed 
burning. That will change as the season progresses and as we 
get later into the season and into the operating season, 
particularly in the west where we are going to be using a 
heavier percentage of mechanical acres.
    So with that, that is quite an overview of our progress to 
date from 2000, and for 2005 to date. I would be happy to 
respond to any of your questions.
    [The prepared statement of Mr. Rey follows:]

 Statement of Mark Rey, Under Secretary for Natural Resources and the 
              Environment, U.S. Department of Agriculture

INTRODUCTION
    Mr. Chairman. Thank you for the opportunity to testify on the 
Administration's progress in implementing the Healthy Forests 
Restoration Act of 2003 (HFRA). This important piece of legislation 
received bipartisan support in both houses of Congress and was signed 
into law by President Bush on December 3, 2003. I want to thank you and 
the members of this subcommittee for your role in the passage of the 
legislation and in your continuing support for our implementation 
efforts.

THE HEALTHY FORESTS INITIATIVE
    The President's Healthy Forests Initiative (HFI) includes both the 
HFRA and administrative reforms that give federal agencies tools to 
reduce the risk of severe wildland fires and restore forest and 
rangeland health. The Act recognizes that critical fuels treatment and 
forest and rangeland restoration projects have been unnecessarily 
delayed by administrative procedures. This delay puts rural communities 
and critical ecological resources at substantial risk from severe 
wildland fire.
    The HFRA complements administrative reforms that were put into 
place previously. These reforms help expedite hazardous fuel treatments 
and ecological restoration projects on federal land and have been 
successfully implemented.
    My statement will address the various components of the hazardous 
fuel reduction program. First I want to state that the Forest Service 
and the Department of the Interior (DOI) agencies accomplished 4.2 
million acres of hazardous fuel reduction for 2004, including 2.4 
million acres in the Wildland Urban Interface (WUI), and exceeded our 
program goals. So far, in FY 2005 about 919,000 acres have been 
treated. A more complete accounting of our accomplishments in 2004 can 
be found in the Healthy Forests Report located on the internet at 
www.HealthyForests.gov. I also want to point out that in the FY2006 
President's Budget more than $867 million have been proposed for a 
variety of activities that will enable the departments to continue our 
efforts to prevent the risk of catastrophic wildfires and restore 
forest and rangeland health.
    We expect these efforts to include utilizing the new legislative 
and administrative tools provided under the Healthy Forests Initiative. 
The new administrative tools include:
    <bullet>  Developed a new categorical exclusion under the National 
Environmental Policy Act (NEPA) to facilitate implementation of 
hazardous fuels treatment projects having minor environmental effects; 
we plan to use this exclusion on 950 treatments in FY 2005;
    <bullet>  Finalized Counterpart Regulations for Endangered Species 
Section 7 consultation on National Fire Plan projects issued by the 
Fish and Wildlife Service and National Marine Fisheries Service; this 
has streamlined Section 7 consultations on these projects. The Forest 
Service has entered into Alternative Consultation Agreements with the 
services. Those agreements called for development of a training and 
certification process which is now in place. Over 650 Forest Service 
employees have been certified under that process;
    <bullet>  Five pilot projects that applied new direction from the 
Council on Environmental Quality (CEQ) on conducting environmental 
assessments under NEPA were completed and the Forest Service is working 
with the Bureau of Land Management and CEQ to assess the results of the 
process; and
    <bullet>  The 2003 amendments to the Forest Service administrative 
appeals regulations expanded the categories where emergency 
determinations can be used in order to expedite project operations. (36 
C.F.R. 215.10) That authority has been employed in several cases to 
protect the government's interest in salvage timber projects, where the 
value of dead or dying timber, such as in the aftermath of a fire, 
diminishes over time. In three cases, the Department has prevailed, 
thus far, against efforts to halt operations. In two of those cases, 
the Ninth Circuit also declined to issue preliminary relief.
    Another important and related action is the authority provided by 
Congress to expand the use of stewardship contracting by the Forest 
Service (FS) and the Bureau of Land Management (BLM) under the Omnibus 
Appropriations Act for Fiscal Year 2003 (Section 323 of P.L. 108-7). 
The Forest Service awarded 162 stewardship contracts and agreements 
between Fiscal Years 1999 and 2004, 114 of these in the last two years 
alone. We anticipate the use of this tool is likely to increase with 
the release of four integrated resource contracts specifically designed 
for stewardship contracting, and with the enactment of the Tribal 
Forest Protection Act. As a result of two workshops held with the 
Intertribal Timber Council we are now receiving proposals to treat 
agency lands adjacent to tribal lands.

PROGRESS MADE ON IMPLEMENTING HFRA
    In the time since Congress passed HFRA, the Departments have taken 
a number of actions to implement each title of the Act including:
Title I -- Hazardous Fuels Reduction on Federal Lands
    HFRA provides for the collaborative development and expedited 
environmental analysis of authorized projects, a pre-decisional Forest 
Service administrative review process, and other measures on National 
Forest System and BLM lands that are at-risk of catastrophic fire. HFRA 
focuses attention on four types of federal land: the wildland-urban 
interfaces of at-risk communities, at-risk municipal water supplies, 
land where threatened and endangered species or their habitats are at-
risk of catastrophic fire and where fuels treatment can reduce those 
risks, and land where windthrow, or insect or disease epidemics 
threaten an ecosystem component or forest and rangeland resources.
    Restoring fire dependent ecosystems is the long-term solution to 
reducing the harmful effects of catastrophic wildfire. The 10 Year 
Implementation Plan continues to guide the agencies' priorities, and we 
are placing our resources where we have the greatest risk, the most 
capability, and highest efficiency. We know it is not possible to treat 
all the acres in need; our goal is to treat the right acres in the 
right place at the right time. Forest Service Chief, Dale Bosworth, and 
DOI Assistant Secretary Lynn Scarlett issued joint national direction 
to establish a collaborative process for prioritization and selection 
of fuels treatment projects. This direction is consistent with the 
performance measures established in the 10-Year Implementation Plan. 
Specifically, we monitor the number of acres treated that are in the 
WUI or outside the WUI in condition classes 2 or 3 in fire regimes 1, 2 
or 3, and are identified as high priority through collaboration 
consistent with the Implementation Plan. In FY 2005, 97% of Forest 
Service proposed treatments are in these high priority areas.
    Fire Management Plans have been completed for 99 percent of the 
National Forests and National Grasslands. These plans follow an 
interagency format, which provides an increased level of consistency 
among federal agencies, facilitating local collaboration and increased 
accomplishment on fuel treatment projects. Many of these new plans have 
enabled wildland fire use for the first time or have substantially 
increased the area where wildland fire use can be implemented. 
Increasing wildland fire use will result in increases in inexpensive 
fire use treatments in many areas.
    The LANDFIRE project is a multi-partner ecosystem and fuel 
assessment mapping project. It is designed to map and model vegetation, 
fire, and fuel characteristics for the United States. The objective is 
to provide consistent, nation-wide spatial data and predictive models 
needed by land and fire managers to evaluate, prioritize, plan, 
complete, and monitor fuel treatment and restoration projects. Two 
prototypes, in Montana and Utah, will be completed this spring. A rapid 
assessment of fire regime condition class at the mid scale is expected 
to be completed this year. We expect national delivery of LANDFIRE 
products to occur over the next 5 years with the western United States 
due in 2006. These data will help agencies focus where the risk is the 
greatest.
    The HFRA encourages the development of Community Wildfire 
Protection Plans to improve the strategic value of fuels treatments in 
and around the WUI. Our partners, the National Association of State 
Foresters, the Society of American Foresters, the National Association 
of Counties, and the Western Governor's Association have prepared 
guidance for at-risk communities on how they might prepare a Community 
Wildfire Protection Plan (CWPP). The state foresters are leading the 
efforts to organize communities to draft CWPP's and report over 600 
plans completed across the nation. For example, in Northeastern Oregon 
the Oregon Department of Forestry is providing staff to facilitate and 
document the development of CWPPs in partnership with the county 
commissioners. The Forest Service and other federal agencies provide 
technical support in fuels assessment, mapping and fire behavior 
modeling.

Title II -- Utilization of Woody Biomass
    Title II provides authority to help overcome barriers to the 
production and use of woody biomass material produced on fuels 
reduction and forest restoration projects. Title II contains three 
focus areas: it amends the Biomass Research and Development Act of 2000 
to provide for research on woody biomass production and treatment; it 
amends the authority for the Rural Revitalization Through Forestry 
program by providing for cooperation with the Forest Service Forest 
Products Laboratory, and State and Private Forestry programs to 
accelerate adoption of biomass technologies and market activities; and 
it authorizes federal grants to facilities using biomass for wood-based 
products to help offset the cost of the biomass.
    The Departments of Agriculture, the Interior, and Energy have 
signed a memorandum of understanding that lays the groundwork for the 
interagency biomass committee to implement biomass projects. The FY 
2004 grant solicitation process under the Biomass Research and 
Development Act was modified to incorporate Section 201. This action 
generated a significant increase in the number of woody biomass related 
proposals received. USDA awarded over $6 million in 2004 as part of a 
joint biomass research and development initiative with the Department 
of Energy.
    The Forest Service has new provisions in some timber sale, service, 
and stewardship contracts that allow contractors the option to remove 
woody biomass by-products from land management activities. This option, 
where ecologically appropriate, will provide economic and social 
benefits by creating jobs and conserving natural resources. Removal or 
use of woody biomass will reduce smoke and emissions from prescribed 
and natural fires, preserve landfill capacities, and reduce the threat 
of catastrophic wildfires to communities and utilities.
    The Forest Service, Forest Products Laboratory published a request 
for proposals in the Federal Register on February 10, 2005, looking for 
creative solutions to address the nationwide challenge in dealing with 
low-value material removed from hazardous fuel reduction efforts. Up to 
$4.4 million will be available in 2005 to help improve utilization of, 
and create markets for small-diameter material and low-valued trees 
removed from hazardous fuel reduction activities. These funds are 
targeted to help communities, entrepreneurs, and others turn residues 
from hazardous fuel reduction projects into marketable forest products 
and/or energy products. The President's FY 2006 Budget includes a $10 
million request for capital improvements in our Forest Products Lab, 
which has been a world leader in developing innovative products made 
from wood and other forest materials.

Title III -- Watershed Forestry Assistance
    Title III authorizes the Forest Service to provide technical, 
financial and related assistance to private forest landowners aimed at 
expanding their forest stewardship capacities and to address watershed 
issues on non-Federal forested land and potentially forested land. 
Title III also directs the Secretary to provide technical, financial 
and related assistance to Indian tribes to expand tribal stewardship 
capabilities to address watershed issues.
    The Forest Service, working with State forestry agency personnel 
and Tribal members, has developed separate draft guidelines to 
implement the State and Tribal Watershed Forestry Assistance programs. 
These draft guidelines will be published in the Federal Register for 
public comment this summer.

Title IV -- Insect Infestations and Related Diseases
    Title IV directs the Forest Service and U.S. Geological Survey to 
establish an accelerated program to plan, conduct, and promote 
systematic information gathering on insect pests, and the diseases 
associated with them. This information will assist land managers in the 
development of treatments and strategies to improve forest health; to 
disseminate the results of such information and to carry out the 
program in cooperation with scientists from colleges and universities 
including forestry schools, governmental agencies and private and 
industrial landowners.
    The Secretaries of Agriculture and the Interior announced during 
the Forest Health Conference in Little Rock, Arkansas last summer the 
formation of a series of partnerships to help implement the HFRA in the 
southern United States. Among these are Forest Service partnerships 
with southern universities and state forestry agencies to conduct two 
landscape scale applied research projects on the Ozark-St. Francis 
National Forest to address infestations of the southern pine beetle and 
red oak borer, which threaten forest health in the region. The study 
plans for these two projects have now been developed and peer reviewed 
and the public involvement phase will be completed in March. Another 
applied silvicultural assessment study plan for reducing mortality from 
gypsy moth and oak decline on the Daniel Boone National Forest is 
nearing completion. The Forest Service also has two projects on Hemlock 
Woolly Adelgid in North Carolina and on the genetic diversity of 
Western White Pine.

Title V -- The Healthy Forest Reserve Program
    Title V directs USDA to establish a program for private landowners 
to promote the recovery of threatened and endangered species, improve 
biodiversity and enhance carbon sequestration. Title V authorizes the 
Secretary of Agriculture to acquire 30-year or 99-year easements (not 
to exceed 99 years), or utilize 10-year cost-share agreements on 
qualifying lands. The Secretary may enroll up to two million acres 
depending on appropriations. Title V also contains provisions allowing 
the Secretary to make safe harbor or similar assurances to landowners 
who enroll land in the program and whose conservation activities result 
in a net conservation benefit for listed, candidate, or other species.
    The USDA Natural Resources Conservation Service (NRCS) has been 
designated to administer the Healthy Forest Reserve Program in 
coordination with the Forest Service, Fish and Wildlife Service, and 
the National Marine Fisheries Service, and is in the process of 
drafting rules to implement the title.

Title VI -- Forest Inventory/Monitoring and Early Warning Systems
    Title VI directs the Secretary of Agriculture to carry out a 
program to monitor forest stands on some National Forest System lands 
and private lands to improve detection of and response to environmental 
threats.
    The Forest Service announced in October, 2004 a national strategy 
to prevent and control the threat of invasive species and non-native 
plants in the United States. The strategy focuses on four key elements: 
preventing invasive species from entering the country; finding new 
infestations before they spread; containing and reducing existing 
infestations and restoring native habitats and ecosystems. The strategy 
will rely on ``The Early Warning System for Forest Health Threats in 
the United States,'' developed as part of HFRA, which describes for the 
first time, in one place, the nation's system for identifying and 
responding to forest health threats, including web sites to obtain 
further information.
    The Forest Service also conducted a rapid detection pilot survey of 
invasive bark beetles in 10 port cities in FY 2004 and has increased 
the number of surveyed sites to 40 in FY 2005. Based upon early 
detection results from FY 2004, we are initiating a rapid response to 
an orthotomicus beetle found in California which will include more 
extensive trapping and delimiting of this potentially destructive 
nonnative pest.
    Additionally, the Forest Service is establishing two threat 
assessment centers in Prineville, OR and Ashville, NC to develop use 
oriented technology and cutting edge research on invasive species. 
These centers will develop predictive models that integrate all of the 
threats to forest health such as insects, pathogens, fire, air 
pollution and weather. Results will help prioritize where treatments 
should occur and the ecological, environmental and social costs of not 
doing necessary treatments.

OUTLOOK FOR FUTURE IMPLEMENTATION OF HFRA
    We expect to continue to make headway into treating hazardous fuels 
to restore fire adapted ecosystems and to help make communities safer. 
Although we recognize that HFI and HFRA authorities are helping to 
restore healthy forest and rangeland ecosystems we have much work ahead 
of us. We need to solve the problem that much of the woody material 
removed in fuels treatment projects is below merchantable size and is 
very expensive to treat. We need to improve the public's understanding 
that it is appropriate to do mechanical treatment that removes 
merchantable trees. What is important is that we are leaving a 
healthier, more resilient forest on the landscape.
    We need continued bipartisan congressional support of these 
hazardous fuels reduction efforts, and need to expand our capacity to 
treat more with less, using biomass utilization, stewardship 
contracting, and other activities. Homeowners need to continue to take 
responsibility for treating hazardous fuels on their own lands by 
taking action through the FIREWISE program, which helps people who live 
or vacation in fire-prone areas educate themselves about wildland fire 
protection. Homeowners can learn how to protect their homes with a 
survivable space and how to landscape their yard with fire resistant 
materials.

CONCLUSION
    Mr. Chairman, the new authorities are proving to be very helpful in 
our efforts to make significant improvements to the health of this 
country's forests and rangelands. We will continue to work with our 
other Federal, State, Tribal and local partners to accomplish this. We 
appreciate your support. I would be happy to answer any questions the 
committee members may have.
[GRAPHIC] [TIFF OMITTED] T8808.001


[GRAPHIC] [TIFF OMITTED] T8808.002

[GRAPHIC] [TIFF OMITTED] T8808.003


[GRAPHIC] [TIFF OMITTED] T8808.004

     
     
     
    [GRAPHIC] [TIFF OMITTED] T8808.005
    
    [GRAPHIC] [TIFF OMITTED] T8808.006
    
    Mr. Walden. Thank you, Mr. Rey. One of the questions that 
came up in our hearing--it seems like a week ago, but I think 
it was yesterday--on biofuels, was the notion that the 
stewardship contracts at 10 years simply are not long enough 
for those who would like to participate or join in the process 
to be able to purchase the equipment and know they will have a 
steady supply and a guarantee to enter into creation of new 
biomass facilities.
    Have you looked at the option of maybe having us extend 
those contracts out, say, to 20 years or something, to really 
gin up this market and to create certainty for private sector 
investment? Is that something that you are hearing, or a 
concern that is being raised?
    Mr. Rey. I have not heard that concern, but it is a logical 
concern to be raised depending on the size of the capital 
investment that is being considered in order to use low value 
material. The larger the capital investment required, the 
longer the amortization schedule that the investor would like. 
The longer contract provides them to engage a lender in 
negotiating a longer amortization schedule for whatever loans 
and investments thereafter get to be made. So it is logical 
that a longer contract term would be beneficial in that regard.
    On the other hand, both the General Services Administration 
and the Office of Management Budget are very wary of the 
Government signing on to long-term contracts in that that 
increases the uncertainty associated with what the Government 
is committing as well as any downstream liability if 
circumstances on the ground change, so that is a balance that 
has to be struck.
    We have had some 10-year contracts issue in the past year, 
and those have resulted in some new investments and new 
infrastructure that have occurred, and so we have had some 
investors who have been willing to do that.
    Mr. Walden. Would it work to give you the authority to go 
up to 20 years but not mandate that they be 20, to give 
flexibility then in certain circumstances?
    Mr. Rey. Sure. It would give us more flexibility. We would 
have to put a lot more reopeners for a lot more contingencies 
in a contract of that length, and you could only tell for 
certain whether that is helpful once we actually completed a 
contract negotiation with an individual contractor.
    Mr. Walden. Let me move on. I have a couple other questions 
in the time that remains. One of them, as you know, Mr. Rey, I 
have talked to you personally about and have a real commitment 
to managing the HFRA acreage at the--I want to know forest by 
forest how HFRA is being utilized, if it is. Do you have the 
ability to hold your local line officers accountable for using 
the new authorities in HFRA at that level and then being able 
to report back to the committee? Because I also want to know is 
it working or not, or are they stumbling into problems that we 
need to address, or are they not using it, or are they using it 
fully?
    Mr. Rey. I think the short answer is they are using it 
generally very well. We do have the ability and are holding 
them accountable to it, and we do have the ability to report on 
their progress on a forest by forest basis, and I have a 
printout that I will submit for the committee's record for the 
hearing today on progress to date on each national forest.
    Mr. Walden. Thank you.
    Mr. Rey. What you will find when you look at the printout 
is about what you would expect, that is, the majority of 
forests are using the new authorities, both HFRA and HFI 
authorities. There are a few forests that haven't gotten to it 
yet. Those are forests that by and large have circumstances 
that don't necessarily make this as high a priority, or 
specific tools as useful in their circumstances, and as you 
would guess, those are mostly forests in the Northeast.
    Mr. Walden. I have two more questions in a minute 20, so I 
will try and keep them brief. Under HFRA Title I projects, do 
you have any idea how many of those are being litigated and how 
that compares to fuels reduction projects that are non-HFRA?
    Mr. Rey. We haven't been implementing HFRA projects long 
enough to get a good sample set to know whether they are going 
to be litigated any more or less frequently than other 
projects, and that is because we did the first generation of 
HFRA projects last summer. They are moving to completion now. 
The appeals process is completed. Now litigation is going to 
start. A few of them have been litigated to be sure, but I 
don't think we have enough data to make a comparison between 
those and--
    Mr. Walden. But you are finding less litigation under HFRA 
or more?
    Mr. Rey. Still too early to say. I would say about the 
same. I would say that generally speaking, the rate of 
challenges of fuels projects has been increasing to some 
extent, but our success rate in defending them has been 
increasing as well.
    Mr. Walden. One final question because I know it is one 
many of us on this Subcommittee were involved in last year, and 
that is the issue of firefighting and especially the issue of 
the air tankers. I have recently seen in the press some Western 
Governors have expressed their interest as well. Can you just 
give us a brief update maybe, each on you, on the air tanker 
and firefighting process we see unfolding for this summer?
    Mr. Rey. I think the first thing to note is that last year, 
with a limited number of large air tankers for a portion of the 
year, our success rate at extinguishing fires at initial attack 
was superior to 2003. In 2003 we succeeded in extinguishing 
98.3 percent of all ignitions on initial attack. Last year we 
succeeded in extinguishing 99 percent of all ignitions on 
initial attack. That success in extinguishing 70 additional 
fires--that is what it amounts to, 70 additional fires that did 
not escape--saved us on the average $22 million in fire 
suppression costs.
    So our projections about the success of a modified fleet 
with a heavier reliance on helicopters and single-engine 
tankers appears to have been well founded.
    Now, that having been said, there is, as we have said in 
hearings before, still a role for the large fixed-wing air 
tankers, and we have RFPs out already to begin to contract with 
them for this year. In response to the initial RFP we will be 
putting I the air we believe nine P-3 Orions. That is the one 
model that we have established operational life limits for. We 
have ongoing studies to try to establish--I think we will 
succeed in establishing operational life limits for the P-2Vs 
and the DC4s, 6s and 7s. That work will be completed on or 
about June 1st. Once it is completed, we will review each of 
those other aircraft and return those aircraft that are within 
their operational life limit to the fleet and stand down other 
aviation assets like helicopters that are more expensive to 
operate.
    One of the other things we found this year is that as a 
consequence of the conflict over the aging fixed-wing air 
tanker fleet, our helicopter contractors are beginning to 
adjust their equipment and technologies to improve the 
efficiencies or large heli-tankers and type 1 helicopters such 
that through new technological developments they have increased 
their range and effectiveness.
    So we are pretty confident, actually I should say we are 
very confident that however the review of the remaining fixed-
wing air tankers turns out, we will field an adequate aerial 
operation to continue the rate of success that we have enjoyed 
so far.
    Mr. Walden. Ms. Watson, do you have any comment on that?
    Ms. Watson. No, I don't really have anything to add because 
we work very closely with the Forest Service on air tankers.
    Mr. Walden. All right. Thank you very much.
    I now turn to my colleague, Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Under Secretary Rey, we all appreciate the tight budgets we 
face, and while the Forest Service is devoting more funding to 
hazardous fuels reduction, it falls far short of what was 
authorized in the Healthy Forest bill and what has been 
identified as short-term needs by the agencies. When this issue 
has been raised, your response has typically been that the 
streamlining of environmental review and new stewardship 
contracting authority would reduce the cost of thinning 
projects, allowing the agency to cover more acres with less 
money.
    With these stewardship contracts, in particular goods-for-
service contracts, will employers be obligated to pay the 
prevailing wage as required under Davis-Bacon and the Service 
Contract Act?
    Mr. Rey. Where there is a prevailing wage for these kinds 
of activities under Davis-Bacon, the Federal Service Contract 
Act will require that the contractors pay those. There are some 
instances where the activities that are being contracted for do 
not have a prevailing wage under Davis-Bacon, and so the 
Service Contract Act would not apply.
    I would also, however--
    Mr. Tom Udall. Where would those areas be?
    Mr. Rey. Those will be--it won't be geographic so much as 
functional. There are some land management functions which do 
not have a Davis-Bacon prevailing wage established for them, 
some of the general contracting functions. But for others, 
including the ones that are most common, there is a Davis-Bacon 
prevailing wage, and that would be required in these contracts.
    I do, however, want to take slight issue with the 
proposition that we have failed to fully fund the Healthy 
Forest Restoration Act. The authorization in Title I of the Act 
calls for $760 million in authorization to carry out, one, 
activities authorized under the Title, and two, other hazardous 
fuel reduction activities of the Secretary, including making 
grants to States, local governments, Indian tribes and other 
eligible recipients for activities authorized by law.
    As we put together the Fiscal Year 2005 budget, as we often 
do when Congress enacts new legislation, we put together a 
cross-cut of what the Department of Interior and what the 
Forest Service were spending for all of the activities 
described in this authorization. And in 2005 we requested a 
total of $761 million or thereabouts. This year we are 
requesting--an appropriation, I am sorry--of 867 million. So 
whether this is enough or not enough, or too much or too 
little, or in the right places or the wrong places, is a 
discussion we can and will have probably at this hearing and 
during your budget oversight hearing, but we have provided a 
responsible response to the authorization level of the Healthy 
Forest Restoration Act is something I think that we have done.
    Mr. Tom Udall. You talked a little bit about tribes in your 
testimony. A study by the Center for Watershed and Company 
Health by the University of Oregon, I believe, found that the 
Native American tribes needed increased access to training, to 
funding, resources and technical assistance for fire protection 
and fuels reduction. What is the Forest Service doing to 
improve getting these resources to Native American tribes?
    Mr. Rey. We are working with the tribes now through the 
authorization provided in the Tribal Forest Protection Act that 
the committee passed last summer to begin to work with tribes 
to design fuels reduction projects in areas of joint tribal and 
Federal ownership. Part and parcel of that is going to be to 
work with the tribes to design the project to retain tribal 
members and contractors to do the work and to train them to do 
the work as we go forward.
    Ms. Watson. I would add that we also had a series of 
training meetings throughout Indian country in about three or 
four different places, in Spokane, in New Mexico, and then 
there was a recent one in California, to train tribes in 
biomass utilization. This is a strong interest of theirs that 
combines the interest in taking care of their timberlands at 
the same time as providing a source of renewable energy. So 
that is another training effort that Interior, Agriculture 
Department and BIA have worked on together.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Mr. Peterson. [Presiding] The gentleman from Arizona is 
recognized.
    Mr. Hayworth. Thank you, Mr. Chairman.
    Ms. Watson, Mr. Rey, thanks for coming.
    I am glad to see my friend from Pennsylvania in the chair. 
I was going to address my remarks to the gentleman from Oregon.
    And Ms. Watson, I thought it was rather ingenious to bring 
those projects that happened to be in Oregon. I, as you might 
suspect, have a little more interest in Arizona, and I wonder 
if you could elucidate more on the status of work there.
    Ms. Watson. I don't have any specific examples on Arizona.
    Mr. Hayworth. Oh, gee, well--
    Ms. Watson. I am sorry.
    Mr. Hayworth. That is OK. Actually, Mr. Chairman, I have a 
good report from today's Arizona Republic, and I have it right 
here. A new wildfire plan calls for thinning and burning higher 
density stands of ponderosa pine and smaller vegetation spread 
across thousands of acres of the Kaibab National Forest. The 
plan is primarily a blueprint for what could happen if the 
State or Federal Government were to award funds under the 
Federal Healthy Forest Restoration Act. The plan's drafters, 
which include the City of William, several fire districts and 
the State Land Department. The proposal reaches across almost 
250,000 acres of primarily public land.
    So there is a little good news I can add from the home 
State paper if you will, and of course look forward in writing, 
we will get some more projects there.
    But I wanted to thank you. I know Mr. Rey always keeps up 
with the projects around.
    Ms. Watson. They manage a little bit more land in your 
State than my agency does.
    Mr. Hayworth. A little bit more land, yes. Indeed.
    Mr. Rey. What you will see in the spreadsheet that I am 
giving you for each national forest is that all of the national 
forests in Arizona have a number of projects under way. 
Probably the most significant, in addition to the one that you 
mentioned on the Coconino is the large-scale landscape-scale 
stewardship contract that was signed on the Apache-Sitgreaves 
National Forest last October to treat about 150,000 acres over 
a 10-year period. That is one of the contracts with a long time 
span that is resulting in some increased infrastructure 
investment to utilize the low value material that is being 
produced to treat those acres, which are for the most part 
acres that have been identified and selected through community 
based fire protection plans within the wildland-urban interface 
for the towns of Show Low and the nearby communities.
    Mr. Hayworth. Speaking of Show Low, and in the wake of the 
Rodeo-Chediski fire, now several years ago, and as Co-Chair of 
the Native American Caucus, I was pleased to hear about the 
efforts made with the various tribes, because what we learned 
in Rodeo-Chediski as the fire approached Show Low, really the 
treatment done by the White Mountain Apaches knocked down that 
fire. The treatment there on their tribal lands, in stark 
contrast to where we had seen by injunction and other edicts a 
failure to see the same type of treatment carried out on non-
reservation lands, the contrast could not have been greater. So 
I am hearted to hear, and as you offered in your testimony, the 
involvement of the tribes and coordination from your respective 
agencies with the tribes.
    A couple of things that transpired here, and perhaps it is 
more philosophy of government, my friend from New Mexico asked 
about Davis-Bacon and prevailing wages. When we are trying to 
summon and make dollars go further and stretch things, are 
Davis-Bacon requirements, such as they exist, an impediment or 
is there a way to estimate the cost involved vis-a-vis what 
work is really done? In other words, however noble the intent 
of Davis-Bacon legislation may be, does it eat up resources 
that could otherwise be used in--
    Mr. Rey. I don't think we have seen it to be an impediment 
so far. In those categories where the Department of Labor has 
developed prevailing wages under Davis-Bacon, particularly 
general construction categories, you are competing in a broad 
wage pool for workers. You are not going to get very far, I 
don't think, trying to shave off the rate that you would pay 
because you are just going to be competing against other sector 
contractors for that.
    Now, much of the land improvement work that goes into these 
stewardship contracts involves things that the Department of 
Labor hasn't established a prevailing wage for, so Davis-Bacon 
doesn't apply. But where there is a prevailing wage, I don't 
think it has been a great impediment to us.
    Mr. Hayworth. Good. Thank you for the insight there, and 
again, I appreciate very much your testimony.
    Mr. Chairman, I yield back.
    Mr. Peterson. Thank you.
    Mr. DeFazio from Oregon?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Rey, I am just curious in looking at the data provided, 
the Healthy Forests Report, December 6. The total utilization 
was--you said you were going to give us the forest by forest 
breakdown on the utilization of HFRA. I appreciate that and I 
will look forward to that, but I am curious. There were 107 
projects where it was used for EA and EIS authority. How many 
projects total were conducted last year? That is probably 
about, is that 10 percent or less of the projects?
    Mr. Rey. That is about 10 percent.
    Mr. DeFazio. OK, because I was looking at the acreage. That 
is about 10 percent of the acreage.
    Mr. Rey. That is about right, and you will see as we go on 
an increasing percentage consumed by HFRA and HFI authorities.
    Mr. DeFazio. But obviously then, 90 percent of the projects 
which didn't utilize the EA and EIS exemptions were still able 
to go forward?
    Mr. Rey. Eventually. Those projects--
    Mr. DeFazio. Will you be able to show us, say, date first 
proposed? I mean will you be able to give us some sort of a 
chart on that that will show?
    Mr. Rey. Yes. As we get a larger data base of HFRA and HFI 
projects, one of the things we will want to show you is whether 
the HFRA and HFI authorities have shortened timeframes to bring 
a project to completion. I think by this time next year we will 
have a data base large enough to be meaningful. Right now it is 
so small I think it may be unrevealing insofar as the number of 
projects are concerned.
    Remember, most of the projects that were carried out in 
2004 were projects that were designed in 2003 or 2002 or 2001, 
well before HFI and HFRA were even in existence.
    Mr. DeFazio. Right. You heard the previous panel and the 
discussion that they felt with proper planning prioritization 
we could productively spend larger sums, up to 1.4 billion a 
year for a number of years to try and get ahead of the problem, 
and they said the kind of expenditure levels they think maybe 
we are keeping even or falling behind in terms of fuel 
accumulation. I know you have your OMB masters probably 
listening, but can you comment on that?
    Mr. Rey. Yes. I think whether my OMB masters are listening 
or not is probably not that important because there is a merit 
to this. The merit is that we have to do three things in order 
to be successful in attacking this problem.
    First is we have to establish clear priorities of what the 
right treatment, the right time and the right place is and 
agree on that. And second, we have to be able to reduce our 
unit costs for doing these treatments. And then third, we have 
to continue to increase our investment in this area.
    The first of those, as the GAO also indicated, is something 
we are now completing, and as a result of the confusion between 
what they were suggesting and what they meant, which they 
clarified, I think we will be easily in a position within the 
next couple weeks to give you a timeframe for when we are going 
to complete the cohesive strategy and the underlying LANDFIRE 
and forest planning analysis components that have to go into 
that cohesive strategy.
    I think what you will see in that timeline is that we agree 
with GAO that that is important to submit as part of the budget 
request and something that we can submit as part of the 2007 
budget request. Once we have that completed, then we will know 
that we are treating the right acres in the right place in the 
right time.
    Second, with another year's experience, we are going to 
know what our unit costs are looking like. One area in 
particular that we have to continue to look at is why are 
mechanical treatments in the wildland-urban interface still so 
expensive? If everyone agrees that the wildland-urban interface 
should be treated, then arguably we ought to be able to look at 
our planning and analysis costs and begin to step back from 
some of those in the interest of getting more of that treated.
    Mr. DeFazio. If I could, we are about to run out of time. 
You pointed out though that the early attack, suppression 
activities had tremendous cost/benefit ratio or savings this 
year. I am very supportive of early attack efforts. Are you 
going to develop any measures similar in terms of potential 
avoided costs in determining where to prioritize the money, 
wildland-urban interface versus more distant resource 
protection?
    Mr. Rey. We can develop avoided costs from the standpoint 
of our firefighting costs, and that is what I gave you with 
that $22 million savings. The avoided costs we can't give you 
because it would purely speculative, are damages associated 
with fires and escape.
    Mr. DeFazio. One other, and I realize my time has expired, 
but in terms of the fleet, there are two follow-ups I would 
like to hear and we don't necessarily have time now, but if you 
could follow up. I know last year we were looking at the 
potential for an expanded fixed-wing fleet with some potential 
retirement of P-3s where we did have military--they had been 
with one entity and we did have service records. I would like 
to understand where we are in that.
    The other thing is I met some people from Evergreen in 
Oregon last weekend, and they are completing certification 
testing of a 747 tanker, which obviously would--you are not 
going to be flying it up narrow canyons, but it could have some 
applicability in certain areas, and I would also be curious 
what discussions are ongoing there, whether they will be 
eligible to contract or not with you. So perhaps you could 
follow up, have your staff or something follow up at my office 
afterwards.
    Mr. Rey. Sure.
    Mr. DeFazio. And then finally, Mr. Chairman, if I could, I 
have yet not figured how to be in more than one place at a 
time, despite my tenure in Congress. I want to apologize in 
advance to the next panel, and particularly to Ms. Tucker from 
my home town of Springfield, because I do have to go to another 
meeting, and I will miss her testimony, but she met with my 
staff and I will be kept apprised of what other issues she 
raises.
    Thank you.
    Mr. Walden. [Presiding.] Thank you. Thanks for those 
questions. I would be interested, too, as well. I think all of 
the committee members were on the questions Mr. DeFazio raised.
    Just a heads up. We do have a third panel, and we are 
expecting votes any time, and I am led to believe there may be 
as many as four--four or five.
    Mr. Peterson?
    Mr. Peterson. Thank you. I would like to welcome both of 
you and thank you for your participation today. I especially 
want to thank Mark for your trip to the ANF recently. It was 
appreciated. Communities were happy to see someone from your 
level come and view the Allegheny National Forest and its 
particular needs.
    I know you have tried to realize the Healthy Forest 
Initiative to assist. In 2003, the last two years, I mean, the 
problems in the East are much different than the problems in 
the West. It is a hardwood forest--basically, cherry, oak and 
maple are the major species--predominantly cherry on ANF, very 
high concentration, and we've had now two of the wettest 
seasons maybe on record. And our water table is as high as I've 
ever seen it. I mean, our rivers are running bank full most of 
the time, streams bank full, and we just keep getting rain. In 
fact, last week we lost most of our snowpack, and so there is 
water everywhere.
    But the vulnerability of a hardwood forest is--especially 
the cherry--is these trees are approaching 90 to 100 years in 
age. They don't live to be 1,000 years old. They don't live to 
be 500 years old. This is a tree that matures maybe 90 to 100 
years and then starts to deteriorate. And what we are finding 
with the very shallow root structure of a cherry tree, when it 
is as wet as it is, they are very vulnerable at just tipping 
over. And then, right now, if we would get heavy wins, we would 
have a lot more of the Allegheny National Forest on the ground. 
We have a lot of it on the ground from 2003, and I guess our 
frustration has been is what we need to do to somehow, in the 
future, be able to harvest that that ends up on the ground 
because I know of one cherry tree on private land that blew 
down that netted $29,000. Cherries bring in about $3 a board 
foot, and this was a tree that had four veneer, high-quality 
veneer logs in it, which is very unusual, it is an exception, 
but it is not uncommon to have logs worth many thousands of 
dollars. So it is a high-value forest. It is our resources 
lying on the ground being consumed by the insects rather than--
    Do we need a special initiative for Eastern hardwood 
forests that are a whole different species?
    Mr. Rey. Well, what we attempted to do in spring of 2004, 
in response to the 2003 blow-down, was to look at whether we 
could use some of the categorical exclusions that were 
developed in the spring of 2003, under the Healthy Forests 
Initiative, to do some of the treatments on the Allegheny.
    We did work with the Fish and Wildlife Service to vet and 
resolve some Endangered Species Act concerns involving the 
Indiana bat and I think succeeded in modifying the treatments 
that we were going to do to resolve their concerns and 
thereafter use the categorical exclusions. Unfortunately, the 
use of those categorical exclusions and the projects that were 
scheduled to be carried out under them are now in litigation, 
and we will have to do our best to justify our approach and to 
prevail in the litigation.
    Unfortunately, this is one of those cases where the 
likelihood is, by the time the litigation is complete, our 
victory will be pyrrhic because, as you indicate, the value of 
particularly veneer-quality cherry deteriorates once the 
material is on the ground and particularly once the insects 
begin to work it over. So I doubt, by the time that we move 
these trees, if the courts agree with us in the utilization of 
this authority, that we will be getting $5 a board foot for the 
quality of material that we are going to extract, and that is 
unfortunate because that is a waste of a valuable resource that 
would have been a substitute in the general market for tropical 
hardwoods because that is what cherry basically is. It is a 
high-quality veneer that is used in the same application as 
mahogany, teak and all of the other things that are being 
pulled out of the Amazon Basin or any other part of the world 
in the tropics where forest management is not practiced with 
the kind of sensitivity that we do it, but that is the way it 
is.
    If we win this lawsuit, then we will sustain our position, 
and perhaps if you have another blow-down this winter, which is 
probably likely, given the amount of rain that you have had, it 
will not take winds much in excess of about 25 miles an hour to 
start knocking down trees. Perhaps we will be able to do a 
better job on this year's blow-down, but that is the sense of 
it.
    Beyond that, given the authorities that we have, that 
looked to be the best mix available, but you have correctly 
identified a fairly generic problem on that forest, which is 
that the age class of the forest is reaching the age at which 
cherry begins to deteriorate. It is a predominantly cherry 
forest. It will not be 20 or 30 years from now a predominantly 
cherry forest. Left to its own devices, it will change over to 
maple or, on the drier sites, oak because that would be the 
natural progression of things.
    Mr. Peterson. We have had trouble regenerating oak. Oak is 
not generated as well. That has been one of our problems. The 
original forest was beach and hemlock. Unfortunately, we are 
losing our beach as we speak. With the beach bark disease, we 
are just basically losing our beach. So I do not know what it 
will end up being, a lot of it very, species not very 
desirable. It has been very frustrating to the communities 
that--and I guess the value of it as a Federal Government that 
could be receiving funds to further fund the treatment in the 
West. I mean, it is a very valuable resource and to just not be 
able to take those dollars and put them in the Treasury doesn't 
make a lot of sense. Nobody really wins, in my view, but we 
appreciate your personal attention to it and look forward to 
working with you.
    Mr. Rey. With all due respect to your Western colleagues, 
the Allegheny National Forest has the most valuable trees in 
the system because of the value of high-quality, of veneer-
quality cherry, and it becomes something that we can use on a 
sustainable basis to replace teak or mahogany.
    Mr. Peterson. That is right. Thank you.
    Mr. Walden. Clearly, he has forgotten we, also, have 
oversight over his budget. A 25-mile-an-hour wind, where I am 
from, is hardly noticed. It is a breeze in the Columbia Gorge.
    Mr. Udall, you are our final questioner.
    Mr. Mark Udall. Thank you, Mr. Chairman. I apologize for 
being late. I know this is some important testimony, and I want 
to welcome both of you here today. Mr. Rey, I do have to note 
that Mr. Walden and I are much more comfortable up here asking 
you the questions, unlike the situation in which we found 
ourselves three weeks ago, where you were asking us the 
questions.
    More seriously, that was a very well-attended, as you know, 
and I think important event, commemorating 100 years of the 
Forest Service.
    Mr. Rey. Thank you both for participating.
    Mr. Mark Udall. I am not sure everybody in my family 
appreciated seeing us on C-SPAN over and over again, but our 
timing was right.
    I am going to be brief because I know the next panel has 
some important information to share with us, so I had one 
question I wanted to direct to both of you.
    We are going to hear in the next panel from Dr. Gregory, 
Lisa Gregory, who is a Coloradan, and who works on these issues 
for the Wilderness Society. And she says that a budget line 
item for collaboration would help in implementing that part of 
the new law. What, Ms. Watson and Mr. Rey, do you think of that 
proposal?
    Ms. Watson. Well, I just got back from a day-and-a-half in 
New Mexico meeting with NGO's, including a colleague of the 
next witness from the Wilderness Society, and others speaking 
about collaboration and what we can do better, and we left that 
meeting considerably more optimistic on how we can improve our 
collaborative process in the National Fire Plan.
    Some specific items we agreed to were taking a look at our 
performance measures, to improve those, to enhance 
collaboration, looking at the WFLC meetings that we have--the 
Wildland Fire Leadership Council--to open those up, make those 
more transparent. And I think that there are some things that 
we can do.
    In my remarks, I likened collaboration to it is another 
form of communication, and we know in our own marriages and in 
our work relationships that communication is always a problem, 
and it is something that needs constant nurturing and a 
constant attention. And I think here we have built a good 
process the GAO identified in its report that we have really 
improved the collaborative relationship, but we need to do 
better. And we left that meeting committed to doing better. I 
had a number of folks come up to me afterwards from the NGO 
community feeling that they had been heard and that things 
would improve. So that would be my response.
    Mr. Mark Udall. Your sense, then, it would be helpful to at 
least consider a line item that focuses on collaboration so 
that we--
    Ms. Watson. I think more it is a focus of folk's attention, 
I think, performance measures. I don't know that a line item 
would be the appropriate way to do it. I think performance 
measures, where individual Federal employees' performance is 
measured on their attention to collaboration might be a better 
motivator, honestly. I think that is a better way to do it. And 
at the SES level, at the DOI, our top managers are managed and 
rewarded on their collaboration of their attention to ``Four 
C's,'' and I think that motivates individual folks. And if we 
could bring that down to field-level staff, in the context of 
the National Fire Plan, I think that would work.
    Mr. Rey. What we could do for the Subcommittee is just ask 
our program people to parse out what they think we are spending 
on collaborative activities and submit that to you for the 
record so you get a sense of what the investment has been.
    But the Forest Service as well, we do establish a priority 
on collaboration in the selection of projects. That is one of 
the guides that we use to select priority projects, is there a 
collaborative mechanism that the project came forward from. It 
is also something that we put into performance reviews for 
senior managers, and it is something that we provide a reward 
structure for when it is done successfully.
    Mr. Walden. Well, a follow-on to Mr. Rey and Ms. Watson 
would be to make the suggestion that you have a single point of 
contact in each agency to look at collaborative opportunities, 
and it sounds, in part, you are already doing that, but maybe 
that is another idea to put in the mix.
    I know when I travel in the mountainous regions in my 
district, which are not insignificant, representing Clear 
Creek, and Grand, and Eagle and Summit, as well as Gilpin 
Counties--half the ski areas, for example, in Colorado are in 
my district--in those subdivisions that are now tucked away in 
a lot of these mountain areas, there is immense interest in 
those groups moving ahead with the kind of support that might 
be available to them. And anything we can do to continue and 
encourage that, I would urge you to take a look at. I know it 
is a part of collaborations, and what we are talking about is 
working with groups that have the expertise like the Wilderness 
Society, but this is another form of collaboration as well.
    Thank you, and I look forward to working with you on this 
important issue as it unfolds.
    Mr. Walden. Thank you. I want to thank our panel for not 
only your work within the agencies, I know it is difficult, but 
you are making great progress, but also for your work with this 
committee, and we look forward to continuing this conversation 
on this and other issues affecting the health of our forests 
and range lands. We have a lot of work to do, we are doing a 
lot of work, but there is obviously more. So thank you very 
much.
    We will now move on to our third panel and hopefully at 
least get the testimony from our panelists before they call us 
for votes. Our third panel, we have James Cummins, Executive 
Director of the Mississippi Fish and Wildlife Foundation; Lena 
Tucker, Society of American Foresters from the great State of 
Oregon; and Lisa Dale Gregory from The Wilderness Society.
    Let us go ahead and at least start on testimony. If you can 
go ahead and take your seats, we will start with Mr. Cummins.
    Welcome. That bell you heard, that terrible buzzing sound, 
means we are going to have to go for votes. Perhaps we can get 
through at least your testimony, if not, perhaps, one other.
    Go ahead.

      STATEMENT OF JAMES L. CUMMINS, EXECUTIVE DIRECTOR, 
            MISSISSIPPI FISH AND WILDLIFE FOUNDATION

    Mr. Cummins. Chairman Walden, Ranking Member Udall, and 
members of the committee, I certainly appreciate the 
opportunity to be here today and speak to you on behalf of the 
Healthy Forests Restoration Act and, specifically, on one of 
the titles that deals with private lands.
    We have worked hard in assisting Congress in passing this 
legislation, and, Chairman Walden, we certainly appreciate your 
efforts, and many of us in the conservation community are very 
glad with what you have done for the Healthy Forests 
Restoration Act.
    Mr. Walden. We couldn't have done it without your help.
    Thank you.
    Mr. Cummins. Thank you.
    I am here today as a certified fisheries biologist, a 
certified wildlife biologist, as well as a private landowner. I 
spent last weekend doing some controlled burning on our own 
family's land that has been in our family since 1833.
    In the Southeast, healthy forests comprise much more than 
just forest management and fire prevention on public lands. 
According to the Forest Service, nationwide public forests 
compromise 42 percent of our land mass, and private forests 
comprise 58 percent. Private forests, also, provide 89 percent 
of our Nation's timber harvest, and the South alone provides 60 
percent of this, making it the largest producer of timber of 
any other country in the world. And while our Nation depends so 
heavily on these private forests for wood products, we also 
depend on them to provide many other services, such as Habitat 
for Threatened and Endangered Species and carbon sequestration.
    We expect a lot from private forest landowners, but we 
rarely think about how they can afford to continue to provide 
these services. It is a cost that usually can only be recovered 
through selling timber or divesting of land. And while this may 
be possible for some landowners, many small-and medium-sized 
ones find it impossible to provide this habitat in these other 
services. It is for these reasons that the Healthy Forest 
Restoration Act included Title V, the Healthy Forest Reserve 
Program.
    It is estimated that private lands provide 90 percent of 
our Nation's listed species. And as I came in the door this 
morning, I saw three panels outside listing the 1,264 species 
that are found here in the U.S.
    Nationwide, the South has the largest percentage of these 
listed species. Eight of the top ten States and territories 
with the most listings are in the South. They include Alabama, 
Florida, Georgia, North Carolina, Tennessee, Texas, Virginia 
and Puerto Rico. There are many rare forest ecosystems that 
exist largely on private lands, and they require financial 
incentives for restoration. The States with the greatest forest 
ecosystem laws are Florida, California, Hawaii, Georgia, North 
Carolina, Texas, South Carolina, Virginia, Alabama and 
Tennessee. You may notice that this almost mirrors the list 
with the most listed species.
    To give you a good example of what I am referring to, 
across the Southern Coastal Plain, the longleaf pine ecosystem 
once covered approximately 80 million acres. Now, it covers 
only 3, and this ecosystem is one of the most diverse 
ecosystems in North America, with over 20 federally listed 
species. Each of you should have a copy of our Longleaf Pine 
Management Handbook, and it will give you a practical example 
of how the Healthy Forests Reserve Program should work.
    Many years ago, in 1934, Aldo Leopold, who is regarded as 
the Father of Wildlife Management, stated, ``Conservation will 
ultimately boil down to rewarding the private landowner who 
conserves the public interests.'' The Healthy Forests Reserve 
Program does just that. It combines some of the most successful 
components of programs like the Conservation and Wetland 
Reserve Program that this Congress has passed, and they help 
pay and provide incentives to landowners for habitat 
restoration.
    I am pleased to see that the Natural Resources Conservation 
Service will administer the Healthy Forests Reserve Program. 
Forest Service, Fish and Wildlife Service and NOAA Fisheries 
will, also, be involved. NRCS has strong outreach capabilities 
in all of the States, especially in those with the greatest 
forest ecosystem laws. There is an office in almost every 
county or parish, and they are very experienced in delivering 
private land conservation programs.
    Eligible lands for this program include designated forest 
types that contain candidate threatened or endangered species 
that can be recovered and can be recovered is a very key 
component. They, also, include a safe harbor agreement, a type 
of agreement that was pioneered by some of my good friends at 
Environmental Defense that will help protect landowners once 
the agreement has ended.
    The program will be promoted to private landowners. 
Contracts will be awarded to the highest-ranking applications, 
and then an easement payment of up to 99 years will then be 
paid based on the appraised value of that easement. The 
restoration plan will then be developed and implemented. It may 
include a variety of things, such as tree plantings, prescribed 
burning, removal of fish barriers, placement of fish screens 
and eradication of invasive species, to name a few.
    For Fiscal Year 2005 and 2006, it was suggested that $25 
million be incorporated in the President's budget for a pilot 
project. The project would have focused on recovering the 
gopher tortoise in the longleaf pine ecosystem and also focused 
on salmonids in the Pacific Northwest, specifically the Umpqua 
cutthroat. Many other conservation organizations were very 
disappointed to learn that no funds were included in the 
Healthy Forests Reserve Program in the President's budget in 
either year.
    For the record, I am providing a letter from 47 
conservation organizations and 10 U.S. Senators demonstrating 
the need for funding this very valuable program. I would like 
to request that this Subcommittee support at least a pilot 
program. You might consider one on private lands around 
military bases to assist in recovering species that impair 
training operations, while, also, reducing base encroachment.
    This type of proactive approach that the Healthy Forest 
Reserve Program offers, when funded, will help remove species 
of our Nation from their respective lists. It will, also, aid a 
species before it is listed, making it unnecessary to do so. 
Working with private property owners and enabling them to 
conserve habitat on their property is the kind of proactive 
strategy that can head off a regulatory crisis, while improving 
the environment and providing opportunities for economic 
growth. It represents the best mechanism to increase landowner 
participation, reduce conflicts and optimize the environmental 
benefits of the Healthy Forests Restoration Act.
    Mr. Chairman and Ranking Member Udall, this concludes my 
remarks. I will be glad to respond to any questions that either 
you or other members may have.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Cummins follows:]

          Statement of James L. Cummins, Executive Director, 
                Mississippi Fish and Wildlife Foundation

``Conservation will ultimately boil down to rewarding the private 
        landowner who conserves the public interest.''
                 Aldo Leopold, Conservation Economics, 1934

    Chairman Walden, Ranking Member Udall, Members of the Committee, 
thank you for the opportunity to appear before you today to speak on 
the Healthy Forest Restoration Act (HFRA), specifically one of the 
titles that concerns private lands. We worked hard to pass this 
legislation. Many of you have spent a lot of time on it as well and a 
lot of us in the conservation community appreciate it.
    I am James L. Cummins, Executive Director of the Mississippi Fish 
and Wildlife Foundation. I am a certified fisheries biologist, a 
certified wildlife biologist and a private landowner. Our family's 140 
acres has been in the family since 1833, during that time it has 
undergone many changes from cotton to cattle/corn to timber/wildlife 
today. Some of our more significant accomplishments include 
conceptualization of the Wildlife Habitat Incentives Program, helping 
pass the Grassland Reserve Program and developing many of the 
components of the Wetland Reserve Program. Regarding public lands, we 
worked to develop the Holt Collier and Theodore Roosevelt National 
Wildlife Refuges as well as the Sky Lake Wildlife Management Area, 
which contains the largest stand of ancient cypress in the world.

Background
    Healthy forests comprise more than just forest management and fire 
prevention on public lands. According to the USDA Forest Service 
(USFS), nationwide, public forestlands comprise 317 million acres 
(42.38%) and private forestlands comprise 431 million acres (57.62%), 
predominantly in the eastern United States. And although in many ways 
these private lands are a model for achieving healthy forests through 
active management for multiple uses, it is also important to recognize 
the challenges to maintaining and improving the health of these 
privately owned forests.
    Private forests provide approximately 89% of the nation's timber 
harvest. According to the latest data from the USDA Forest Service, 
specifically the Southern Forest Resource Assessment, nationwide, the 
South alone provides 60% of the nation's timber supply, making it the 
largest producer of timber compared to any country in the world. 
Furthermore, more board feet of timber are annually harvested from the 
National Forests in Mississippi than all of the National Forests in the 
Pacific Northwest combined. Although many factors affect these 
seemingly lopsided statistics, the primary reason that private forests 
produce so much timber is that they are being actively managed.
    And while our nation depends so heavily on these private forests to 
produce the thousands of wood products we need every day, we are also 
depending on these same forests to provide many other services that 
benefit society, for most of which landowners never receive 
compensation. These free services to society include producing oxygen, 
sequestering carbon dioxide, filtering air and water, providing fish 
and wildlife habitat, including that for threatened and endangered 
species, improving the aesthetic beauty of the natural landscape and 
providing opportunities for recreation and solitude, just to name a 
few.
    We as a nation have come to expect all of this from private forest 
landowners while rarely giving thought to how they can afford to 
provide these services ``free of charge,'' when these services cost 
landowners. It is a cost that can only be recovered through the selling 
of timber, or by divesting of the land. In other words, we depend on 
private forest landowners to invest in land and timber management 
activities, often with a 50 to 100 year investment time frame, in hopes 
that the eventual timber value will be sufficient to offset the cost of 
owning and managing the land.
    And while this may be possible for some private landowners, many 
small and medium-sized landowners continue to find it difficult, if not 
impossible, to invest in active and sustainable management of healthy 
forests over such a long time. Add to this the uncertainty of 
regulations that might limit land management options, as well as the 
misinformed, but ever-increasing, campaign against the use of wood 
products, and it is easy to see why more and more private forest 
landowners are choosing to divest of their lands. These lands are 
rapidly being developed and broken into smaller units that cannot 
sustain many of the benefits and services society depends on from these 
lands. It is for these reasons that the Healthy Forest Restoration Act 
included Title V, the Healthy Forest Reserve Program, to address 
various concerns on private forestlands.
    While private forest lands are generally in better condition than 
public lands, according the to Southern Forest Resource Assessment, 
there are substantial opportunities to reach out to the Nation's 
private, forest landowners with incentives that will assist them in 
better protecting and managing these resources.
    It is estimated that private lands provide habitat for 90% of our 
Nation's endangered species. The South has the largest percentage of 
listed species in the nation. For example, eight of the top ten states/
territories with the most listings are in the South; they include: 
Alabama (115), Florida (111), Georgia (66), North Carolina (63), 
Tennessee (96), Texas (91), Virginia (71) and Puerto Rico (75). 
Mississippi has 38.
    The Endangered Species Act (ESA) has been effective in preventing 
some species from becoming extinct; however, it can be significantly 
improved by incorporating new recovery efforts. As long as the status 
quo of not increasing habitat, therefore not increasing populations, is 
maintained, the full recovery and delisting of populations of many 
species will not happen.
    Landowners need the encouragement, financial support and backing of 
federal and state governments to undertake projects to restore rare 
forests and the declining, threatened and endangered species they 
support. Incentive-based programs provide the basic operating framework 
to accomplish this objective. When funded, the Healthy Forests Reserve 
Program (HFRP) will encourage the formation of constructive and 
cooperative alliances with federal and state agencies to implement 
fish, wildlife and forest conservation on private lands. It represents 
the best mechanism to increase forest landowner participation, reduce 
landowner conflicts and thereby optimize environmental benefits of the 
HFRA.
    There are many rare forest ecosystems in the United States that 
exist largely on private lands that require active forest management 
for their restoration and will require substantial financial incentives 
for their ultimate restoration and conservation. Examples include the 
once great longleaf pine forest of the southern coastal plain, fire-
maintained, natural southern pine forests, southwestern riparian 
forests, Hawaiian dry forests, Southern Appalachian spruce-fir forests, 
mature Eastern deciduous forests, California riparian forests, old-
growth forests of the Pacific Northwest, mature red and white pine 
forests of the Great Lake states, fire-maintained ponderosa pine 
forests and southern forested wetlands.
    The states with the greatest risk of forest ecosystem loss are 
Florida, California, Hawaii, Georgia, North Carolina, Texas, South 
Carolina, Virginia, Alabama and Tennessee. This list almost mirrors 
that of the states with the most listed species.
    For example, across the southern coastal plain, the longleaf pine 
ecosystem once covered some 74-92 million acres from southern Virginia 
to central Florida and west to eastern Texas. Each of you should have a 
copy of a handbook that we prepared in partnership with the U.S. Fish 
and Wildlife Service. It will provide you a practical example of how 
the HFRP should work. Longleaf pine currently covers less than 3 
million acres, much of which is highly degraded. The longleaf pine 
ecosystem is characterized by open-canopied stands and is one of the 
most biologically diverse temperate forest ecosystems in North America. 
Over 20 federally-listed species (candidate, threatened, endangered) 
inhabit the longleaf pine ecosystem. The longleaf pine ecosystem also 
makes significant contributions to biodiversity and carbon 
sequestration. Moreover, longleaf pine produces superior solid wood 
products, including saw timber, utility poles and other high value 
products.
    The restoration and enhancement of degraded forest ecosystems to 
conditions as close to natural is emphasized through the creation of 
the HFRP. The HFRP's philosophy is to work proactively with private 
landowners for the mutual benefit of declining Federal trust species 
and the interests of the landowners involved.

An Incentive-Based Approach
    The Conservation (CRP) and Wetland (WRP) Reserve programs pay 
property owners for implementing conservation practices. Many 
conservation groups consider them the most broadly popular and 
successful conservation programs ever passed by Congress. Waterfowl 
populations and many other birds have increased due to these programs. 
These programs are demonstrating that wildlife population declines are 
reversible by habitat restoration. They have also stimulated rural 
development through increased expenditures for wildlife-associated 
recreation, which further stewardship and improve rural economies.
    These types of habitat restoration approaches, and those that 
include cost-share for conservation practices like the Wildlife Habitat 
Incentives Program and the Partners for Fish and Wildlife Program, 
present an opportunity to solve many problems associated with the 
recovery of threatened and endangered species in a manner that will 
maintain a strong economy and respect private property rights. The 
approach described herein will help make the Endangered Species Act 
(ESA) more effective.
    Habitat for threatened and endangered species, improving 
biodiversity, slowing urban and military base encroachment and 
sequestering carbon can all be accomplished by encouraging property 
owners, through financial assistance, to develop and maintain 
conservation programs that meet national and international standards. 
The current Farm Bill does not provide enough incentives to allow for 
significant population recovery. Problems exist with CRP due to its 
limited enrollment period (10-15 years) and problems that could occur 
after the contract expires. This is a key to meeting the Nation's 
international commitments and better safeguarding the Nation's heritage 
in fish and wildlife.
    While there are now programs under the ESA that address rare 
species before they are listed under the law, more needs to be done to 
keep species off the list by acting early and proactively. The HFRP 
should concentrate on improving forests, therefore a species' habitat, 
before the species reaches a threatened or endangered status (i.e., 
rare, peripheral and special concern).

Administration and Implementation
    I am pleased to see that the Natural Resources Conservation Service 
(NRCS) will administer the HFRP. Since the NRCS currently has strong 
outreach capabilities in all of the states with the greatest forest 
ecosystem loss (an office in almost every county/parish) and are very 
experienced in delivering private land conservation programs, they will 
be very effective and efficient in delivering the HFRP. The USFS should 
assist the NRCS in administering and implementing the program. Other 
appropriate state and federal agencies and non-profit organizations may 
be consulted with in carrying out the HFRP as the legislation allows.
    The NRCS and the USFS, in coordination with the U.S. Fish and 
Wildlife Service (USFWS) and the National Oceanic and Atmospheric 
Administration's (NOAA) Fisheries Division, shall describe and define 
forest ecosystems and the associated species targeted to recover. Both 
the USFWS and the NOAA will be in a position to provide constructive 
solutions to aiding in recovery efforts.
    The NRCS and the USFS should promote the program to private 
landowners. Other appropriate state and federal agencies and non-profit 
organizations may also conduct outreach activities at their expense. As 
authorized, NRCS may employ technical service providers as it does with 
the conservation provisions of the 2002 Farm Bill.
    Interested landowners should make application at a local NRCS or 
USFS office. Ranking criteria for each state and forest ecosystem of 
concern should be developed through a committee similar in function as 
the State Technical Committee. All applications should be scored and 
ranked. Contracts should be awarded to the highest-ranking applications 
for each state.
    The USFWS, USFS and NOAA should aid the NRCS in providing technical 
assistance and developing restoration plans. A State fish and wildlife 
agency, State forestry agency, State environmental quality agency or 
any other State or non-profit conservation agency/organization could 
assist in providing the technical assistance for the development and 
implementation of a restoration plan or financial assistance to aid in 
the cost-share. The restoration plan should maximize the environmental 
benefits per dollar expended.
    Landowners can voluntarily sell development rights to their 
forestland. Eligible lands for this program includes designated forest 
types that contain federally-listed threatened or endangered species or 
a designated candidate species and that can be managed through a safe 
harbor agreement, candidate conservation agreement with assurances or 
similar, voluntary incentive-based programs. NRCS should conduct an 
appraisal of these rights as it does with the Wetland and Grassland 
Reserve programs.
    To participate in the program, landowners should enter into forest 
restoration agreements with the NRCS to carry out activities 
appropriate to their property, forest types and restoration needs of 
the species to be recovered. Agreement terms will be 10-years, 30-years 
or 99-years in duration and should provide landowners with maintenance 
payments for such activities as prescribed fire, natural regeneration, 
planning, restoration and other activities. Landowners will receive 
cost-share assistance for the activities.
    For each forest type, the NRCS, USFS, USFWS and NOAA should develop 
a series of stewardship activities that could qualify as eligible 
forest restoration activities. Each forest type would have a unique 
series of activities. For example, eligible activities for the longleaf 
ecosystem might include planting longleaf pine on former longleaf 
sites, use of prescribed fire, hardwood control, restoration of native 
vegetation, control of invasive species, natural regeneration planning 
or other activities.
    Where landowners are undertaking stewardship activities that 
directly benefit endangered and/or threatened species and where the 
USFWS determines that such activities will result in a net conservation 
benefit for the species, the USFWS will provide safe harbor assurances 
through Section 10(a)(1)(A) or Section 7 of the ESA that ensure that 
landowners will not be subject to additional regulation as a result of 
their stewardship commitments.

Practices/Activities
    The practices of the HFRP should include, but should not be limited 
to: fencing for habitat protection; prescribed burning, restoration of 
wildlife habitat and corridors; forest stand improvement to include 
site preparation, tree planting, direct seeding, firebreaks, release 
and site preparation for natural regeneration, installation of water 
control structures in forested wetlands to provide beneficial habitat 
for wetland wildlife; installation/construction of nesting structures; 
restoration of hydrology; removal of barriers for aquatic species; 
establishment, management, maintenance, enhancement and restoration of 
grassed waterways and riparian areas; stream bank stabilization; 
installation of in stream deflectors; placement of fish screens; 
control or eradication of invasive exotic or competing animal and plant 
species; restoration of rivers and streams; removal of fish barriers; 
placement of fish screens; installation of low water weirs and in 
stream deflectors; fencing for habitat protection; augmentation of 
flows; best management practices and other activities approved by the 
Secretaries.

Other Contributions
    On February 15, 2002, the Administration announced the Climate 
Change Initiative, which includes carbon sequestration. Carbon 
sequestration is designed to meet the carbon-offset objectives of 
companies by reducing greenhouse gases. The HFRP can positively impact 
clean air and can be used to restore natural ecosystems through 
biodiversity restoration and have other positive environmental impacts 
such as reducing water pollution. There should be an emphasis on 
reforestation and forest management efforts so that it is done in a 
manner that both sequesters carbon and at the same time encourages 
biodiversity. By doing so, the United States can achieve benefits in 
other national and international commitments. To date, the U.S. 
Department of Interior has been a leader in working with energy 
companies to reforest lands of the USFWS in a biodiverse manner. The 
Southeast and the Pacific Northwest are the two most effective areas in 
North America for the sequestration of carbon.
    With the strong concern by the public about forestry being 
conducted in a sterile, monoculture fashion, the HFRP should have a 
strong commitment to restoring and sustaining natural ecosystems that 
are in a state of crisis. Of course, there should be flexibility to 
customize projects to meet a geographic need. The HFRP can be conducted 
in a manner that sustainable resource management is done in a manner 
that is profitable and at the same time encourages biodiversity. By 
doing so, the United States can achieve benefits in other national and 
international commitments. The United States and Central American Heads 
of Government signed the Central American-United States of America 
Joint Accord (CONCAUSA) on December 10, 1994. The original agreement 
covered cooperation under action plans in four major areas: 
conservation of biodiversity, sound use of energy, environmental 
legislation and sustainable economic development. On June 7, 2001, the 
United States and its Central American partners signed an expanded and 
renewed CONCAUSA, adding disaster relief and climate change as new 
areas for cooperation. Biodiversity will promote such public benefits 
as improved water quality, reduced soil erosion, fish and wildlife 
habitat, restoring habitat for declining, threatened and endangered 
species and outdoor recreation. These improved environmental assets 
will be quantifiable and may be marketable, thus providing an 
additional economic incentive to continue environmental enhancement and 
further improve rural economies.
    One of the most significant factors affecting our landscape is the 
continued breakup of family-owned forestlands. Family-owned forestlands 
are affected by changing economics and the increasing tax burden on 
property owners. Passing on family forestland to the next generation is 
a time-honored tradition. This occurs near both urban and suburban 
areas and near military bases. As the demand for specialized training, 
such as training that occurs in total darkness, the greater the need to 
maintain buffers around bases. The HFRP can be utilized to limit 
incompatible land use or to recovery species to preclude restrictions 
for threatened and endangered species that might otherwise interfere 
with military operations.

Budget/Appropriations
    For Fiscal Year 2005, it was suggested that $25 million be 
incorporated in the President's Budget for the Healthy Forest 
Initiative for a pilot HFRP project. The pilot program would have 
focused on recovering the gopher tortoise in the longleaf pine 
ecosystem of Alabama, Florida, Georgia, Louisiana, Mississippi, North 
Carolina, South Carolina, Texas and Virginia ($18 million). Restoring 
longleaf pine will accomplish this. There is a great opportunity to 
recover this species in less than 10 years. The pilot program would 
also emphasize recovery of one or more salmonids in the Pacific 
Northwest through forest restoration ($7 million). The Umpqua cutthroat 
and the Northern coast coho were two proposed target species (Oregon). 
I and many other conservation organizations were very disappointed to 
learn that no funds were included in the HFRP in the President's 
Budget. To demonstrate support, I am providing a letter from 47 
conservation organizations and 10 U.S. Senators demonstrating the need 
for funding the HFRP. Please include those letters as part of the 
record.
    I request that this Subcommittee support at least a pilot program. 
You might consider one around military bases to assist in recovering 
species that impair military training operations while also reducing 
encroachment onto lands adjacent to the base. The HFRP is not only very 
much needed, but is does not duplicate other federal programs.

Summary
    The type of proactive approach that the HFRP offers, when funded, 
will help remove the threatened and endangered species of our nation 
from their respective list. It will also aid a species before it 
reaches a status of endangered or threatened, making it unnecessary to 
list a species. Working with private property owners and enabling them 
to conserve habitat on their property is the kind of proactive strategy 
that can head off regulatory crises, while improving the environment 
and providing opportunities for economic development.
    As this full Committee considers modernizing and updating the 
Endangered Species Act, I urge you work with your colleagues to fund 
the HFRP and work with the House Agriculture Committee to utilize the 
conservation provisions of the Farm Bill to assist in recovery. 
Furthermore, any legislation should include a strong invasive species 
control and threatened and endangered species recovery utilizing 
incentives, including tax-based ones, for private landowners to 
voluntarily participate. I think you will find that both industry and 
conservation groups in my part of the world will help implement 
conservation measures to avoid listings, recover species that are 
listed and do this in a manner that we work with private landowners 
versus against them.
    Landowners in the South, and particularly Mississippi, have done a 
very good job of conservation of habitat for all species, no matter 
whether they are listed under the Act or not.
    Mr. Chairman and Ranking Member Udall, this concludes my remarks. I 
will glad to respond to any questions that either of you or other 
members of the Committee may have.
    Thank you.
                                 ______
                                 
    Mr. Walden. Thank you, and we will be following up with the 
appropriate individuals to make sure that all titles of the 
Healthy Forests Restoration Act are utilized appropriately, 
recognizing our budget constraints on all titles, but there 
should be more than nothing.
    Mr. Cummins. Thank you.
    Mr. Walden. We will work on that.
    Ms. Tucker, thank you for being here. Why don't we go ahead 
and take your testimony, and then I think we will have to cut 
it off because we have about eight minutes before we have to be 
over voting, and then we will come back. My apologies.
    Please go ahead and start.

STATEMENT OF LENA TUCKER, OREGON SOCIETY OF AMERICAN FORESTERS 
 STATE CHAIR ELECT AND DISTRICT FORESTER, OREGON DEPARTMENT OF 
                 FORESTRY, SPRINGFIELD, OREGON

    Ms. Tucker. Mr. Chairman and members of the Subcommittee, 
thank you for inviting me to testify on the progress of 
Community Wildfire Protection Plan development implementation 
in Oregon and the many opportunities and challenges for 
professional foresters that this process presents.
    For the record, my name is Lena Tucker. I am currently a 
district forester in the South Cascade District of the Oregon 
Department of Forestry. My district provides fire protection 
and forestry technical assistance on approximately one million 
acres of private and public forest land in the Cascade 
foothills, in the Southern Willamette Valley. I am here today 
as a professional forester, representing the Society of 
American Foresters, the Nation's largest professional society 
for foresters. The over 15,000 members of SAF around the 
country are committed to sound stewardship of our forest 
resources through sustainable forest management.
    Community wildfire protection planning presents great 
opportunities for professional foresters to help communities 
become better prepared to address wildfire threats and, at the 
same time, help educate communities and private landowners 
about the need to address other forest management issues 
through a landscape level planning approach. This is why last 
year SAF joined with the National Association of State 
Foresters, the National Association of Counties, the Western 
Governors' Association and the Communities Committee to develop 
and distribute a guidebook designed to help communities put 
together these plans in compliance with the guidelines in the 
Healthy Forests Restoration Act.
    To date, over 6,000 copies of the handbook have been 
distributed to Governors, State and local Government leaders, 
professional foresters, interested citizens across the country 
and in Canada. We estimate that Community Wildfire Protection 
Plans have been developed for over 600 communities around the 
country and, to date, you will note that I have just counted 
about 64 Community Wildfire Protection Plans now in Oregon. So, 
from your visit a year ago, Mr. Walden, we have really got on 
the ball and got some things going there.
    Mr. Walden. Congratulations.
    Ms. Tucker. I am excited about that.
    Working with CWPP's community fire planning under the 
National Fire Plan for several years now, I have witnessed some 
really extraordinary, unprecedented opportunities that the 
process creates, just valuable opportunities for communities, 
allowing them to identify their own local priorities for 
community protection and resource management and economic 
benefits.
    My experience with the Oregon Department of Forestry and 
National Fire Plan implementation has helped shape my 
perspective on the usefulness of CWPPs. And while working in 
the Eastern Oregon Area Office in Prineville, from 2001 to 
2004, I was charged with developing an implementation plan for 
our Department's use of Fire Plan grant funding. Foresters 
utilize the National Fire Plan funding to start fuels reduction 
projects and high-risk, wildland-urban interface areas in 
Central Oregon, Southeast Oregon and Southwest Oregon. These 
individual treatments around homes in high-risk areas were 
linked together to provide community fuel breaks around 
subdivisions.
    In many areas, like Sumpter, Canyon City near John Day, 
Crescent, Gilchrist, Sisters, just to name a few, Federal 
agencies or Federal partners were able to complete fuels 
treatments on the outskirts of the high-risk communities. Over 
time, the strategic mitigation projects in the interface, 
combined with landscape-level treatments on adjacent Federal 
lands will help restore the declining forest health in areas of 
Oregon.
    I would like to show you a couple of slides.
    The first one. This is near Bend, Oregon, the Fall River 
estates. This community got on board with fuels treatment 
probably about a year-and-a-half ago, a cluster of homes 
surrounded by BLM and Forest Service lands.
    Next slide.
    This is treatment, again, kind of on the boundary line 
outside of Fall River Estates. This is shown probably into the 
Federal lands, where the Federal agencies were able to actually 
do some fuels mitigation treatments.
    Next slide.
    Again, before fuels treatment on Federal lands. You can see 
just the density of brush, ladder fuels, a lot of ladder fuels 
in this lodge pole pine stand.
    Mr. Walden. You know, I hate to do this to you, but we are 
now under five minutes, and I was never a star athlete, by any 
stretch of the imagination. So what I may do, and I apologize, 
but it is the course of the voting around here, if you could 
hold the rest of your testimony--because I would really like to 
be able to see these slides, and I am kind of it right now--and 
then we will resume and allow you to finish your comments, and 
then we will go to Ms. Gregory so we can hear hers as well.
    Now, here is the good news for you. You have time to get 
lunch because we have two 15-minute votes, two 5-minute votes, 
a 10-minute motion to recommit. So we are looking at probably 
about an hour in legislative time. So that is what I would 
anticipate is 50 minutes to an hour we will be back here to 
startup and, again, I apologize for interrupting you.
    Ms. Tucker. Not a problem. We can do that.
    Mr. Walden. We have to do what we have to do. We are in 
recess.
    [Recess from 12:55 p.m. to 1:55 p.m.]
    Mr. Walden. I am calling the Subcommittee back to order. We 
timed that pretty close to what I thought it would be--wasn't 
it five till? I apologize for the interruption. I hope you all 
got refreshed while we were over voting.
    Lena, why don't you return to where you were and talk about 
the slides that you are showing us there, some of the work, 
which I have seen, by the way, on the ground--not necessarily 
specifically there, but I have been on a couple of those 
forestry tours and pretty impressive the good work that is 
being done to make that forest healthier.
    So I am going to turn it back over to you. Go ahead an take 
whatever time you need to finish up, and then we will go on to 
Lisa.
    Ms. Tucker. Thank you, Mr. Chairman. I will just kind of 
summarize these couple of slides here, and then I will go into 
my summary, and we will be done.
    Back to this particular area, which is in Fall River 
Estates, south of Bend. This is kind of a before fuels 
treatment project on the Deschutes National Forest there. It 
would be adjacent to Fall River Estates. There is, also, BLM 
land adjacent to Fall River Estates, and this is a case where 
the community was doing fuels treatment within their community 
and started working with the Federal agencies there to see if 
the Federal agencies could do their fuels work right next to 
the community. And planning, everything worked out right, and 
they were able to do fuels treatment. This is a before. You can 
see the debris and the ladder fuels.
    The next slide will show the same photo point cleaned up. 
Give us a little bit of time, and rain, and snowpack, and then 
there will be herbs, and forbes, and wild flowers.
    Mr. Walden. So that is the same location as the prior 
slide?
    Ms. Tucker. It is the exact, same location. You can just 
see that the ladder fuels have been reduced. It is thinned out 
a little bit. This is a lodgepole pine stand. Again, the ground 
is looking a little bare, but given some time there will be no 
native plants coming back into there.
    The next slide.
    This is probably one of my favorite projects. This did 
happen before HFRA and Community Wildfire Plans, but it is a 
great example of a community getting together and working on 
creating defensible space around their homes. This is in 
Sumpter, Oregon, between Baker City and John Day. And so this 
shows a cabin there--you know, the big, old large pines. They 
created defensible space around the cabin.
    And the next slide, you will see a fence line. Now, to the 
right of the fence line is that cabin and the private land and 
to the left and out into the landscape is national forest. Here 
is a case where the ranger district there was able to put their 
fuels treatment money right adjacent to this community near 
Sumpter and do thinning, mechanical treatment, and treatment, 
hand piling.
    And I believe the next picture is a prescribed fire that 
they were able to do in there as well. So, again, great 
collaboration on the part of the community and the Federal 
partners there.
    I believe that is all I have for pictures.
    Just to sum this up, I would like to say that community 
wildfire protection planning is very much a work in progress, 
and it is going to take time and leadership from everybody who 
is involved--Congress, all levels of Government, professional 
foresters, as well as concerned stakeholders and citizens. 
Maintaining a consistent level of funding and technical 
assistance for hazardous fuels reduction projects through HFRA 
or the National Fire Plan is integral to helping communities be 
successful in carrying out their newly developed CWPPs. That is 
really what we want. We want to help communities help 
themselves.
    A commitment must be made to allow communities and 
stakeholders easy access to the information and resources they 
need to develop their Community Wildfire Protection Plans. They 
are not going to do it if we make it too difficult for them. We 
need to keep it simple.
    A concerted nationwide effort needs to be made to help make 
these resources available to the low-capacity communities, 
those communities who do not always have the resources or the 
expertise available to start a collaborative planning effort, 
and Sumpter could be one of those communities. I mean, they are 
small. They are away from a lot of the services the bigger 
towns receive.
    Congress and the Administration also need to support 
monitoring and evaluation efforts. How can we assess the 
success of the process and enable the application of lessons 
learned here? We could apply them to other areas of forest 
management.
    Building on the concepts in HFRA, we, as a Nation, need to 
continuously seek opportunities to work across ownership 
boundaries in partnership with all landowners, manage our 
forests comprehensively and in a timely manner. I mean, the 
fuels issue is real. It is here. It is now. It is today. We 
need to deal with it in a timely manner.
    Community Wildfire Protection Plans begin to create this 
comprehensive strategic approach, and we urge similar 
partnerships and collaborations for forest management and 
restoration across the country. We are looking, again, at the 
bottom-up approach--communities getting out there, defining 
what is unique to their community, what is important, what 
their values are.
    Thank you for the opportunity to testify today, and I would 
be happy to answer any questions.
    [The prepared statement of Ms. Tucker follows:]

 Statement of Lena Tucker, Oregon Society of American Foresters State 
   Chair Elect and District Forester, Oregon Department of Forestry, 
             Representing the Society of American Foresters

    Mr. Chairman and members of the Subcommittee, Thank you for 
inviting me to testify on the progress of Community Wildfire Protection 
Plan (CWPP) development and implementation in Oregon and the 
opportunities and challenges for professional foresters this process 
presents. I am currently a District Forester in the South Cascade 
District of the Oregon Department of Forestry. My district provides 
fire protection and forestry technical assistance on approximately 1 
million acres of private and public forest land in the Cascade 
foothills, in the Southern Willamette Valley. I'm here today as a 
professional forester representing the Society of American Foresters 
(SAF), the nation's largest professional society for foresters in the 
world. The over 15,000 members of SAF around the country and throughout 
the world are committed to sound stewardship of our forest resources 
through sustainable forest management.
    Community Wildfire Protection planning presents great opportunities 
for professional foresters to help communities become better prepared 
to address wildfire threats and at the same time, help educate 
communities and private landowners about the need to address other 
forest management issues through a landscape planning approach. This is 
why, last year, SAF joined with the National Association of State 
Foresters (NASF), the National Association of Counties (NACO), the 
Western Governors' Association (WGA), and the Communities Committee, to 
develop and distribute a handbook designed to help communities put 
together these plans in compliance with the guidelines in the Healthy 
Forests Restoration Act.
    To date, over 6,000 copies of the Handbook have been distributed to 
governors, state and local government leaders, professional foresters, 
and interested citizens across the country and in Canada. Numerous 
workshops have been held to help community leaders put together these 
plans, with foresters and other planning experts providing guidance to 
help them through this process. We estimate that community wildfire 
protection plans have been developed for over 600 communities around 
the country. This represents a significant change in thinking about 
wildfires that involves the communities and the people that live in and 
around our forests and are most at risk from wildfires.
Benefits of CWPP Process
    Working with CWPPs and community fire planning under the National 
Fire Plan for several years now, I've witnessed the unprecedented 
opportunities this process creates. Below are some general observations 
of how CWPPs have improved the way we help communities reduce their 
risk from wildfires:
    <bullet>  CWPPs are offering many valuable opportunities to 
communities, allowing them to identify local priorities for community 
protection and resource management.
    <bullet>  HFRA is complimentary to the development of CWPPs as 
communities can use local priorities for fuels mitigation to shape 
management decisions on public lands surrounding them.
    <bullet>  ODF, federal partners, county partners, fire departments, 
and extension foresters are encouraging CWPP development and helping to 
facilitate local discussions about fire protection issues.
    <bullet>  Communities are taking ownership in development of CWPPs 
and utilizing federal and state agency technical assistance in fuels 
mitigation strategy, structural risk mitigation, and landscape level 
forest health treatments.
    <bullet>  CWPPs ultimately belong to the community and reflect the 
local discussions of a diverse range of interest groups. Collaboration 
is a key component to the success of CWPP development.
    <bullet>  Stakeholder surveys are a useful tool in assessing a 
community's ideas on the issues and actions needed to improve overall 
wildfire safety in the wildland-urban interface. This also actively 
engages stakeholders in the process of CWPP development.
    <bullet>  The Preparing a Community Wildfire Protection Plan 
template developed by NASF, SAF, WGA, NACO, and the Communities 
Committee is being used extensively by communities in Oregon as they 
development local CWPPs.
    <bullet>  The Preparing a Community Wildfire Protection Plan 
template meets HFRA requirements, provides concise, step by step 
instructions and provides opportunities for public involvement through 
public meetings. This is a good template for communities to use if they 
want to meet HFRA requirements and they are in a county that has 
already done the FEMA wildfire chapter.
    <bullet>  Most importantly, the CWPP process is allowing foresters 
to do their job, applying the proven practices of silviculture to 
ultimately achieve forest health and other forest management goals on 
both public and private lands. The CWPP process is facilitating fuels 
reduction and forest health treatments across the landscape and helping 
to meet the goals of HFRA and the Healthy Forests Initiative.
CWPP Success stories from Oregon
    To demonstrate the above observations, I'd like to share some 
specific examples where CWPPs helped communities deal with often 
controversial issues and in the end, helped better protect themselves 
for fire risk and better manage their forested landscape.
    My experience while working with the Oregon Department of Forestry 
(ODF) on National Fire Plan implementation has helped shape my 
perspective on the usefulness of CWPPs. While working in the Eastern 
Oregon Area ODF office from 2001-2004, I was charged with developing an 
implementation plan for the Department's use of National Fire Plan 
grant funding. Foresters with the Oregon Department of Forestry 
utilized NFP grant funding to start fuels reduction projects in high 
risk wildland-urban interface areas in Central Oregon, South East 
Oregon and South West Oregon. Individual treatments around homes in 
high risk areas were linked together to provide community fuel breaks 
around subdivisions. In many areas (Sumpter, Canyon City, Crescent, 
Gilchrist, Sisters to name a few) federal agencies were able to 
complete fuels treatments on the outskirts of high risk communities. 
Over time, these strategic mitigation projects in the interface 
combined with landscape level treatments on adjacent federal lands will 
help restore declining forest health in areas of Oregon.
    Today, foresters are assisting the public and communities with 
preparing Community Wildfire Protection Plans to further increase the 
effectiveness of creating defensible space around homes as well as 
treating the larger forest landscape. The collaborative efforts of 
foresters from the federal and state agencies, rural fire departments, 
private landowners, local governmental agencies, volunteer 
organizations, and concerned citizens who live in the wildland-urban 
interface have resulted in the development of approximately 64 CWPPs 
throughout Oregon.
    From Southwest Oregon (Jackson and Josephine Counties): ``Fuels 
treatment and fire prevention efforts are all around us. It is a great 
time to get people involved. The big fires of 2002 and 2003 have 
brought fire protection into our living rooms. As a result, little 
groups are springing up everywhere and are receiving education and 
assistance to help them understand what they can do to create 
defensible space in their communities; they are providing a lot of 
energy to the CWPP effort. In some cases we are seeing projects 
accomplished even when grant money isn't available. People are now 
spreading out, away from their homes, and modifying fuels beyond the 
immediate defensible space area. Success is not just the development of 
a document; it is the connections that those in the forestry/fire 
professions are making with non traditional partners in their 
communities.''
    From Northeast Oregon: ``What we have gained from this experience 
is something you can't capture in a written document. We have 
enlightened the public about our roles (all agencies) in wildfire 
protection and what they (the public) can do to help themselves. The 
public understands what fuels reduction means and how collaborative 
efforts with all the agencies can help to reduce the risk of fire in 
the interface and at the same time increase the resiliency of the 
forests in which they live. It is difficult to report the success of 
community planning efforts B you can't measure the public's 
appreciation of the efforts that foresters and fire experts have put 
into helping them create defensible space around their homes and 
working towards longer term forest health improvements.''
    From the Crescent/Gilchrist area: ``Our CWPP steering group 
received a wonderful compliment from the private sector in one of our 
high risk, high priority areas. They were proud to be involved with a 
group that is so well represented by ALL agencies and interests, even 
industrial timber land owners. They couldn't believe that so many 
people have come together to give so many volunteer hours for the cause 
of Community Wildfire Protection.''
    From Lane County in the Southern Willamette Valley: ``In Lane 
County an extensive working structure has been established for 
developing a county-wide CWPP. The plan development process involves 
bringing together local, state and federal fire agencies as well as 
public and private landowners to contribute to the plan content. Local 
fuel reduction strategies and public outreach programs already in place 
will be identified and documented as well as opportunities for 
implementing new ones.
    On a smaller scale, the Oregon Department of Forestry is working 
with rural fire departments, foresters from Willamette National Forest, 
and community officials to develop individual CWPPs for the Upper 
McKenzie River area and the Oakridge/West Fir communities. These 
smaller scale CWPPs will specifically target the wildland-urban 
interface fuels treatment needs on private land as well as identifying 
key fuels treatments on adjacent federal land. USFS officials are 
working collaboratively with state foresters and stakeholders in the 
communities to identify key issues, and concerns on wildfire risk that 
exists on federal lands. The extent that the Willamette National Forest 
can obtain funding for fuels management projects adjacent to these 
communities, will ultimately demonstrate that the goals of HFRA and the 
CWPP process are being met.''

Recommendations
    Community Wildfire Protection Planning is still very much a work in 
progress and will take time and leadership from all involved, including 
Congress, all levels of government, professional foresters, and 
concerned stakeholders to make it successful. Maintaining a consistent 
level of funding and technical assistance for hazardous fuel reductions 
projects through HFRA or the NFP is integral to helping communities be 
successful in carrying out their newly developed CWPPs.
    A commitment must be made to allow communities and stakeholders 
easy access to the information and resources they need to develop 
CWPPs. The Oregon Department of Forestry is taking the lead in 
developing a website where CWPP templates, examples, grant 
opportunities, risk assessment information, and technical assistance 
contact information would be readily available for communities starting 
the CWPP process. A concerted, nation-wide effort needs to be made to 
make these resources available to low-capacity communities who don't 
always have the resources or expertise available to start a 
collaborative planning effort.
    The Pacific Northwest Region National Fire Plan Strategy Team is a 
partnership consisting of representatives from agencies or 
organizations in Oregon and Washington that have a role in implementing 
the National Fire Plan. This team of professionals has a key role in 
providing technical assistance to help communities build capacity; 
implement and provide oversight to the Healthy Forest Restoration Act; 
work with state and county governments to ensure community interests 
and needs are taken into account when funding NFP projects; and 
promoting regional and local level collaboration. This Team will help 
in getting the needed information and resources to communities in the 
PNW region. A similar approach could be taken in other areas.
    In addition to this, Congress and the Administration need to 
support monitoring and evaluation efforts of the CWPP process to assess 
the success of the process and enable application of lessons learned to 
other areas of forest management.
    While SAF is supportive of the increased emphasis through HFRA and 
the Healthy Forests Initiative on forest health and wildfire risk 
reduction, there is still a need for greater reforms within the federal 
agencies to address the need for better, more comprehensive management 
and restoration of our forests. Building on the concepts in HFRA, we, 
as a nation, need to continuously seek opportunities to work across 
ownership boundaries, in partnership with all landowners, to manage our 
forests comprehensively. CWPPs begin to create this comprehensive 
approach, and we urge similar partnerships and collaborations for 
forest management and restoration across the country, not just in fire-
prone forests.
    Thank you for the opportunity to testify today. I'm happy to answer 
any questions you might have.
                                 ______
                                 
    Mr. Walden. Thank you very much. We will get to those in a 
moment.
    Lisa, thank you for being here. Sorry to delay your 
testimony, but we are delighted that you were able to stick 
around for it, and we look forward to it.
    Thank you.

STATEMENT OF LISA DALE GREGORY, PH.D., NATURAL RESOURCE POLICY 
FELLOW, ECOLOGY AND ECONOMICS RESEARCH DEPARTMENT, ON BEHALF OF 
            THE WILDERNESS SOCIETY, DENVER, COLORADO

    Ms. Gregory. Thank you, Mr. Chairman, for the opportunity 
to testify. I am Lisa Gregory. I am with the Wilderness Society 
in our Four Corners Office in Denver, Colorado. I am here to 
talk to you primarily about recent research done by the 
Wilderness Society that highlights several significant 
obstacles with the implementation of the National Fire Plan. 
And since these problems are related to funding protocols and 
the use of performance measures, they are also equally matters 
of concern for the implementation of HFRA.
    In my testimony, today, I would like to highlight three of 
these areas of concern: hazardous fuels reduction, 
collaboration, and agency accountability. The research is 
primarily about the Forest Service.
    In relation to hazardous fuels, my research project was 
tracing Forest Service funding from the appropriations process 
down to the Washington office, to Region 2, which is the Rocky 
Mountain Region, down to two national forests along the front 
range. And I, also, traced the money as it went to the Colorado 
State Forest Service and from there to State and private 
entities as needed.
    There were several results that came out of this following 
the money that are relevant and interesting. The first one that 
I will talk about is the huge difference in the cost per acre 
to treat fuels on two national forests that are adjacent to one 
another, in very similar terrain, with very similar amounts of 
wildland-urban interface. They were able to burn, as opposed to 
mechanically thin, roughly, the same proportion, and yet on one 
forest the cost per acre was more than double that of another 
forest.
    Explanations for this are varied, and it maybe suggests the 
need to conduct a little bit more research into factors that 
influence costs because it doesn't have to do necessarily only 
with terrain or type of treatment. And that example shows that 
there are other factors that might be worth exploring as we 
seek to stretch our dollars to accomplish work.
    Mr. Walden. Can I interrupt you? Did you say that each 
forest burned rather than mechanical?
    Ms. Gregory. Approximately, the same proportion.
    Mr. Walden. I was trying to figure out if one did 
mechanical and one did burning.
    Ms. Gregory. They did, proportionately, about the same.
    Mr. Walden. So it was similar sort of treatment methods.
    Ms. Gregory. Yes, they were very similar.
    Mr. Walden. Thank you.
    Ms. Gregory. So the costs should have been very similar, 
and they weren't. So there is something else at play there.
    One forest was able, as a result, to accomplish nearly 
three times the work with just about 60 percent more funding. 
So maybe there is something that forest is doing right that we 
could then copy and emulate in other forests.
    The second result that I would like to discuss of following 
the money, when I followed the State and private line items 
through the Colorado State Forest Service, and we have heard 
this today in the testimony from others, that there is, 
undoubtedly, insufficient money that is being made available to 
protect communities. Other research suggests that up to 85 
percent of the land at risk is located on private land, and yet 
the Fiscal Year 2006 budget that just came out allocates 3 
percent of fire money to those lands. So there is a disconnect 
there, and that again is worthy of attention.
    A second component of the research that I would like to 
highlight is collaboration, and this was raised by Mr. Udall 
earlier. The Wilderness Society is very supportive of the 
collaborative approach as a way to build consensus on fuels 
reduction and other forest management. It is happening, but it 
is happening very unevenly across the country. And the reasons 
for such an uneven success with collaboration come down to 
three things: there is little or no funding for the effort, 
there are not very good performance measures used to encourage 
managers to use a collaborative process, and the national 
guidance is very weak, and there is a great deal of confusion 
out there. In particular, many forest managers are confused 
about the difference between interagency coordination and 
community collaboration. And so the numbers that are being 
reported are mixed and don't necessarily accurately reflect 
genuine collaboration on the ground.
    The third component of my testimony is the need for greater 
accountability within the Forest Service. This has long been 
reported, especially by the GAO, in terms of fiscal 
accountability. My research confirmed that. Following the money 
was a Herculean task within the Forest Service. And I, also, 
found similar types of reporting and accountability problems in 
the reporting of performance measures. For example, we see, and 
we have heard all day today, number of acres treated, and that 
is being used as a benchmark of success of the implementation 
of HFRA. Many of these acres have been double- or even triple-
counted. So, for example, a single acre may be thinned one 
year, then burned the next year, and then we come back the 
third year and monitor and clean it up, and each year that acre 
gets reported as treated, so that the total number of acres 
treated doesn't adequately reflect the percentage of lands that 
have actually been improved. And there are several other 
examples in my written testimony that speak to the accounting 
and reporting difficulties.
    I see that I am nearly out of time, and that does 
somewhat--
    Mr. Walden. Go ahead and finish.
    Ms. Gregory. That is OK. Those are my three major remarks, 
the points that I wanted to make. We believe that the 
implementation success of HFRA really depends on cleaning up 
some of these protocols, reporting procedures and funding 
misallocations.
    Thank you.
    [The prepared statement of Ms. Gregory follows:]

    Statement of Lisa Dale Gregory, Ph.D., The Wilderness Society, 
                            Denver, Colorado

INTRODUCTION
    We appreciate this opportunity to testify on the implementation of 
the Healthy Forests Restoration Act (P.L. 108-148). HFRA remains a 
controversial law. However, this testimony will not address areas of 
concern related to environmental procedures and safeguards. Instead, 
The Wilderness Society welcomes this opportunity to discuss three 
substantive areas of broad agreement: HFRA's attention to community 
protection, its emphasis on collaborative processes, and the need for 
improved performance measures and reporting procedures if these 
objectives are to be achieved.
    A forthcoming report from The Wilderness Society, entitled 
Following the Money: The National Fire Plan, Performance Measures, and 
Funding in the USDA Forest Service <SUP>1</SUP>, offers empirical data 
tracing appropriated money as it moves through the Forest Service 
system and ultimately enables work on the ground. The report also 
traces performance measures and explores the role of incentives 
embodied there. Although HFRA is not formally considered part of the 
National Fire Plan, certainly the legislation was designed within the 
context of fire management and is intended to reduce risks to 
communities. As such, the research behind our report is both relevant 
and important for better understanding the challenges facing effective 
implementation of HFRA. In particular, we would like to identify three 
major problems in the implementation of HFRA and the National Fire 
Plan:
---------------------------------------------------------------------------
    \1\ An executive summary of this report is enclosed. The final 
report will be posted on The Wilderness Society's web page 
(www.wilderness.org) by the end of March.
---------------------------------------------------------------------------
    <bullet>  Funding for hazardous fuels reduction is overshadowed by 
the many problems associated with suppression spending. Additionally, 
within the hazardous fuels program funding disproportionately favors 
federal land, even though fire does not obey ownership boundaries. For 
communities to be made truly safe, substantially more funding must be 
devoted to the State & Private Forestry line within the Wildland Fire 
budget.
    <bullet>  Despite policy guidance to utilize a collaborative 
process, neither funding nor the incentives created from performance 
measurement support this practice. As a result, fire managers are ill-
equipped to establish the recommended long-term collaborative 
relationships with stakeholders.
    <bullet>  Reporting practices are deeply flawed in the Forest 
Service. Our research shows that cost per acre estimates are very 
difficult to predict with accuracy, publicized hazardous fuels 
treatment numbers are exaggerated, and the degree of success reported 
for collaboration is simply impossible. Public trust depends on 
improved agency accountability.

BACKGROUND
    Our analysis of Forest Service funding and performance measures 
begins with the assumption that the allocation of federal money within 
the agency reflects national and political priorities. In other words, 
the distribution of scarce resources to carefully chosen public land 
management programs is purposeful--not random--and based on strategy-
setting at a number of levels within the government. The use of 
performance measures as a tool to enhance accountability and data 
collection at the field level is designed as a way for money to be 
directly tied to outputs; that is, through the use of this mechanism 
the public should be able to track what it got for its tax money, the 
executive managers should be empowered to redirect funds to places in 
greatest need, and accountability ought to be improved at every level 
of the agency. Perhaps most importantly, performance measures function 
as powerful incentives for agency behavior. It is impossible to 
understand the flow of money from the Washington Office downward 
without also tracing accomplishments as they are reported upward.
    Empirical data in the report, used for illustration in this 
testimony, comes from Fiscal Year 2003 (FY03), since that is the most 
recent year with complete and final data. In particular, data was 
obtained from the Washington Office of the USFS, Rocky Mountain Region 
2 and two National Forests in Colorado, the Arapaho-Roosevelt and the 
Pike/San Isabel. The Colorado State Forest Service provided state-level 
information. Other sources of data include federal budget documents, 
reports from the Government Accountability Office (GAO), extensive 
interviews of agency staff and outside experts, and a comprehensive 
review of the literature.

IMPLEMENTATION CHALLENGES FOR HFRA
    This testimony responds primarily to Title I of HFRA, the section 
that seeks to expedite processes for vegetation treatments on and 
adjacent to federal lands. Two critical implementation challenges stand 
out: achieving the desired hazardous fuels reduction treatment acres, 
and creating legitimate collaborative processes to expedite those 
outputs. For each of those categories, I will discuss funding issues 
and the role of performance measures.

I. Outputs: Acres Treated for Hazardous Fuels Reduction
        A. Funding
    As this committee is certainly aware, the biggest problem plaguing 
effective funding of long-term wildland fire management goals is the 
cycle of suppression appropriations, over-spending, borrowing, and 
partial repayment. With suppression funding accounting for 
approximately 70% of all Wildland Fire Program (Title IV of the Forest 
Service's budget) dollars spent, many have identified it as a primary 
source of concern. Current incentives do not encourage cost savings, 
and fire managers on the ground have something of a ``blank check 
mentality''. For example, in FY03, which was a relatively mild fire 
year, the FS was appropriated a total of $351.9 million for 
suppression, including Congressionally authorized emergency 
appropriation funds. Still, suppression expenditures for that year were 
$1,023 million, leaving a $671.1 million shortfall which was covered 
only by transferring money out of other National Forest accounts. As 
the GAO noted in a recent report, when money is transferred out of 
other fire accounts, projects are frequently delayed or cancelled. 
Since HFRA does not authorize suppression-immune accounts, the 
suppression borrowing pattern is likely to interfere with HFRA-related 
hazardous fuels reduction money reaching the ground.
    Secondly, effective planning requires realistic cost estimates for 
the work, but the current method for estimating costs is deeply flawed. 
Most cost estimates are given in a cost per acre format, even though 
costs in the southeast are vastly different from those in the west. 
Estimates in the literature range from $31-$2500, making any average 
essentially meaningless. Even two forests located along Colorado's 
Front Range, the Arapaho-Roosevelt (ARNF) and the Pike/San Isabel 
(PSI), show highly variable costs. In FY03, the ARNF was allocated 
approximately $3.6 million for hazardous fuels reduction treatments; 
they treated nearly 5,000 acres, 87% of them in the Wildland-Urban 
Interface (WUI), and were able to use prescribed burning for 63% of the 
work. By contrast, the PSI got $5.8 million (60% more than the ARNF), 
treated 18,869 acres (280% more than the ARNF) with similar WUI and 
prescribed burning percentages as the ARNF. The bottom line of these 
wildly different outputs is that it cost the ARNF $736.74 per acre, 
more than double the $311.14 it cost the PSI. As a result, the two 
neighboring forests are able to accomplish a vastly different amount of 
work with only slightly different pots of money.
    Explanations for this disparity have been many and varied. Some 
insiders have suggested that the use of discrete dollars was more 
efficient in the PSI for administrative reasons, specifically the 
hiring of more new field staff instead of planners. Others interpret 
the results to be the inevitable result of the somewhat different 
terrain within each forest's boundaries. This explanation is based both 
on the PSI's perceived ability to treat larger areas at one time, and 
its harvesting of greater value product to help offset costs. Whatever 
the reason, these two forests are located in very similar forest types, 
have extensive Wildland-Urban Interface areas, and are able to burn as 
opposed to mechanically treat approximately the same proportion of 
acres; the difference in cost/acre highlights the tremendous 
variability in costs and accomplishments even within a limited 
geographic area. More research must be devoted to understanding the 
factors that influence costs, and thereby increase the agency's ability 
to accomplish more work with limited funds.
    Finally, effective implementation of HFRA will be hampered by the 
limited funding devoted to the State & Private Forestry line. In 2001, 
federal planners identified 11,376 ``communities at risk'' (66 FR 751-
777) as an indication of the extent of the land ownership problem 
facing fire managers. Since fire doesn't recognize ownership 
boundaries, private land must be integrated into landscape-scale 
problem definition and fire management planning. State forest officials 
therefore have a fundamental role to play in ensuring that public fire 
managers work across ownership lines. The development of cooperative 
management relationships to achieve these goals is of utmost 
importance, and the passage of money from the federal level to the 
state is a critical building block toward that end.
    HFRA policy and implementation documents clearly state the critical 
importance of working across administrative boundaries, but those words 
simply cannot be matched by action unless funding backs intention. 
Policy objectives are only as meaningful as the resources assigned to 
support them. Federal reluctance to take responsibility for private 
actions is in many ways understandable, as it is rooted in American 
attitudes concerning private property; still, skyrocketing suppression 
expenditures suggest that taxpayers already foot the bill for private 
landowners who haven't taken the necessary steps to protect their 
properties. Funding hazardous fuels reduction exclusively on federal 
lands is incomplete and will ultimately undermine program success. The 
President's FY06 budget actually decreases funding allocated to State & 
Private Forestry, reducing it to a mere 3% of total money in the 
Wildland Fire Program. The Forest Service estimates that 59 million 
private acres in the ``community protection zone'' are at high risk, 
but the agency is powerless to address fuel treatment needs there with 
such limited funds. Increasing HFRA funding to state and private 
entities will go a long way toward communicating commitment, reducing 
fire risk and building capacity to bridge the public-private divide.
        B. Performance Measures
    To improve tracking of progress toward policy goals, the 1993 
Government Performance Results Act (GPRA) requires federal agencies to 
integrate performance measures into their strategic plans. In the case 
of HFRA, the desired fire-related outcomes mirror those in policy 
documents in the National Fire Plan: ``to reduce the risks of damage to 
communities, municipal water supplies and federal lands from 
catastrophic wildfire.'' But measuring risk reduction is complex and 
long-term; indeed, most outcomes, like the ones quoted above, tend to 
be programmatic and large-scale and, necessarily, difficult to assess. 
Outputs, on the other hand, are incremental steps toward outcomes; for 
example, if the outcome is reduced risk from fire, one output is 
``number of acres treated for hazardous fuels reduction.'' The implicit 
assumption, of course, is that the measurable output is an acceptable 
indicator of progress toward an un-measurable outcome. But The 
Wilderness Society's research suggests that, in fact, fire program 
outputs and outcomes rarely line up well.
    Linking annual outputs to long-term outcomes is exceedingly 
challenging in any policy-making area. The many intervening variables 
between agency inputs and long-term outcomes are commonly called the 
``black box'' of policy making. That is, differentiating the impact of 
one policy from other natural and planned phenomena that also have an 
impact is often impossible. In the case of land management, there are 
additional layers of complexity. For example, the desired outcomes 
themselves are oftentimes invisible; identifying ``forest health'', for 
example, has eluded scientific consensus in part because there are 
simply too many variables at play. Furthermore, the time horizon for 
ecological outcomes is oftentimes so long (decades, generations, 
centuries) that annual outputs are rendered distant contributors. In 
short, ecological realities lend unique problems to land management 
agencies' attempts to implement GPRA.
    The way the Forest Service currently measures hazardous fuels 
treatments is flawed. The measurement and reporting of acres treated 
has become something of a hallmark for demonstrating HFRA success to 
audiences both within the agency and to the public. Forests report the 
number of acres they treat, and track these acres both by method of 
treatment (prescribed fire or mechanical means) and location (priority 
Wildland-Urban Interface, or ``other''). This measure is intended to 
demonstrate increased activity on public lands, more active management, 
and a concerted effort to reduce the risk from fire. The assumption is 
that reducing fuels will reduce fire risk, but this assumption is an 
excellent example of the confusion between outputs and outcomes. Does 
reducing fuels equal decreasing fire risk? An exhaustive search of the 
scientific literature reveals a scant number of studies on the topic, 
none of them conclusive. It is likely that reducing fuels is but one 
factor that contributes to landscape-scale, long-term effective fire 
management. Other program components, including fire use in appropriate 
locations and enhanced cooperation by private landowners, are equally 
critical for success. Still, the ``acres treated'' measure is widely 
used and is considered the primary proxy for assessing success in the 
highly funded (and highly publicized) hazardous fuels component of the 
fire program.
    One way that the inclusion of performance measures influences 
activity on the ground is through incentives. Since so many key 
functions of the Forest Service's work defy easy quantification, 
managers operating under a system where their success is indicated by 
performance targets are drawn to performing those tasks that produce 
measurable outputs rather than those tasks that might be more important 
yet less tangible. Any agency that depends on a limited number of 
measures to define its ability to meet target goals will go to great 
lengths to demonstrate success. For performance measures to guide fire 
management effectively, they must be understood not merely as reporting 
tools for work that has already been completed, but as incentives to 
influence what work will get done in the first place. Likewise, policy-
makers should bear in mind that a manager who chooses to perform a 
given activity, like fuels reduction, does so only by also choosing not 
to perform other necessary work that is either less well funded or less 
easily captured by performance measures. The opportunity costs of 
incentive-driven behavior are real. Performance measures must be 
constantly reviewed and adjusted to produce the best results.
    Lastly, this heavy reliance on performance measures as indicators 
of HFRA implementation success places a lot of pressure on managers to 
report their work consistently and accurately so that it may be 
included in national level totals and reported to the American public. 
Research conducted by GAO, Forest Service employees, and The Wilderness 
Society comes to identical conclusions: the agency is still struggling 
to measure and report with necessary rigor. Prominent among the many 
data collection problems is the protocol whereby forests report acres 
as ``treated'' when they go under contract, not when the acres have 
actually been burned or thinned according to prescription. Defenders of 
this practice point out that it is the job of the USFS to develop 
contracts and negotiate with private entities to get the work done, not 
necessarily to do the work themselves. Once a parcel of land has 
successfully gone under contract, the money is placed in an 
``obligated'' category and considered effectively spent in that fiscal 
year despite the many months or years that will likely transpire before 
the actual work is complete and payment is made.
    For example, in FY03 the Arapaho-Roosevelt reported having treated 
4,957 acres. However, of those, 1,505 (30%) were merely contracted to 
outside entities. Nearly 2/3 of the work was accomplished internally 
and therefore verified as completed; the rest of the work was almost 
certainly not done by the end of the fiscal year, but since the 
contract administration for the job was, it was recorded as complete. 
These practices may make sense administratively but are quite 
misleading for the public. In Washington DC, acreage numbers are 
consolidated and loudly reported as annual accomplishments; these 
accomplishments are then used to tout success and justify continued 
funding for the program. For example, to demonstrate the success of the 
Healthy Forests Initiative in treating hazardous fuels, the Washington 
Office announced that the agency had treated 335,000 acres in 2004, and 
of those 126,300 were in the high-priority WUI. If the above 30% rate 
is consistent throughout the agency, then in fact only 234,500 acres 
were actually treated that year.
    Other data collection habits are equally problematic. For example, 
forests track acres treated by location, type of treatment, and more 
recently have also begun to record fire regime and condition class 
changes. In many cases, acres get counted twice or even three times. A 
single WUI acre might be thinned one year, burned the next, and 
contribute to a landscape-scale condition class change. Most readers of 
the data would easily conclude that three times as much terrain had 
actually been treated, since the treatment of that single acre would 
appear in several columns over two different years. If the agency seeks 
to improve public trust and strengthen accountability within its own 
ranks, then reporting practices must be tightened.
II. Collaboration (Process)
    Direction for the Forest Service's use of collaboration in the 
implementation of HFRA comes specifically from the 10-year 
Comprehensive Strategy Implementation Plan. Facilitated by the Western 
Governors Association and created by a stakeholder group in 2000, the 
Strategy was the first place to codify the term ``collaboration'' in a 
formal policy document. In that piece, the authors include 
collaboration not only in the title, but in the short list of ``core 
principles.'' The framework for collaboration presented there stresses 
the importance of communication ``across public and private lands, 
administrative boundaries, geographic regions, and areas of interest'' 
and reminds readers that ``successful implementation will include 
stakeholder groups with broad representation.''
    The 2001 Federal Wildland Fire Management Policy, often considered 
to be the backbone of the National Fire Plan, also weighs in on 
collaboration. The Policy notes that ``uneven collaboration'' has 
contributed to unsuccessful implementation of the 1995 Fire Policy. 
Likewise, the Government Performance and Results Act, the law that 
guides agency planners to integrate performance measurement into its 
strategy, requires ``consultation'' with stakeholders. Similar guidance 
on process is present in each of the policy documents associated with 
the National Fire Plan. There is widespread consensus that an inclusive 
collaborative process is integral to the implementation of HFRA and 
essential for its success.
        A. Funding
    If collaboration is so prominently featured in policy documents, 
one might expect there to be a line item in the budget to support the 
enactment of this ideal. At the very least, the agency's commitment to 
collaboration should be visible in investments in capacity-building. 
Unfortunately, this is not the case. The USFS's National Partnership 
Office has one employee, reflecting less than wholehearted financial 
support for the development of better collaborative tools. This 
Partnership Office Director reports that at the national level, 
interagency cooperation is strong and thriving like never before. These 
relationships, though, are more ``partnerships'', characterized by the 
building of coalitions among entities with similar interests. Building 
inter-agency relationships is absolutely critical, and these recent 
cooperative efforts are worthy of accolades.
    True collaboration, however, is the building of coalitions among 
entities who often harbor different interests and objectives. At the 
local level, there are some collaborative success stories. Forests in 
many areas regularly foster long-term advisory panels consisting of 
local citizens. HFRA asks communities to prepare ``Community Wildfire 
Protection Plans,'' thereby bolstering opportunities to connect local 
governments, fire planners, and interested citizens. Stewardship 
Contracting also encourages this kind of group formation in its 
``multi-party monitoring'' requirement, a provision that encourages the 
formation of stakeholder groups to help determine where, when, and how 
projects will be conducted. These developments, too, have the full 
support of The Wilderness Society and represent significant progress in 
the implementation of the collaborative ideal.
    One missing link is regional level collaboration. The gap is 
significant and represents a missed opportunity to engage regional 
interest groups and citizens at the ecologically important landscape-
scale. A rare example of progress in this arena comes from an example 
close to my home: Colorado's Front Range Fuels Treatment Partnership 
was hailed last year by Montana governor Judy Martz as ``the best 
example [in the state] of cross-jurisdictional collaboration, planning 
and implementation on forest health.''
    At all levels, agency planners are torn between investing limited 
dollars on collaboration efforts or spending them on treating acres. 
Citizens are burdened by the time and resources needed to maintain 
community organizations dealing with fire. Perhaps most critically, the 
preparation of Community Wildfire Protection Plans is outside the 
capacity of many low-income communities; as a result, the land 
management agencies implicitly prioritize the protection of more well-
to-do areas that are able to furnish their own funding to support this 
type of planning. For collaboration to succeed, financial support must 
back the policy ideals.
        B. Performance Measures
    The 10-Year Implementation Plan tried to provide land managers with 
guidance by matching its stated goals with performance measures. 
However, measuring collaboration is elusive and the Plan offers nothing 
specific to guide participants. There is only one performance measure 
which even comes close to assessing collaboration success: Goal 4, to 
``promote community assistance'' seeks to improve community capacity 
and suggests counting the ``% of communities at-risk that initiate 
volunteer and community funded efforts.''
    The current wildland fire management program offers scant 
opportunities to assess managers' success at establishing lasting 
collaborative processes. It may be argued that collaboration is not an 
end in itself, and instead should be seen as a way to achieve more 
substantive work which is then measured. But one of the unfortunate 
results of this gap in performance measurement is a fire management 
administration that is understandably reluctant to invest in such an 
expensive and time consuming activity as collaboration. Performance 
measures thus function as powerful incentives for decision-making, in 
this case by omission. Agency personnel will respond to incentives by 
directing limited resources toward places where efforts will be 
recognized and away from places where investments are invisible.
    Recently released performance data for the USFS presents some 
confusing data on this issue. Under Goal #1 of its long-term Strategic 
Plan, to ``reduce the risk from catastrophic wildfire'', the agency 
lists the following performance measure: ``Number of acres of hazardous 
fuels treated in the wildland-urban interface and percent identified as 
high priority through collaboration consistent with the 10-Year 
Comprehensive Strategy Implementation Plan.'' As discussed in this 
testimony, the Implementation Plan directs planners to include all 
manner of stakeholders, including community groups as well as state, 
local and national government entities. In response to this measure, 
the USFS reports that in 2002 (their baseline year) they had nothing 
short of 100% success at meeting this collaboration target. Is the 
agency truly claiming that every one of the 764,367 acres they treated 
that year was identified as high-priority through collaboration? This 
cannot be true. Copious evidence suggests that gaps in collaboration 
implementation are widespread. To publish inaccurate data is to 
compromise trust-building and hamper implementation success. After all, 
if current collaborative efforts are achieving 100% of desired targets, 
then there is no room for improvement.
    In sum, the lack of funding for collaboration, lack of national-
level guidance, and lack of effective performance measures all 
contribute to incomplete implementation of the collaboration ideal.

CONCLUSIONS
    With funding for hazardous fuels reduction already unstable due to 
overflowing suppression spending, it is perhaps not surprising that 
there isn't money left to support the inclusion of private landowners 
at risk and the development of better collaborative processes. But such 
funding must be made available if HFRA's policy ideals are to be 
implemented.
    Funding streams are rightly matched with accountability structures 
like performance measures. Indeed, incentives are nearly always 
embedded in policy direction. Those who develop such incentives must 
re-double their efforts to tighten the link between what is being 
encouraged, the opportunity costs of those management actions, and the 
overall policy goals. The first step is to identify which measures work 
and then eliminate those that are either not being tracked successfully 
or result in undesirable outputs. From there, policy makers can craft 
new measures to better capture the wide variety of activities under the 
fire management umbrella, carefully monitor how well they are working, 
and continue to update them indefinitely. Too much tinkering will 
result in measures that are not comparable across years, and to the 
degree possible consistency should be sought. As measures are 
tightened, agency planners must rigorously keep in mind the difference 
between outputs and outcomes. The difference between the two speaks to 
the need for more funding devoted to research that can help support 
links between individual projects at the forest level and over-arching 
land management objectives. Separating the two will also help agency 
communicators better reach both internal and external audiences, and 
thereby build trust with the public.
    It is unlikely that any magic bullet will effectively remedy the 
reporting difficulties that continue to plague the USFS's 
implementation of performance measures. Performance measures simply do 
not work if they are not accurately tracked and reported; improving 
accountability is only feasible if results are consistently and 
accurately communicated to a variety of audiences.
    To improve the chances of HFRA implementation success, adjustments 
need to be made not to the policy documents themselves, but to the 
implementation guidance and many supporting protocols. So many factors 
that contribute to our current wildland fire ``problem'' are largely 
beyond federal control: drought in the west, climate change, 
development in the Wildland-Urban Interface, and decisions made by 
private landowners who live in risk-prone areas. Targeting process 
(collaboration) and outputs (acres treated) are two things we can 
influence. Reform of the supporting governance structures, including 
funding streams and incentives created through performance measurement, 
will go a long way toward realizing the potential of HFRA to protect 
communities from the risks of wildfire.
                                 ______
                                 
    Mr. Walden. Thank you. I want to commend you on your 
testimony. Our staff has reviewed it in depth, and I have seen 
it and intend to read it more carefully on the flight to Oregon 
tonight, but it is very thorough and very helpful. You caught 
some things that, frankly, we wish we would have caught. I have 
to tell you, though, that I spent my freshman term on the Ag 
Committee. We had the Forest Service before us. That was in 
1999. The General Accounting Office came in and made a 
presentation about the accounting system failures within the 
Forest Service, and I will always remember they said, ``It is 
so bad we couldn't finish the project,'' and that it is as if 
Region 6 had a specialized piece of John Deere equipment, and 
they loaned it to Region 2. Region 2 counted it once, and 
Region 6 counted it twice.
    I mean, it was one of those, just a mess. And I remember 
saying, ``Is anybody held accountable?'' when the chief of the 
Forest Service, then chief--I think it was Mike Dombeck was 
there--``Anybody held accountable?''
    ``Well--''
    ``Anybody been reprimanded?''
    ``No.''
    ``Anybody been fired?''
    ``No.'' And I had just come off five years on a community 
bank board where, you know, you are regulated, and I was on the 
Audit Committee a while, and it just astounded me that our 
books were in that bad of shape. They would take their 
receivables against their--it was like their payments against 
their receivables. It was like you took your checkbook and just 
sort of ran an average of how far you thought you were off and 
applied it to the whole thing. I mean, it was that--these are 
statements out of the GAO.
    Since then, though, these agencies have brought in some of 
the best accounting minds on the planet, hopefully, and they 
have made a lot of progress. What you have identified indicates 
there is more to be done, but if you think what you found is 
bad--
    Ms. Gregory. I can confirm that some of the problems still 
exist.
    Mr. Walden.--you would still be looking for the first blank 
check, if you had started five or six years ago on this. So we 
appreciate the work you have done on it. You have raised some 
very valid points--some I have raised about how are we counting 
those acres treated? And I, also, recognize that part of a 
treatment regime may require multiple processes over years.
    Ms. Gregory. Absolutely.
    Mr. Walden. But then we need to ID that and understand what 
we are counting and what we are not.
    Ms. Gregory. That is exactly right.
    Mr. Walden. So I appreciate that and the collaborative 
approach information is very helpful as well. I put together, 
after this Act was passed, as Lena can tell you, three 
community forums in each region in my district down in Medford, 
in Central Oregon, and then up in Eastern Oregon, to bring 
together, you know, the people who I thought would be, 
initially, at least putting this together--the agencies, the 
local Governments, and then had open public forums to tell them 
let us get after this. It is a really important tool you have 
been given to locally pull everybody in and try and write a 
plan that works and give the agencies some guidance. You live 
there, recreate there, let us try and get it right.
    So, anyway, I appreciate your comments and, obviously, 
those of our other two witnesses.
    Mr. Cummins, as the House Resources Committee considers 
modernizing and updating the Endangered Species Act, which is 
somewhat off-topic, but not really, do you have any suggestions 
for us? As you know, there are some broad-based interests now 
in taking a look at how we can make it work better than it 
works today. You mentioned I think the posters outside there.
    I think you need to turn your microphone on, though, so 
that the rest of the world can hear you.
    Mr. Cummins. My accent is bad enough.
    [Laughter.]
    Mr. Cummins. The Healthy Forests Restoration Act has really 
kind of set the table, especially with Title V. And in terms of 
recommendations, you mentioned you were on the House 
Agriculture committee, in your time serving on that committee, 
there are a lot of different programs, Conservation Reserve, 
Wetlands Reserve, Grasslands Reserve. Those programs can be 
tweaked, and not a lot, to provide some pretty significant 
benefits to T&E species. So I would encourage you to work with 
your colleagues on House Ag.
    I would, also, encourage you to look at one problem that is 
not addressed that much are invasive species, and whether you 
are in the West or the Southeast or New England, we have a 
tremendous amount of problems looking at incentives and 
especially through the tax code, utilizing tax credits, tax 
credits that can be transferred from one landowner to another. 
That way it doesn't penalize a small landowner. Those are 
different types of things that I think will all certainly aid 
in recovery and really help strengthen and update the 
Endangered Species Act.
    Mr. Walden. I appreciate that, and I appreciate your 
reference to the invasive species. A number of us on this 
committee, in working with Senator Craig, passed some 
legislation. I was astounded to learn we are losing about 4,500 
acres I think a day to invasive species, noxious weeds that are 
taking over our rangelands, and clogging our little streams. I 
mean, Purple Loosestrife is a beautiful little blooming plant 
until you realize it has choked every stream in your 
neighborhood and destroyed them. And so we have a lot of work 
to do there.
    Mr. Cummins. Cogan grass is a very damaging invasive 
species that occurs in the Southern Coastal Plain, and it is 
really damaging a lot of our forest lands, either Louisiana 
Pacific, International Paper, et cetera. So we are seeing a lot 
of that in the South.
    Mr. Walden. As you know, the Healthy Forests Restoration 
Act caps its provisions after we have treated 20 million acres. 
There are estimates of up to 190 million acres of Federal 
forest lands that need some sort of restorative work or subject 
to catastrophic fire or disease or whatever. I would just be 
curious, in the little time I have left here, what you all 
think about that limit and whether, as we move forward, that is 
something we should consider expanding.
    Is there any scientific reason to keep a lid on it at 20 
million acres, when most will tell you it is significantly more 
than that?
    Mr. Cummins?
    Mr. Cummins. Well, if I have cancer, I want all of it gone, 
and I think we need to work toward treating the acres that need 
treating no matter what the cap is, and I don't think we should 
restrict ourselves either based on a certain acreage limit. Let 
us restrict ourselves based on the limit of the problem.
    Mr. Walden. Ms. Tucker?
    Ms. Tucker. I think it is hard to arbitrarily set a limit 
on what you should treat. Really, we should look at priorities, 
and what we are doing now is prioritizing those high-risk areas 
next to the urban interface, and from there we work out into 
areas that strategically make sense to treat for the fuels load 
out there. It is kind of like how do you set the fuel break 
around the community? Is it a quarter of a mile, is it a half a 
mile?
    Mr. Walden. Right.
    Ms. Tucker. In the face of the Biscuit fire, where fire 
managers out there saw it move nine miles in one day, you know, 
a quarter of a mile might not cut it for a fuel break or as to 
how far you go out there, so you just have to look at the fuel 
loading, the terrain, the weather, what is happening in a 
specific area and make a site-specific plan for it.
    Mr. Walden. It sounds like that wouldn't even be a fire 
pause let alone a fire break.
    Ms. Gregory, what is your view on that?
    Ms. Gregory. Before we go beyond 200 million acres, I think 
we--
    Mr. Walden. It is 20 million.
    Ms. Gregory. Sorry--20 million.
    Mr. Walden. If you would like to limit it at 200, we might 
cut a deal right here and now.
    Ms. Gregory. Before the limits of the act, as it exists, I 
think we need to focus more of the money into the wildland-
urban interface by getting that money to communities as they 
need protection. We are so far from meeting those goals, the 
existing goals, that I think it is a difficult proposition to 
consider a real one.
    Mr. Walden. But would the fact that a true collaborative 
approach takes time--
    Ms. Gregory. Yes.
    Mr. Walden. I mean, I would hate to bump up against it. We 
are going to wait for money no matter what, I think, in this 
process. There is never enough no matter what program you are 
talking about. Certainly, this is expensive, but saves us long 
term. I guess that is why I am starting to think forward 
saying, you know, it wouldn't take us that long to figure out 
20 million acres, four or five years, maybe, and collaborative 
approaches and appeals can take that.
    Ms. Gregory. Well, as Ms. Tucker suggested, 600 communities 
she said have completed their Community Wildfire Protection 
Plans out of an estimated 11,000 communities at risk. So the 
need there is tremendous, and the Federal support in the form 
of funding isn't there, and it is certainly slowing some 
communities down. So I would recommend that the money go toward 
those needs first.
    Mr. Walden. So not lift the cap yet.
    Ms. Gregory. Not yet, no.
    Mr. Walden. All right. I have exceeded my time.
    My generous colleague, Mr. Udall?
    Mr. Tom Udall. Thank you, Mr. Chairman. I very much 
appreciate having the panel here today.
    Ms. Gregory, you talked a bit about collaboration, and we 
all, I think from the West, understand the importance of it. 
And I think you mentioned that there were problems as far as 
policy guidance. Could you flesh that out a little bit more and 
how you think we could improve in that area?
    Ms. Gregory. Yes, I could. Thank you for the question.
    There is a great deal of confusion, as I mentioned, between 
interagency coordination and true community collaboration, as 
described in the 10-year Comprehensive Strategy Implementation 
Plan, which is what is referenced in HFRA as the guiding 
definition of collaboration.
    I am very perplexed by a statistic that I read in the 
Forest Service Strategic Plan and I heard repeated here today 
by Mr. Rey that he suggested that 97 percent, the strategic 
plan actually says 100 percent of acres that were treated were 
done so--were identified as a priority under a collaborative 
process. That seems, to me, to be simply impossible that we 
have 100-percent collaboration success at this point. If we 
did, it would seem there is no room for improvement, and I 
think everybody agrees that there is, in fact, a great deal of 
room to better institute a collaborative process at all levels, 
particularly the local and regional levels of organization. To 
do that, we need to back our calls for that with both funding 
and guidance.
    So, for example, the National Partnership Office here in 
Washington has one full-time employee. From what I understand, 
there are maybe two regional offices with half-time employees 
devoted to better understanding and implementing collaborative 
process. We can certainly do better than that, and there are 
communities trying to develop protection plans. There are 
regional level bodies that could certainly use the support and 
guidance of somebody with some expertise in what collaboration 
is and how to do it well.
    Mr. Tom Udall. So one of your recommendations would be to 
increase the number of personnel that actually work on forest 
collaboration.
    Ms. Gregory. That would be great.
    Mr. Tom Udall. Because you are talking about very small 
numbers right now.
    Ms. Gregory. If we had one person in every regional office, 
we would be looking at, what, nine people? And that would give 
a point person in every region for groups that needed some 
assistance or support. That would be a big step.
    Mr. Tom Udall. In your opinion, does the Fiscal Year 2006 
budget reflect progress in the areas that you recommend, such 
as State and private forestry?
    Ms. Gregory. No. As a matter of fact, the funding for State 
and private forestry has moved in the opposite direction. For 
the last five years, the average State and private forestry has 
represented about 7.5 percent of money allocated to wildland 
fire management. In the 2006 budget, it is down to 3 percent. 
So we are actually giving less money to communities where the 
need is greatest. And I think, as you said in your opening 
remarks, the money should follow the threat.
    Mr. Tom Udall. Could you just outline for us a little bit 
the size and the magnitude of the threat that there is on State 
and private land compared to, say, on Federal land?
    Ms. Gregory. I think the numbers are a little bit uneven, 
depending on the source, but absolutely everybody agrees. The 
Forest Service's own data suggests that maybe 40 percent of 
land at risk are on private land. Research done by The 
Wilderness Society suggests it is much higher than that. In any 
case, it is disproportionately underfunded compared to the 
amount of money going toward treating hazardous fuels on 
Federal lands.
    I strongly believe that unless we better empower 
communities to be partners in that effort, we won't solve the 
fire challenge that is facing us, and we won't effectively 
reduce risks to communities.
    Mr. Tom Udall. Great.
    Mr. Chairman, thank you, and I think this has been a very 
productive hearing today, and I appreciate it.
    Thank you.
    Mr. Walden. Thank you. I appreciate your participation in 
it--
    Mr. Tom Udall. I thank the witnesses on the third panel.
    Mr. Walden.--and that of our witnesses as well, all of our 
witnesses. Obviously, the record will stay open in case any of 
the other Members who couldn't come back or stay with us all 
day have questions, and we appreciate your responses to those. 
We appreciate the research you all have done and your counsel 
and guidance in this.
    I, also, want to recognize Richard Cook, who is with us 
today. He is a Fellow from the U.S. Forest Service helping out 
the Committee. This is his first hearing, so we appreciate his 
help.
    And it was, also, Megan's first hearing, I am told, for the 
Minority, and we appreciate the great job she did.
    So thanks for being here. We appreciate all of the input. 
We have a lot of work to do, and we will, in this Committee, I 
intend to run a fairly aggressive operation to deal with these 
problems. That is our job and our responsibility, and I think 
together we can continue to find good solutions that will work 
for our forests and our future.
    With that, the Subcommittee is adjourned.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
